<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                                  _______

     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS

                      KAY GRANGER, Texas, Chairwoman

  MARIO DIAZ-BALART, Florida       NITA M. LOWEY, New York
  CHARLES W. DENT, Pennsylvania    BARBARA LEE, California
  ANDER CRENSHAW, Florida          C. A. DUTCH RUPPERSBERGER, Maryland
  THOMAS J. ROONEY, Florida        DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska       JOSE E. SERRANO, New York
  CHRIS STEWART, Utah

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

            Anne Marie Chotvacs, Craig Higgins, Alice Hogans,
            Susan Adams, David Bortnick, and Clelia Alvarado,
                             Staff Assistants

                                 _______
  
                                  PART 5

                                                                   Page
  Funding to Prevent, Prepare for, and Respond to the Ebola 
   Virus Disease Outbreak.......................................     1
  U.S. Department of State......................................   111
  U.S. Agency for International Development.....................   390
  Department of Treasury International Programs.................   489
  Assistance to Central America.................................   563
  United Nations and International Organizations................   627
                                _______

          Printed for the use of the Committee on Appropriations
                                _______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-414                         WASHINGTON : 2015                                 
                                
                                
                                
                                
                                



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey       NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama               MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                        PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                 JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas               ROSA L. DeLAURO, Connecticut 
  ANDER CRENSHAW, Florida                   DAVID E. PRICE, North Carolina 
  JOHN R. CARTER, Texas                     LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                   SAM FARR, California 
  TOM COLE, Oklahoma                        CHAKA FATTAH, Pennsylvania    
  MARIO DIAZ-BALART, Florida                SANFORD D. BISHOP, Jr., Georgia    
  CHARLES W. DENT, Pennsylvania             BARBARA LEE, California     
  TOM GRAVES, Georgia                       MICHAEL M. HONDA, California   
  KEVIN YODER, Kansas                       BETTY McCOLLUM, Minnesota     
  STEVE WOMACK, Arkansas                    STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                TIM RYAN, Ohio          
  THOMAS J. ROONEY, Florida                 C. A. DUTCH RUPPERSBERGER, Maryland      
  CHARLES J. FLEISCHMANN, Tennessee         DEBBIE WASSERMAN SCHULTZ, Florida             
  JAIME HERRERA BEUTLER, Washington         HENRY CUELLAR, Texas                      
  DAVID P. JOYCE, Ohio                      CHELLIE PINGREE, Maine       
  DAVID G. VALADAO, California              MIKE QUIGLEY, Illinois          
  ANDY HARRIS, Maryland                     DEREK KILMER, Washington        
  MARTHA ROBY, Alabama                          
  MARK E. AMODEI, Nevada                            
  CHRIS STEWART, Utah                          
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  
                William E. Smith, Clerk and Staff Director

                                   (ii)

 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2016

                              __________                          
                              

                                      Wednesday, February 11, 2015.

FUNDING TO PREVENT, PREPARE FOR, AND RESPOND TO THE EBOLA VIRUS DISEASE 
                                OUTBREAK

                               WITNESSES

AMBASSADOR STEVE BROWNING, SPECIAL COORDINATOR FOR EBOLA, U.S. 
    DEPARTMENT OF STATE
DIRK DIJKERMAN, EXECUTIVE COORDINATOR, EBOLA TASK FORCE, U.S. AGENCY 
    FOR INTERNATIONAL DEVELOPMENT
JEREMY M. KONYNDYK, DIRECTOR, OFFICE OF U.S. FOREIGN DISASTER 
    ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

                Opening Statement by Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order. I want to welcome all 
the Members to the first subcommittee hearing of the 114th 
Congress. The purpose of today's hearing is to oversee funding 
within the State, Foreign Operations Subcommittee's 
jurisdiction to prevent, prepare for, and respond to the Ebola 
outbreak.
    I would like to welcome our three witnesses, Ambassador 
Steve Browning, Special Coordinator for Ebola at the Department 
of State; Mr. Dirk Dijkerman, USAID Executive Coordinator for 
the Ebola Task Force; and Mr. Jeremy Konyndyk, Director of 
USAID's Office of Foreign Disaster Assistance.
    Thank you all for being here.
    Although the international response was slow at the 
beginning of the Ebola crisis, the level of effort by the 
United States has been unprecedented. More than 1,000 American 
troops are currently deployed. The CDC has public health 
professionals in the affected countries. Our diplomats continue 
to work with governments to contain the outbreak. USAID leads 
the response on the ground. There are also hundreds of brave 
healthcare workers, many of them Americans, who have been 
mobilized by nongovernmental organizations to respond to the 
disease.
    The results of the response effort are staggering and much 
different than expected. In September, scientific models 
predicted that by January of this year there would be 550,000 
Ebola cases in Sierra Leone and Liberia. I will repeat that 
number because I had to check it because it is so astonishing: 
Predicted 550,000 cases.
    Those of us who watched the progression of this disease 
from the beginning and witnessed its devastating effects are 
all thankful that the actual caseload was nowhere near what was 
predicted.
    The press reported 124 confirmed cases in West Africa last 
week, one of the lowest levels since the outbreak began, and 
the total cases reported in those countries is approximately 
22,000. This is a fraction of what was predicted.
    The administration has announced that almost all of the 
U.S. troops in Liberia, which peaked at 2,800 in December, will 
come home by the end of April. One hundred DOD personnel will 
remain to help the Liberian military and governments in that 
region.
    But the fight is not over. As our troops come home, the 
difficult work of eliminating the disease will fall even more 
on the shoulders of aid workers on the ground. Effectively 
addressing this next phase of the epidemic is critical.
    As we all saw last year, when the disease came to our own 
shores, just one case could have devastating effects. Last 
fall, my home State of Texas experienced the disease directly.
    The Fiscal Year 2015 Appropriations Act includes $2.5 
billion of emergency funding in this subcommittee's 
jurisdiction, representing a clear commitment by the Congress 
on behalf of all Americans to fight the Ebola outbreak in West 
Africa and prevent the further spread of the disease.
    It is this subcommittee's responsibility to oversee funds 
provided to fight the disease, to ensure there is a solid plan 
for spending resources, and guarantee that any lessons learned 
from this crisis can be applied to future global health 
emergencies.
    I hope the witnesses can give us an update on how funds 
have been spent and how remaining funds will be prioritized to 
eliminate the threat of Ebola. We also appreciate your thoughts 
on how we can respond more quickly and efficiently in the event 
of another international health crisis.
    We commend the U.S. military and government agencies who 
have responded to this crisis, but we must ensure that there 
has not been unnecessary duplication of effort. If so, we need 
to change course now and not wait for the next crisis to get it 
right.
    I want to close by expressing my sincere appreciation for 
the healthcare workers who fought the Ebola outbreak and cared 
for those in need. They take risks every day that many of us 
never have to face. They are heroes, and some of the stories I 
have heard are truly remarkable.
    I will now turn to my ranking member, Mrs. Lowey, for her 
opening remarks.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mrs. Lowey. Madam Chairwoman, I join you in welcoming our 
distinguished witnesses. This is an important hearing, and I 
believe we all owe the thousands of U.S. personnel a debt of 
gratitude for combatting the deadliest Ebola outbreak the world 
has ever seen.
    Last summer, it was a crisis spiraling out of control, 
taking lives indiscriminantly, seemingly dismantling 
governments and economies in the process. The fact that a mere 
6 months later, we have not only prevented an explosion of 
infections around the world but bent the curve downward and are 
in a position to reflect on what we have learned is a testament 
to our expertise and the fundamental generosity of the American 
people.
    While we were not alone in responding--and I hope we can 
discuss the important contributions of the global community and 
the affected countries themselves--USAID, CDC, and the 
Department of Defense irrefutably led the charge and set up the 
systems and practices for the rest of the international 
community to follow.
    Liberia's President Ellen Johnson Sirleaf said, ``We saw 
actual boots on the ground. You can't imagine the difference it 
made in the hopes of the people. It inspired them to do more.''
    While we all hope the worst of this crisis is behind us, I 
am gratified that the administration and this committee remain 
focused on the work ahead as well as what lessons need to be 
learned to improve our response in the future. Clearly, the 
international warning system for disease outbreaks failed the 
people of Liberia, Sierra Leone, and Guinea. We need to have 
faith that surveillance and alerts will provide enough warning 
to stay ahead of outbreaks before they spiral out of control.
    I hope our witnesses can offer some insight on how the 
world fell behind in addressing the Ebola outbreak and what 
changes need to be made to make sure we do not face such a 
situation again. This crisis has reinforced that health systems 
are not a luxury but a necessity. They cannot be treated as an 
afterthought. Without a strong global health infrastructure, 
this could happen again. Too many first responders, the health 
workers in the affected countries, died serving their fellow 
citizens. International doctors and nurses cannot be a 
substitute for trained, resourced health workers who have the 
confidence and support of their local communities.
    Lastly, we have shown yet again that we have the capacity 
within different agencies and departments to sustain a 
formidable and coherent response. I cannot remember an 
international crisis that required such seamless coordination 
of so many different parts of our government. I was pleased 
that the Congress provided $2.6 billion of the $2.8 billion 
requested by USAID and the State Department for Ebola response. 
It was not easy, but these resources were appropriated in 
recognition of the unprecedented nature of this crisis and the 
uncertainty of future needs.
    However, I would strongly urge the administration to remain 
in close communication with this committee about plans for the 
use of funds. The initial plan sent to Congress last month has 
not inspired confidence, and I want to express my sincere hope 
that coordination will improve.
    Again, I commend you and look forward to our conversation 
today. Thank you, Madam Chair.
    Ms. Granger. Thank you, Mrs. Lowey.
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Ms. Granger. I will now call on the witnesses to give their 
opening statements, and I would encourage each of you to 
summarize your remarks so we can leave time enough for 
questions and answers. Your full written statements will be 
placed in the record.
    We will begin with Ambassador Browning.

                Opening Statement by Ambassador Browning

    Ambassador Browning. Thank you very much, Chairwoman 
Granger, Ranking Member Lowey, and distinguished members of the 
committee. Thank you for the opportunity to testify today on 
the U.S. Department of State's efforts to combat the ongoing 
Ebola epidemic and use of the recently appropriated funds.
    The Ebola epidemic in West Africa has already resulted in 
over 22,000 Ebola-infected persons and over 9,000 deaths. While 
Liberia, Sierra Leone, and Guinea have been affected the most 
by this epidemic, there have been cases in several other 
countries, including the United States. The three affected 
countries have borne and will continue to bear huge economic 
losses as a result of the epidemic.
    Thank you for appropriating funds toward defeating Ebola in 
West Africa. We appreciate the commitment and support your 
demonstrated efforts toward the response.
    Though the current case rate is falling, there is a long 
way to go. And we have to remember that one undetected case can 
start another outbreak. Last week we saw a rise in the number 
of cases in the region over the previous week, from 100 to 124, 
a reminder that we are not on a smooth glidepath toward zero 
new cases, which is the goal we must achieve.
    The United States has responded at home and abroad by 
implementing a whole-of-government strategy to lead the global 
effort on Ebola. With USAID as the lead agency for the 
international response, the Departments of State, Health and 
Human Services, Defense, Homeland Security, and other 
supporting agencies have worked together to combat the spread 
of the Ebola outbreak. DOD's mission in Liberia in support of 
the civilian response has essentially been completed. And we 
can be confident that Liberia will continue on the right track 
with robust civilian response that we have in place there.
    Our Ambassadors and Embassies Monrovia, Freetown, and 
Conakry have been essential to coordinating U.S., host 
government, and international partner efforts. U.S. Ambassador 
to Liberia Deborah Malac, U.S. Ambassador to Sierra Leone John 
Hoover, and U.S. Ambassador to Guinea Alexander Laskaris, and 
our interagency teams, both American and local staff, have 
worked tirelessly to help keep Washington abreast of all events 
on the ground, while encouraging their host governments to 
improve their responses.
    Additionally, our Ambassador to the African Union, Reuben 
Brigety, and his team were instrumental in convincing countries 
throughout Africa to provide assistance, including much needed 
healthcare workers. All four Ambassadors have displayed 
tremendous skill managing U.S. Government response on the 
ground.
    The Department has focused its energy on diplomatic 
engagement to increase international support for the Ebola 
response as well as improving coordination with the U.N. 
System, all the governments involved in providing resources, 
and international government and nongovernmental organizations. 
We have used every opportunity to impress upon the 
international community the necessity of joining together to 
win this struggle.
    State has also encouraged nongovernmental actors to join 
the Ebola fight. We have worked to identify stakeholders in the 
diaspora and private sector to devise ways to help. The State 
Department has supported the United Nations system in their 
response to Ebola. In mid-September, senior U.S. Government 
officials began high-level outreach calls to other governments, 
who have now committed a total of nearly $800 million to the 
fight against Ebola in response to this call. In addition to 
funding, many countries have committed essential personnel and 
other resources.
    And I brought fact sheets that describe the work of the 
broader international community, which I would like to have 
submitted for the record.
    It is essential that we focus on the immediate response 
until the epidemic ends. However, all humanitarian crises 
require a recovery period. In addition to the immediate 
response, we must ensure regional preparedness and rebuild 
health systems, not only in our tradition of humanitarian 
assistance but to protect ourselves from future infectious 
disease threats.
    The U.S. Government is working to improve preparedness 
planning, both internally and with the international community. 
The President launched the Global Health Security Agenda 1 year 
ago to accelerate global action to prevent, detect, and rapidly 
respond to infectious disease threats, whether naturally 
occurring like the Ebola epidemic or the result of bioterrorist 
threat.
    State and USAID are participating in an interagency effort 
focused on post-Ebola recovery and will work with international 
partners, the private sector, and nongovernmental organizations 
to support sustainable recovery within the region.
    I would like to close with remarks from the President, who 
stated, ``This disease can be contained.'' It will be defeated. 
Progress is possible, but we are going to have to stay 
vigilant, and we have got to make sure that we are working 
together. If we don't have a robust international response in 
West Africa, then we are actually endangering ourselves here 
back home.
    Thank you for your time and consideration. I welcome the 
opportunity to answer any questions you may have.
    Ms. Granger. Thank you.
   
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Ms. Granger. Mr. Konyndyk, you are now recognized.

                   Opening Statement by Mr. Konyndyk

    Mr. Konyndyk. Thank you, Chairwoman Granger, and thank you, 
Ranking Member Lowey, and members of the subcommittee for the 
opportunity to update you today on the ongoing U.S. Response to 
the Ebola epidemic in West Africa.
    And thank you, in particular, Ms. Granger, for your 
recognition of the brave healthcare workers who have really 
been the central backbone of this entire effort and whose work 
has been indispensable.
    I also want to thank you for this subcommittee's leadership 
in passing the 2015 emergency funding for Ebola. That support 
has allowed the U.S. to rapidly scale up a massive response to 
this outbreak, which has so far infected more than 22,000 
people and killed more than 9,000 of them.
    I lead the Office of U.S. Foreign Disaster Assistance at 
the U.S. Agency for International Development. OFDA is the lead 
Federal coordinator for overseas disasters. And our Disaster 
Assistance Response Team, or DART, platform is, in the words of 
President Obama, the strategic and operational backbone of 
America's response to the Ebola outbreak.
    With staff deployed across the region, the DART team is 
facilitating a complex pipeline of expertise, funding, and 
supplies that has been crucial to the effective regional 
response. The DART simultaneously strengthens the broader 
international effort, coordinates the unique capabilities of 
our interagency partners like the Centers for Disease Control 
and Prevention, the Department of Defense, and the U.S. Public 
Health Service, and delivers vast amounts of direct assistance. 
This gives the U.S. the unique and singular capability to 
project leadership and drive a comprehensive regional strategy 
to control and ultimately extinguish this outbreak.
    On August 4, we deployed a USAID Disaster Assistance 
Response Team to the region, and a few weeks later, I traveled 
to Liberia with Dr. Tom Frieden of the CDC to observe the 
crisis firsthand. What we saw on that trip was shocking. 
Transmission rates were far outstripping the small containment 
capacity that existed. And the international response was 
hobbled by a lack of resources, personnel, and expertise. 
Treatment centers we visited in the capital were turning away 
patients. Infectious bodies lay in the streets uncollected. Lab 
capacity was minimal. And protective gear for responders was in 
short supply. To be blunt, at that time, we were losing to the 
disease. It was clear that only a massive, unprecedented 
international response with strong U.S. leadership would be 
able to stem this outbreak.
    Working closely with experts from the CDC and in support of 
the governments of the affected countries, the U.S. Government 
developed a holistic strategy to contain and ultimately defeat 
this outbreak. Through the DART platform, we called on DOD to 
bring speed and scale to the effort, building treatment 
centers, training medical staff, expanding laboratory testing 
capacity, and supporting logistics. We brought in the U.S. 
Public Health Service through the DART to operate the DOD-built 
Monrovia Medical Unit, which addressed a critical constraint to 
the response by assuring responders that they would have high-
quality care available to them should they become infected.
    And we mobilized and financed an enormous scale-up of NGO 
and U.N. Agency partner capacity, to manage treatment centers, 
operate burial teams across Liberia, and launch massive social 
mobilization and messaging efforts that have reached millions 
of people while also providing coordination and logistic 
support.
    And our effort is not limited to Liberia. In Sierra Leone 
and Guinea, while we have not played the same lead role that we 
are playing in Liberia, the U.S. has supported similar lines of 
programming in complement to the efforts of the U.K., France, 
and other international partners.
    This effort has had an immediate impact. I returned to 
Liberia in October and found that, while still tenuous, the 
situation was already vastly improved. The scale-up of safe 
burials and social mobilization had attacked major drivers of 
transmission, and the additional case management capacity that 
we were bringing online was addressing critical shortages and 
treatment beds.
    By late October, the outbreak in Liberia had crested, and 
transmissions, while still worryingly high, had begun to 
decline. The trajectory in Guinea and Sierra Leone was 
following suit by the end of the year. As case rates have 
declined, we have shifted our goal accordingly from breaking 
exponential growth to getting the overall caseload down to 
zero. We have scaled back the size and number of planned U.S.-
built treatment centers while continuing to ensure geographic 
coverage and access to safe treatment across all of Liberia's 
counties. We are maintaining surveillance and community 
outreach efforts and adding greater emphasis on targeted 
subnational interventions to hunt down every case and ensure 
rapid and robust response to new hotspots.
    The U.S. has by now mobilized well over 10,000 USAID-
supported humanitarian partner staff across the region and 
provided over $939 million in assistance. This is the largest 
U.S. response to a global health emergency in history. And we 
are seeing remarkable progress.
    But the fight is far from over. We know, based on previous 
outbreaks, that it can be a long and bumpy road to get to zero. 
USAID strategy will continue to adapt along with conditions on 
the ground. And we will continue to chase down the last chains 
of transmission across the region until all affected countries 
have been declared Ebola-free. Thank you, and I look forward to 
answering questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. Mr. Dijkerman, you are now recognized. Thank 
you.
    Mr. Dijkerman. Thank you, Madam Chairwoman Granger, Ranking 
Member Lowey, and members of the subcommittee. Thank you for 
the opportunity to update you on our strategy moving forward 
and building on the effort that we have underway to get to 
zero. To contain diseases like Ebola, we are focusing on 
building more resilient health and preparedness systems in West 
Africa and in other hotspots in Africa. Our goal is to detect, 
prevent, and respond to future outbreaks before they become 
global security threats.
    Let me outline our efforts. USAID proposes to invest nearly 
$440 million of the Ebola emergency funds in bolstering health 
and preparedness systems. These efforts will contribute to the 
Government's goal of strengthening health security through the 
Global Health Security Agenda. In the three most affected 
countries, USAID will begin to integrate the capabilities built 
up during the response phase into the existing healthcare 
system. This should help us safely restart healthcare services 
that have stopped because of Ebola and prepare the system to 
address future outbreaks.
    We will also work to institutionalize the data and 
communication capabilities necessary to detect future flareups 
and direct rapid responses. In the 13 West African countries 
most at risk of future Ebola outbreaks, we have supported the 
development of Ebola preparedness and response plans, and we 
are now testing them. These plans build upon earlier guidelines 
that we and others developed to contain Ebola and Marburg 
outbreaks in Central Africa last year. The focus here is 
preparing for and managing cases resulting from human-to-human 
transmission.
    Furthermore, we are expanding our viral surveillance 
program and mitigation efforts to track and contain viruses in 
wildlife in West Africa and other hotspots. Our focus here is 
upstream to detect and take actions that will mitigate the 
transmission of diseases like Ebola from animals to humans 
before it happens. This approach has proven successful in 
reducing outbreaks of H5N1 or bird flu. While addressing these 
health issues, we should not forget that Ebola hit hardest in 
three fragile states where half of the population lives in 
poverty. Ebola reduced economic activity. People lost their 
jobs, their incomes, and many are now less able to feed their 
families.
    Our best estimates right now show that over 40 percent of 
Liberians, Sierra Leoneans, and Guineans are projected to 
experience acute food insecurity this year. We plan to target 
food vouchers to vulnerable families and individuals, both in 
urban and rural areas. Building upon the community mobilization 
efforts that have been recognized as having helped turn the 
tide in the Ebola response, USAID will seek to strengthen 
citizen oversight and engagement with the three governments. We 
are also working with school authorities to safely reopen 
schools and get children back on track.
    By harnessing the ideas of others, we are leveraging our 
response to Ebola. We launched a competition that could result 
in up to 15 innovations to improve healthcare safety and 
patient safety. Our first awards included a redesigned personal 
protective equipment with a built-in cooling system. If you 
have been to Liberia, you know how hot and humid it gets. 
Another innovation is a long-lasting antiseptic spray and 
spray-on barrier that repels microbes. We have another 
announcement that we will be making today, announcing another 
15 innovations from universities and others that will help us 
in this fight against Ebola.
    Striving to get to zero new cases, strengthening health 
systems, and assisting those who lost ground are the best 
investments in helping these three countries return to their 
path of growth and stability. These efforts are at the core of 
USAID's mission to end extreme poverty and promote resilient 
democratic societies. They also contribute to Americans' 
security at home and abroad.
    And, in closing, like my colleagues, I want to honor the 
humanitarians, the healthcare providers, the military men and 
women, and all Americans who are working to turn the tide in 
West Africa.
    And, most importantly, I want to thank you all for the 
congressional support that made these efforts possible. Thank 
you.
    Ms. Granger. Thank you very much. We will now go to 
questions, and now you can see how much time you have used. If 
you will limit the length of your question, we will have time 
for two rounds. I know people are very interested in this 
hearing, and I will begin with the first question.
    The Ebola response in West Africa required contributions of 
several U.S. Government agencies, not just those represented in 
the room. The Department of Defense and the Centers for Disease 
Control and Prevention have been key players.
    Ambassador Browning and Mr. Konyndyk, as the response 
evolved, how did the administration ensure there was 
coordination among the agencies and no duplication of effort? 
And are there more changes that need to be made? What lessons 
have you learned from this crisis? And what should be done 
differently in future global health emergencies?
    Ambassador Browning. Thank you very much. I think the key 
point is that we initially recognized the comparative advantage 
of the various agencies. In my own work in Uganda, when we were 
rolling out PEPFAR, we learned very quickly that CDC has 
strengths; USAID has strengths; DOD has its own abilities. And 
the administration looked to these agencies to use these 
comparative advantages when we first responded.
    USAID has the lead on the ground, and through their DART 
teams, their disaster emergency response teams, they 
coordinated the activities of all the various agencies. As far 
as back here in Washington, it was a very emotional, chaotic 
time. And we were looking for the best way to respond. 
Eventually the administration decided to bring on board Mr. Ron 
Klain, who helped bring together all of the agency responses 
and provide some structure to our response.
    Ms. Granger. Thank you very much.
    Mr. Konyndyk. I don't have a great deal to add to what 
Ambassador Browning said. I would just note that the focus on 
interagency coordination has been a core part of USAID's 
mandate and focus for many years and something that we have 
invested further in, particularly since the Haiti response in 
2010. And so what we have seen in this response, I think, is a 
proof of concept of some of the investments we have made since 
Haiti in being able to identify and organize and coordinate, as 
Ambassador Browning put it, the respective comparative 
advantages of different agencies.
    I think the other thing that has been critical is the 
excellent collaboration between our teams on the ground. The 
USAID and CDC personnel, in particular, worked very closely 
together.
    With respect to DOD, that is also an area where USAID has 
invested a lot of effort over the years in defining systems and 
interoperability between our different machines, if you will, 
and we have seen the real payoff here.
    Ms. Granger. Thank you very much.
    I will now turn this over to Mrs. Lowey for questions. 
Thank you.
    Mrs. Lowey. Well, thank you, again. We have really been 
impressed with your leadership and, equally important, the 
results you have achieved. However, I think, from my 
perspective, I remain concerned with the weakness this exposed 
in the WHO that receives a contribution from our bill. On 
January 25, the WHO's executive board unanimously endorsed a 
resolution aimed at overhauling its capacity to head off and 
respond to outbreaks and other health emergencies. Clearly, we 
need a better system to react in a more effective and timely 
way.
    Could either of you respond about what we have learned 
about the role of the WHO and what prevented it from acting? I 
know that Dr. Frieden is a member of the WHO's Executive Board. 
Is the CDC the agency within the United States Government that 
has been charged with seeking reforms that will make the WHO 
more effective, or does that fall under Secretary Kerry as the 
WHO is the coordinating authority for health within the United 
Nations system?
    So how do we really ensure that, in the next outbreak, we 
have the emergency health workers, funding for the development 
of vaccines, and proper treatment regimes in place? And where 
does that fall within the responsibilities of WHO?
    Mr. Browning. Very good questions, which I am happy to 
respond to, and then I will ask my colleagues to also help. In 
general, we support the United Nations where and while they are 
adding value. And when they are not, we want to enhance their 
ability to do well. And in the case of WHO, clearly there were 
some missteps in the early response by WHO.
    We have met with WHO leadership since then here in 
Washington and in Geneva. I am convinced that Dr. Chan has 
recognized that WHO did not do well in the early response. They 
have come up with some proposals that we have endorsed, some 
changes in their structure and in their ability to respond. 
They are proposing that the development of a cadre of global 
health workers--that was one of the initial weaknesses--that 
this cadre, much like firefighters who have been trained and 
prepared and ready to go when called upon, that didn't exist in 
the early days.
    They are proposing an emergency fund that they can tap into 
so that their response is not dependant upon pledges and 
remittances and receipt of money from the member states. And 
they are changing their staffing proposal so that it is based 
on merit and not geographic preferences from the member states. 
So these are improvements, changes, that we think are 
warranted. We are going to help them work toward these changes.
    As far as the U.S. Government response, Dr. Frieden is on 
the board. Secretary Kerry retains his leadership role in all 
of the United Nations' entities. My understanding is the Board 
membership requires that the member be a physician, and so Dr. 
Frieden was tapped in addition to his medical credentials but 
also because of his CDC membership.
    Mr. Konyndyk. As Ambassador Browning said and as Director-
General Chan has acknowledged several times, WHO's initial 
response had a lot of problems. However, what was particularly 
notable when I traveled out there in August was the vast 
improvement we saw in their performance once they got their 
emergency team involved. So their emergency team, while small 
and traditionally underresourced, brought some really important 
capabilities and some very, very strong personnel to the 
effort. And they rapidly got an additional ETU online in 
Monrovia in September and have brought value in various other 
ways as well, and we have supported them, as Ambassador 
Browning said, where we have seen them adding specific 
operational value.
    I think the challenge for the WHO and what we are trying to 
push from the USAID side through some of these WHO reforms is 
to take those valuable contributions and figure out how to 
better institutionalize those within WHO. And if they can 
achieve that--and we think they can--then that will be a huge 
contribution.
    Mr. Dijkerman. If I may, in terms of preparedness going 
forward, WHO has proven to be a very useful platform for us and 
CDC to advance some of the ideas and lessons we are learning. 
They were instrumental in helping adopt the 13 component 
standard that we need to have in place in the 13 countries to 
prepare for Ebola. And because we did it at the WHO, we were 
able to involve many other countries.
    The fact that we have been able to conduct 13 assessments 
and start response programs and not have to pay for it all 
ourselves but share it with other members of the WHO has 
enabled us to move much faster than we otherwise could.
    In addition to that, I focused on the Ebola preparedness on 
the human-to-human side, but if we look at the work that USAID 
is also doing on the animal-to-human transmission, we there, 
too, have been able to work through the WHO and get the 
adoption of a One Health approach, whereby we bring together 
not only the ministries of health in the countries in the 
region but also the ministries of agriculture and the 
ministries of security and policing, so that we get a 
comprehensive response to diseases like Ebola in the future. 
And it helps us figure out how to engage--in the United States 
we, for example, put together a 25-university consortium to 
work on veterinary sharing of best practices across countries. 
Bringing those capabilities together through this structure has 
enabled us to mitigate some of the transfer of diseases from 
animals to humans by changing practices on the ground in those 
countries, by having the veterinarians work in different ways, 
by changing market practices and so forth.
    So the WHO structure allows us to really leverage what we 
are doing. And so certainly there are areas for improvement, 
and I think my colleagues have identified that, but we have 
been able to use the structure to advance U.S. interests and 
U.S. priorities on global health security.
    Mrs. Lowey. Thank you. Thank you, Madam Chair.
    Ms. Granger. Thank you.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    First, an observation, which is when this subcommittee 
spends hard-earned taxpayer money for health efforts around the 
world or education efforts--something that the ranking member 
is very key on--or security efforts or human rights efforts 
around the world, I think the Ebola crisis really demonstrates 
that we really do it for our national interest. It is to 
protect the interests of the United States, and I think that 
was a very clear demonstration of why it is important to look 
at elsewhere and try to deal with these issues sometimes over 
there so that we don't have to deal with them here. And that 
was a great example of that.
    Now, there were some gaps, obviously, at the beginning. For 
example, we had a healthcare--facility here, I think it was 
only one, that was exposed here, and then we had a couple of 
healthcare workers who were exposed. It reminds me of, 
Hurricane Andrew in the State of Florida, where we were clearly 
ill prepared for the storm. After Andrew, Florida became, 
frankly, I will tell you, the national leader as far as 
preparedness for future storms.
    What are the lessons that you have learned--I am talking 
about here domestically--so that, hopefully it won't happen 
again? The chances are that we will have something else and it 
might--not be Ebola, it may be something, frankly, even more 
deadly, even worse, even more contagious than Ebola. What are 
some of the lessons, that the case of the exposure of the 
healthcare workers taught us so that we are better prepared in 
the future when we do have another incident, which may not be 
Ebola, may be something more dangerous?
    Mr. Browning. Certainly. I am happy to respond to that. 
While, for the State Department, our focus is foreign and 
overseas, we certainly care about the domestic response. And 
CDC and HHS take the lead here for domestic preparedness. I 
think one of the lessons we have learned in the State 
Department is that our national security does not begin and end 
at our borders. We must work to ensure that the health 
preparedness of nations around the world is strong enough to 
protect us and them from these diseases. And they will 
continue. They will grow. And we must not forget the lessons 
that we learned in this particular response.
    We were able to look at our visa operations. We were able 
to look at our ability to screen visitors to the United States. 
And so that is one procedure that we have improved that will 
help our domestic security particularly.
    Mr. Konyndyk. So for USAID, we are obviously focused 
internationally. So I don't have so much of an opinion on the 
domestic piece. But, you know, one thing that does, I think, 
touch on the domestic piece is the importance of being able to 
quickly mobilize U.S. healthcare personnel for something like 
this and what that entails, and so that has been things like 
State's great work on getting a medevac system up and running 
and as well as working with our partners to develop systems for 
how they can identify and deploy these medical staff quickly.
    Previously, a lot of our partners had trauma staff who 
could deploy on short notice, but they didn't have staff on 
call or volunteers on call who were trained and able to go and 
do something like this. So having more of a standing capability 
and a reserve pool of U.S. healthcare workers who can respond 
in this kind of a situation is something that we have 
definitely taken away as a lesson.
    Mr. Diaz-Balart. I would imagine part of that is equipment, 
too. I mean, this is not----
    Mr. Konyndyk. Absolutely.
    Mr. Diaz-Balart. You just can't show up there without, you 
know, protective gear.
    Mr. Konyndyk. Absolutely, and we have worked quite closely 
with the private sector on ensuring that there has been a 
constant supply of enough personal protective equipment.
    Mr. Dijkerman. Thank you.
    One of the lessons learned, I believe, that we are trying 
to convey is an international one, and that is we see some 
complacency setting in in places. We haven't beat the disease. 
And one of the things the United States needs to do in its 
messaging is to make sure that both in the countries that are 
most affected but also internationally we keep the focus on 
getting to zero because it is possible for one case to flare 
up. We need to remember this did start with one case. And so we 
have a leadership role in making sure that we keep everybody 
focused on that.
    By the same token, we need to keep focused on the fact that 
we were very lucky with this disease. It was transmitted by 
contact. And if we think about it, it could easily have been 
airborne, and then the situation we would have had would have 
been dramatically worse. So we need to keep the focus on a 
global security agenda that benefits not only ourselves but the 
entire world.
    And, lastly, I think a benefit that we have seen from other 
efforts that we brought to this one is the ingenuity or the 
innovation that is found in the United States can be brought to 
bear, and we have brought it to bear to the Ebola crisis. We 
have already had one grand challenge round that I mentioned. 
Today we will be announcing another 15 innovations that will 
help healthcare worker safety and patient safety. These are--I 
will let the press release come out later, but these are pretty 
neat things that are going to make a difference in people's 
lives in future outbreaks.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Yes, Madam Chairman, thank you, and it 
is good to be back on this committee. It is my first hearing. 
So I am the rookie.
    First thing, I want to thank you all. You can always learn 
to do better. You know, if you look at the world, the world 
looks at the United States to protect them from pandemics, 
terrorism, a lot of issues. And we are good because we have 
good, trained people.
    I want to talk about using technology to help. Ending the 
Ebola outbreak will continue to demand significant human and 
financial resources, especially having to identify and monitor 
Ebola cases in remote areas. You are going to have to project 
human resources capacity, human resource needs.
    Now, I happen to have in my backyard Johns Hopkins 
University and University of Maryland, who were very active 
with you in this case. And I want to talk about Johns Hopkins 
University houses an advanced supercomputer simulation and 
modeling center. The center has the ability to construct 
artificial worlds populated by virtual people programmed to 
respond as people would to real threats, such as infectious 
diseases like Ebola. The result is a highly visual and 
spatially realistic window into epidemics dynamics. And by 
incorporating psychology and human behavior, including 
contagious fear issues, the center's simulation models can help 
predict how complex societies and health systems might respond 
to a given event and what the ripple effects might be as the 
scenario unfolds.
    So my question is, starting with you, Ambassador Browning, 
do you think modeling, which I am talking about here, as an 
example the Johns Hopkins' supercomputer that I just talked 
about, would be useful to predict human future resource needs 
and where to have future resources available to address 
flareups or outbreaks, such as the Ebola situation?
    Ambassador Browning. I sure hope so.
    Mr. Ruppersberger. Let's talk about--where my question is 
really focusing on, technology, medical modeling, and the 
supercomputer at Johns Hopkins.
    Ambassador Browning. No, I think, as the opening remarks 
made clear, in the early days in the summer of 2014, the models 
were all over the place, and they were predicting up to half a 
million. I have seen one of over a million cases a year if 
there were no interventions conducted. This was not helpful 
data for us. I mean, it was the best we had, and we responded 
with the data that we had, but Ebola virus disease moves 
around. It is a living, breathing creature, and it was really 
hard for us to keep a handle on its evolution and its 
development. So any kind of modeling that can factor in all the 
multiple factors, particularly the psychology of it--and this 
is what we are seeing on the ground today. We have got the 
medicine. We can deal with the medicine, and there are some 
behavioral changes that will come into play. But when people 
are afraid of their government, when people run away from 
healthcare workers, when people are distrustful of outsiders, 
it makes our job incredibly difficult. So, with hard data that 
a model like you are talking about, if that could give us more 
precise information on how to deal with it, that would be 
superb.
    Mr. Ruppersberger. Let me ask you this. Are you familiar 
with the supercomputer I am talking about at Johns Hopkins?
    Ambassador Browning. I am not.
    Mr. Ruppersberger. Okay.
    Is anyone here at the table? Then I would suggest that you 
make contact with them.
    Ambassador Browning. Sure.
    Mr. Ruppersberger. I think this is innovation that makes us 
better, and it does the modeling that we are talking about.
    Ambassador Browning. Sure.
    Mr. Ruppersberger. Including dealing with the issues of 
fear.
    Ambassador Browning. Okay.
    Mr. Ruppersberger. I yield back.
    Ms. Granger. Thank you.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Madam Chairman.
    You talked some about the problems of coordination among 
the different agencies. I want to talk a little bit 
specifically about the military. But, before that, I 
understand, as relates to the military, that the Administration 
is going to bring home--I think they had 3,000 troops in West 
Africa, and most of them are home or going to be brought home 
soon. I guess that is the good news. There was criticism early 
on that it was slow, it was bungled, and that we didn't really 
meet the immediate need. But now it raises the question, is 
this too early to say we solved the problem and bring all the 
folks back home? Because, as I understand it, you would 
certainly not say it is over and there is still a lot of work 
to be done?
    That is the broad question. But let me specifically ask 
about the military because they were some of the first 
responders. People always say, ``why are we sending the 
military there?'' I think we came to understand that they were 
there to provide logistical support. They were there to train 
healthcare workers and build some of the infrastructure. But 
there were criticisms--and we are learning a lot as we look 
back--that there were 17 Ebola treatment centers. Some people 
argued it took too long to execute, and then they say some of 
those structures weren't used.
    I want you to talk about that. We have the best-trained, 
best-equipped military in the world, obviously, and the 
question is, is this the best use of the military? Were they 
adequately trained?
    You work with all these other agencies. Would you say, as 
you look back, that sending the military over there to build 
those units was that the right choice? Or as you look back, 
might there have been a better response? So talk about that 
specifically and if we were slow to get there or if we are, are 
we too quick to go home.
    Ambassador Browning. Let me address part of that, and then 
Jeremy, who has been working with them on a daily basis, I 
think, can get into much more detail. I do not believe it is 
too early to bring them home. I think now is the time to bring 
them home. We asked them to accomplish a discrete number of 
objects and procedures, objectives and programs. They have done 
that. We are leaving behind 102 uniformed personnel. They will 
continue to work very closely under AID's leadership in 
Liberia. And if there is a resurgence of Ebola virus disease, 
they will have a platform upon which they can build very 
rapidly. And this is one of the things that was missing when 
the military first came in.
    But we don't think that will happen because, in large part, 
due to our military's efforts, we have systems in place. We 
have physical facilities established now that we didn't have in 
the summer of 2014. So I think now is the right time to bring 
them home. We want the make sure that everyone there is fully 
engaged and employed. And I think the number they have come up 
where and the modules that they have identified in consultation 
with AID are the right ones to keep our military there.
    Mr. Crenshaw. Thank you.
    Ms. Granger. Thank you.
    Mr. Crenshaw. Is the military the best? As you look back, 
are there other agencies that might have done this better? Was 
this the right thing to do, or was it an emergency and it was 
the only thing we could do?
    Mr. Konyndyk. This was absolutely the right call, yes. What 
the military brings is an unprecedented operational speed and 
scale that really no one else can match. And that is what they 
brought here.
    To the question in some of the reports about the timing of 
these centers being built and coming online they are complex, 
difficult things to build. And Liberia, and particularly rural 
areas of Liberia where the military was doing the construction, 
is just extremely logistically challenging. I do not believe 
anyone could have done it any faster than our military.
    On the question of empty facilities, there are some of them 
that are not seeing many patients, and that is, in our view, a 
very good thing. And the reason for that is, you know, when we 
started this, we were trying everything that we thought might 
work. And we have adapted and adjusted that over time as we 
have seen what has delivered. And to our great relief, some of 
these things that did come online very quickly, things like 
burial teams, had an impact that was greater than what we 
expected at the time. And so we scaled down the size of these 
centers as they were being built. We scaled down the size that 
they have opened at--they were originally going to open with 
100 beds apiece. Most of them now are opening only with 10 or 
20 beds apiece because that is the level of demand we expect to 
see.
    In terms of whether we are pulling the military out too 
early, the military went there to do a few specific things: 
Logistics, that has largely been handed over. The resupply of 
the treatment facilities was handed over to the United Nations 
successfully in December. The construction is now completed. 
The training piece is now completed. The Monrovia Medical Unit 
was completed. And their support to that is being transitioned 
to a USAID contractor. And their laboratories are being scaled 
back but will remain under a different DOD program under this 
new iteration. So we feel very confident that all those main 
lines of effort are being effectively transitioned and will not 
leave gaps.
    Mr. Crenshaw. Thank you very much.
    Thank you, Madam Chairman.
    Ms. Granger. Thank you.
    Mr. Serrano.
    Mr. Serrano. Thank you, Madam Chair. It took me over 20 
years, but I am back on this committee. And I am glad to do so.
    Very briefly, I have a comment before I have a question, 
and that is, I think I speak for all my colleagues on behalf of 
this Congress and representation of this Nation, when you get a 
chance to thank those people who volunteered and those folks 
who went over--and thought of themselves--I know, in New York, 
people tried to be brave, but we were thinking about the subway 
going near NYU hospital, going downtown, riding a bus. We 
didn't know what we were dealing with, and these folks gave so 
much love and compassionate of themselves that I think this 
Nation has to show its gratitude. So, if I may, for all of us, 
when you run into any of them or those people in charge, tell 
them how grateful this Nation and this Congress is.
    My question. Farm production in the region has decreased in 
areas hard hit by Ebola, as farmers in some affected areas fled 
to areas seen as safer from exposure to disease. What actions 
has USAID undertaken to ensure that farm production in the 
region increases again to the level seen before the Ebola 
outbreak because I don't think what we want is on top of this 
issue to have yet another issue of longer or more hunger that 
may exist in the region already?
    Mr. Dijkerman. Thank you. I think I will capture that 
question right now and turn it over to my colleagues if they 
want to add. The analysis that we have done through another 
USAID instrument called the Famine Early Warning System and 
supplemented with work by the UN World Food Program and the 
Food and Agriculture Organization have pointed out there are 
areas where production has gone down, but overall, production 
has not gone down as much as one would have thought.
    What we are seeing is that there are more issues of access 
to food by people, particularly those who have lost incomes, 
and markets have stopped functioning because there were border 
closures. So what we have focused on--and when I mean ``we,'' I 
mean our Office for Food for Peace but also through Feed the 
Future, working in conjunction with the World Bank and many 
other international organizations is trying to get the markets 
functioning again. So, rather than bringing in food aid to meet 
people's needs, we are looking at giving vouchers so they can 
access the market and get the markets functioning, get the food 
supply going again.
    In some cases--I think this will be more a function of the 
World Bank--we are looking at what seeds and tools may be 
needed to increase production again because we are getting 
indications that, in certain areas, farmers are eating their 
seed, if you will, and so we do worry about that.
    Overall, we are projecting that there are going to be well 
over 6 million, closer to 7.5 million people that will be food 
insecure, both in urban areas and in rural areas, so the 
responses that we are trying to focus on are to get the markets 
functioning, get people access back to the private sector 
flows, if you will, rather than bringing food in from abroad.
    The other thing that we are focusing on is there are people 
that were disproportionately disadvantaged by Ebola compared to 
others. So we are putting together targeted food programs and 
voucher programs to get them not only back into the market but 
see how we can encourage them to get back to health centers. 
Simply reopening a health center is not in and of itself going 
to solve the problem. People need, as Ambassador Browning said, 
to have the confidence that they can go to that health center 
and not get sick.
    So we are looking at not only reopening health centers but 
also doing things through communities. So if they come in with 
a voucher and they get immunized, they can get a voucher to go 
to the market. And through that process, we can educate them 
that there is increased safety in getting health services 
again. And this will help, again, some of the most vulnerable--
the orphans, the women, who disproportionately take care of the 
children and who have lost earning capacity in markets and 
other types of things. So we are trying to focus not only on 
the farm side but the whole package in urban and rural areas 
for those that have been particularly disadvantaged by Ebola.
    Mr. Serrano. Thank you. That was a very informative answer, 
and when you say get them back in production or in the market, 
that is also encouraging farmers who left to come back to their 
land, I would imagine.
    Mr. Dijkerman. Yes. And one of the other things we are 
trying to do in this response is that before this crisis 
started, we had ongoing development programs. So, for example, 
we have a program at USAID based on Feed the Future, and they 
have had a number of long-term interventions going on that have 
stimulated rice markets, supported processing in rice markets 
to get more value added. So the World Food Program has actually 
been able to buy rice locally from these institutions that we 
helped create.
    Now, in the planning process going forward, we are sending 
out teams from our Office for Food for Peace that focus on 
vouchers and food, and sending them out with our Feed the 
Future folks so that as we design these immediate response 
programs to help people in need, we are also trying to modify 
our ongoing development programs to see what opportunities 
might be out there, not only in Liberia but in Sierra Leone and 
Guinea, to see if we can wrap around some of these other 
longer-term investments with some of the short-term problems we 
have identified. Thank you.
    Ms. Granger. Thank you.
    Mr. Stewart.
    Mr. Stewart. Thank you, Madam Chairman.
    And as the new member of this subcommittee, the guy who is 
sitting here at the very end of the row, I would like to thank 
the chairwoman for the opportunity to work on this very 
important committee.
    And to the witnesses, as I read your bios, it is 
impressive. And it makes us grateful that we have got 
individuals like you, who are engaged in what I think is 
obviously a very important cause. And many of you committed 
your entire lives to these types of efforts. And we thank you 
for that.
    I would like to express a concern. I may ask for your 
response, and then I would like to ask a question. But before I 
do that, my concern is this, as a former military officer, as 
an Air Force pilot for 14 years, it concerns me the role that 
the military has been asked to play in this. And when I talk 
with some of my associates who are members of the military 
still, it makes me more concerned. They were, in some cases, 
deployed without the training that they felt that was 
necessary, without some of the protections that they felt was 
necessary, and that makes me--again, gives me some cause.
    It is kind of like we have this attitude--and I don't blame 
us for this, and it is a compliment to the military that that 
is a fact--but it is like we sometimes throw our hands in the 
air and go, Well, I don't really know what to do, let's call 
the military and let them take care of it. And many times we 
do, and when we do that, they always do take care of it. I 
mean, we are grateful for their abilities and their sacrifices, 
but we have to remember that it doesn't come without a cost.
    For every military member that is in West Africa, that is a 
military member and another dollar spent that could have been 
spent or used in their core mission. And I think this falls 
outside of that.
    I would ask you to respond to that, but I think you have in 
some part already. And I would really actually like to spend my 
time on something else. And that is, I am an appropriator. As 
an appropriator, we are interested in the money. And it seems, 
in this case, we did something that Congress often does. And 
that is, when a crisis arrives, we throw a bunch of money at 
it. And then, you know, we hope that things go well. And 
sometimes we don't follow up or hold accountability toward that 
money like we should. And I don't think we want to do that in 
this case.
    So my question is, as I understand it, the State Department 
and USAID, the Ebola Response Preparedness Fund was 
appropriated something like $2.6 billion, of which we have only 
spent a part of it and probably a very small part of it. So I 
would like you to tell us, you know, what is in the remaining 
funds? And what is our intentions with those, you know, 
something more than a billion dollars that is left unspent?
    Ambassador Browning. Our plan is to make sure that we have 
addressed the need with the money available, and when that has 
reached its conclusion, the money returns.
    Mr. Stewart. Mr. Browning, do you have an accounting of 
that? Do we know how much has been spent of those appropriated 
funds, even a ballpark figure?
    Ambassador Browning. I think we do--I don't, but the panel 
does.
    Mr. Dijkerman. Yes. Well, actually what the committee wrote 
into the act is that we report every 30 days, and the next 
spend plan is going to be coming up pretty shortly. And I think 
the other important message we received from the subcommittee 
and in our discussions is that we know this is an emergency 
response, and it will evolve as we go. The benefit of having a 
30-day report to the subcommittee is that we can show how our 
knowledge and our response will evolve, and if we finish the 
job before we have spent all the money, then, as the Ambassador 
said, we will tell you.
    Mr. Stewart. But you would anticipate that we would finish 
the job before we spend all the money because this is winding 
down. Is that not true?
    Mr. Dijkerman. When the budget proposal was put together, 
we were clear with the subcommittee that we were anticipating a 
worst-case scenario. And so there is a likelihood that 
something might be left over.
    Now, how that will work out, we will have to see because we 
are not yet at zero. One of the challenges that we are working 
through, as I mentioned earlier about complacency, is that 
getting Ebola to zero in the other 24 examples that we have, it 
is, as Jeremy said, a bumpy road. This is the first time that 
we are trying to get to zero in a very large-scale Ebola 
outbreak. We are hopeful. We are confident, but I think we need 
to be cautious. And we will be reporting monthly to you as we 
do that.
    In terms of the funds being disbursed, we have been able to 
reimburse over $300 million of the funds that we have used from 
other accounts, and we have already committed roughly $100 
million to new emergency response activities. And there are 
other things that are in the pipeline that focus on 
preparedness that we are coordinating with the other donors. 
Let me maybe let Jeremy add a few points here.
    Mr. Konyndyk. So, just briefly, for the response piece, 
which is about $1.2 billion of that, as you noted we are right 
now ahead of where we thought we would be when we put the 
budget together. There are a lot of twists and turns that could 
yet arise. So if we were to see it reemerge in a neighboring 
country like Mali or Ivory Coast, that could scramble things 
quite considerably. So I think on the trajectory that we seem 
to currently be on, then I think we are on track to probably 
underspend what we thought.
    Mr. Stewart. Okay. My time is up. Let me conclude with 
this. You know, I am familiar with the use-it-or-lose-it 
mentality, as we all are, but I am asking you not to take that 
approach to this. We want to accomplish this goal and this 
mission. We all do. But, on the other hand, the fact that we 
have this pool of money there does not mean that every penny 
has to be spent. And we would look to you for accountability as 
to how that money is spent and returning to the people what 
money is not necessary.
    Mr. Konyndyk. Absolutely.
    Ms. Granger. Thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    This is a terrible dilemma because I have two hearings at 
once. So I apologize if some of the things that I may ask may 
sound redundant. And let me echo my colleague Mr. Stewart's 
comments. This is my first committee hearing on foreign 
operations, and I look forward to our robust dialogue.
    And thank you for your leadership, Madam Chair, and our 
ranking member, Ms. Lowey.
    Ambassador Browning, first of all, let me thank you all for 
your commitment and your intense passion on getting this right. 
I am from Nebraska. As you know, Nebraska has played a--I think 
it is safe to say--critical role in meeting the demands of 
treatment and trying to convey best practices to try to halt 
and stop the disease as well as treat those who have been 
impacted. So not only, obviously, do we have an interest, deep 
interest, in this for the sake of the proper humanitarian 
reasons you pointed out and international stability, but it 
also affects us right at home. In that regard, the initial 
reports, which were just a few months ago, were dire and 
ominous. And we were talking about the good news of slowing the 
exponential growth rate, the good news being we have had a what 
seems to me to be a complete turnaround from that perspective 
in spite of the tragedy of nearly 10,000 lives being lost.
    What is the single biggest factor that resulted in this 
turnaround that you can point to? Now a lot of things have 
converged here, and you have talked about the infrastructure 
brought to bear, the leadership of the United States, the basic 
improvements in sanitation, changes in cultural practices, and 
I see all that. But, obviously, none of this was predictable, I 
would say, 3 months ago. Can you answer that briefly? And I 
want to go to a couple of other things.
    Ambassador Browning. I don't know. So many factors.
    Mr. Fortenberry. How refreshing.
    Ambassador Browning. I say it quite often. I think it is 
hard to identify one factor that stands far and above the 
others. It is just hard to separate them, but perhaps Jeremy 
can do that.
    Mr. Fortenberry. I think we obviously need to lift from 
this so that we don't give ominous portents if something breaks 
in the future because we have an experience now of best 
practices and obviously some template that could be scaleable 
quickly based upon our learning of the last few months.
    Mr. Konyndyk. And Dirk will speak to that. What I would 
say, based on what we have seen, where we have seen rapid 
turnaround, it is not a single factor. It is when several 
critical factors are all working in tandem. So having safe 
burial teams without significant behavior change doesn't work. 
Having behavior change without treatment to refer people to 
doesn't work. So when you have that sort of virtuous 
combination of safe burial practices and capacity, social 
mobilization that drives popular behavior change, and adequate 
treatment capacity, that people can then refer to, when you 
have those things working in tandem, that is when we have 
seen----
    Mr. Fortenberry. Let me pivot to one other of my questions 
right quick regarding social mobilization. Would you define 
that further, please?
    Mr. Konyndyk. Sorry. Social mobilization is basically a 
variety of actions you take to change how a population behaves 
on a particular thing. So it is radio programs, house-to-house 
communication, and education, a range of things.
    Mr. Fortenberry. So let's take the case in Liberia. Because 
of the intensity of the impact--and I have been to Liberia 
before, but I have not been during this particular period--
because of the intensity, there was not only an awareness of 
the need to change certain cultural practices or habits, that 
was almost instantaneously implemented because it became a 
narrative of an entire country. I assume that is what you are 
saying. Is that what you mean?
    Mr. Konyndyk. Yes. With a lot of programming to support 
that as well. But in Liberia, certainly the ferocity and the 
speed with which it broke out drove a lot of behavior change as 
well.
    Dirk, do you want to talk about the study?
    Mr. Fortenberry. I am sorry. I am going to interrupt you. I 
have a minute and a half, and I want to get a few other things 
on the table. I think Congressman Stewart rightfully points out 
that we have been willing as a Congress to assist you in a 
robust effort here, but to be prudent with the dollars, 
particularly as this has declined, is essential. In that 
regard, though, back to our Ranking Member Lowey's question, 
the line of authority here or the hierarchy of response 
mechanisms, would in my mind point to international 
organizations as a first responder, the WHO. You pointed out 
the problems there, getting caught off guard or not having 
capacity or whatever internal weakness led to them not being 
able to be in the lead. But, again, once again, the United 
States is put in the lead by, both by choice and default, in an 
international crisis situation.
    We have got to, as you rightfully pointed out, impress upon 
the international community their responsibility to partner 
here, even when we are leading. Now, you talked about $800 
million committed by other countries. Has that been delivered, 
and if that has been delivered, will that offset our costs?
    Ambassador Browning. That supplements our contributions. 
This was the round that President Obama, Secretary Kerry, 
National Security Advisor Rice, picked up the phone. They 
called England. They called the Netherlands. They said, Can you 
give us some money?
    Mr. Fortenberry. This is the new way of doing business.
    Ambassador Browning. Right.
    Mr. Fortenberry. I want to impress that upon you. It is the 
21st Century model for international stability. We can lead. We 
have a large capacity to do so, and many other countries depend 
upon us. But we will not do this alone as other people simply 
either are unwilling to sacrifice or have been empowered to 
simply hide behind us and other countries. But I do think, 
again, in urging or demanding the WHO bring about certain 
reforms that would put them in more of a leadership position, 
which is the natural place to look first, I think is a prudent, 
long-term strategy policy here. Do you agree with that? I am 
sorry. I am out of time.
    Mr. Dijkerman. Yes.
    Mr. Fortenberry. Thank you.
    Mr. Dijkerman. Madam Chair, if I may just follow up on that 
comment because I think it is a very important point you made 
about what was the key factor, and as Ambassador Browning said, 
we don't know. We have our suspicions. But that is why we have 
already embarked upon a process to lay out how we can do an 
independent assessment of what the components were of our 
strategy and what seemed to work. Another thing that was very 
important, at least in Liberia, was the role of the President 
herself in taking a very active stance in managing and getting 
the messages out there. And getting this independent assessment 
done, which will be done with USAID and other agencies, it will 
help inform things like the Johns Hopkins model. A model has to 
be based on facts. And as we try to get better in predicting 
future outbreaks, having these comprehensive independent 
assessments are going to help us.
    The other thing that we are doing is trying to learn better 
now--because we don't have to wait. We can start now, and we 
are. We are working with our IG to see what some of our 
interfaces were with other agencies, where we can make 
improvements. Are there further areas we can further streamline 
how we do procurement or coordination with other departments. 
And so we have already done some lessons learned, if you will, 
but we are trying to have a much more aggressive lessons-
learned evaluative approach now. Actually Johns Hopkins is 
already helping us to work on one of the areas that Jeremy 
mentioned and you asked about, social mobilization and 
communications. One of the things we are finding it is very 
local, but we need to have a much more careful assessment about 
what worked where and how. And we need to put in place a system 
that is going to help us get that information and turn it 
around faster than we have been able to do in this response. 
Thank you.
    Ms. Granger. Mr. Dijkerman, prior to the Ebola outbreak, 
the administration launched its Global Health Security Agenda, 
and it designated CDC as the lead. I understand that USAID and 
CDC plan to spend hundreds of millions of dollars to ensure 
that health systems are able, to prevent, detect, and respond 
to infectious diseases, such as Ebola. Could you describe the 
coordination and the division of duties between USAID and CDC?
    Mr. Dijkerman. Thank you, Madam Chairwoman.
    I will also let Ambassador Browning speak up here because 
the State Department is an important partner in the Global 
Health Security Agenda. In terms of the Global Health Security 
Agenda that we have been focusing on with CDC, the 
collaboration has been quite, quite close. Where CDC--and I am 
going to speak in gross terms here--but where we have been 
working together on the Global Health Security Agenda--there 
are a number of components that have been laid out for the 
whole U.S. Government. The CDC is focusing on surveillance. It 
is focusing on lab capabilities, and it is focusing on the 
element of human-to-human transmission. Where AID has tended to 
focus in the past--we started this back in 2006 with the 
support of the subcommittee--is focusing on the animal-to-human 
transmission. I think some of the committee members may be 
aware that since about the start of this century, about 75 
percent of the new and emergent diseases have come from animal-
to-human transmission. So that is where USAID is focusing.
    Now, when we go out to these countries and do assessments, 
we do joint assessments. I have some of my health colleagues 
here, but the assessments are both with CDC and USAID. And in a 
number of other cases, we bring in the WHO and others. So not 
only are we lashed up within the U.S. Government on this, but 
we are also lashed up with some of the other international 
organizations that can help share the load and move this 
forward. And I can give you a lot more detail on the components 
of the Global Health Security Agenda if you would like.
    Ms. Granger. Ambassador, do you have something to add to 
that?
    Ambassador Browning. I do. I think it more of a whole-of-
government approach, then, as indicated, with CDC in the lead. 
This is very much a whole-of-government approach. And let me 
use an example from my previous experiences. When I was 
Ambassador in Uganda, we built PEPFAR at that time, 10 years 
ago, and part of the process was using CDC to help train lab 
technicians and public health administrators, and also USAID in 
the delivery of direct health care. Ten years later, now in 
Liberia, Sierra Leone, and Guinea, we have U.S.-trained 
Ugandans who volunteered to come to these Ebola-stricken 
countries, used the skills and the practices that we gave them 
10 years ago. This is the concept behind GHSA. Build this 
capacity in these countries throughout the region so that if 
this happens, when this happens again, they will be able to 
respond much more robustly than they were this time.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much, gentlemen, for your 
wisdom, your service. We really do appreciate your experience. 
I have been concerned that, while we have stemmed the tide, 
some may think that the outbreak is over. Recent news reports 
suggest that there is an increase in new cases and that they 
were patients who had not been on the lists of people being 
monitored for possible infections. Dr. Bruce Aylward of the WHO 
said that, quote, ``Some of the new cases had emerged in people 
who had traveled far from their original points of infection, 
presenting additional complications on how to track all the 
people they might have infected and who now may be Ebola 
transmitters themselves,'' end quote.
    So, with just a few months before the start of West 
Africa's rainy season, if the virus reemerges, won't it be more 
difficult, especially in remote areas, to identify, isolate, 
and treat patients? I would be interested in your plan. Do we 
have enough resources to put an end to this epidemic? And have 
all those who pledged assistance provided it? And I would also 
be interested with the resources that we have spent, have we 
put in place, with our partners, adequate local systems, to be 
able to respond?
    Ambassador Browning. Let me ask my colleague, Mr. Konyndyk, 
to take the initial response on that.
    Mr. Konyndyk. I think those are all really important 
concerns, and I talk regularly with Bruce, and I will see him 
in Geneva next week. The biggest challenge now is ensuring that 
we avoid complacency and continue to have a very intense focus 
on driving to zero. In terms of whether there are enough 
resources, there are certainly enough financial resources. And 
with the network that has been built up now across the three 
countries, we are confident as well that that there are enough 
human and medical and logistical resources as well to get this 
done. The rainy season will complicate things. We have a few 
months before that hits, and I think we will see significant 
further progress until then. I am not overly concerned by the 
recent uptick in the last couple of weeks. I think that is part 
of a natural progression. And that is pretty typical of what we 
have seen in past responses, that you don't just have a smooth, 
straight, sustained curve. You see some bumpy ups and downs. 
The important aspect is that we have a very nimble structure 
that now has been built so if we need to focus a rapid response 
team on a particular area, we can get them on a helicopter and 
get them out there quickly, and we do that regularly. So I 
think the structure we have in place can get the job done.
    To the point on contact tracing, contact lists, that is a 
concern. That is one of the most challenging things because a 
case, for example, in Monrovia just earlier this week, there 
were a few new cases found. One of them was on the contact 
list. Two of them weren't because the way that they were 
exposed was they helped carry a woman who they didn't know was 
infected at the time back to her house. So it is very difficult 
to get someone like that on a contact list. That is just a 
long, hard slog. We have a long, hard slog, but I think we have 
the resources in place to get the job done.
    Ambassador Browning. I would just add that going from 
hundreds of cases to tens of cases is difficult. Going from 
tens of cases to one case is much, much more difficult. So it 
will get harder and more laborious as we get closer to zero. We 
just have to keep that in mind.
    Mr. Dijkerman. I think the other important element of what 
we are focusing on is we have talked a lot about the three 
countries, but we are putting the preparedness plans in place 
in the other countries. The thing to remember about that, 
except for Mali and Senegal, is those other preparedness plans 
while we are assessing them, they actually haven't been, if you 
will, battle-tested. So what we have encouraged the U.N. and 
our partners to do, and we are working with the governments to 
have a discussion about, is how we can somehow figure out how 
to, respecting everybody's sovereignty, have battle-tested 
assets from the three countries be able to cross into other 
countries when and if necessary. So if we have suspected or 
probable cases across the border, and there are some limits in 
the capacity in Ivory Coast because people are migrating and 
things like that, then we need to make sure that we have the 
means in place to quickly get on top of it, because we know 
quickness matters. And if there is a need to bring somebody to 
an isolation place, that we figure out how to get them into the 
Ebola treatment units right across the border back in Guinea or 
something like that. We are not there yet. We know this is 
coming, but we are focused on it, and like with the entire 
response, we are trying to make sure that we keep the 
governments fully in front with us and owning the solutions.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. I want to get into the issue of 
Challenge Grants. I know that USAID launched a program in 
October. It was called Fighting Ebola. It is called A Grand 
Challenge For Development. I always like to promote my home 
town and institutions and people there, and let's get back to 
Johns Hopkins again. They won a grant in constructing a better 
protection suit. The prototype is designed to do a better job 
than current garments in keeping health care workers from 
coming in contact with Ebola patients' contiguous body fluids 
both during treatment and while removing a soiled suit. In 
addition, it is expected to keep the wearer cooler, an 
important benefit in hot, humid regions, such as West Africa.
    My questions are, can you talk about these Challenge 
Grants? If you look at innovation, I think a lot of times the 
private sector and institutions, such as Johns Hopkins, and 
University of Maryland Hospital. If they get the proper grants, 
they have the ability to really come up with some good product, 
which will help you. Which is what makes us stronger as a 
country, that relationship between the private sector and 
government coming together to deal with these problems. My 
question is, can you talk about the Challenge Grant, how you 
see them, how as a tool is this better to address epidemics 
like Ebola, and could you speak as to how Challenge Grants can 
be used as a general development tool?
    Mr. Dijkerman. I think you have almost answered it.
    Mr. Ruppersberger. I am trying to help you. Leading 
questions.
    Mr. Dijkerman. But there is no question that USAID has long 
worked to figure out how to better harness the energies and the 
innovations and different ideas and approaches of the private 
sector and foundations. And Jeremy can talk more about how we 
have done that on many fronts throughout this Ebola crisis, 
with the Paul Allen Foundation and others. The Grand Challenge 
program that we started is run by USAID, but we do pull in 
other U.S. Government resources to help evaluate the proposals 
so that we get the right technical people involved to see which 
grants and which possibilities make the most sense. So, again, 
it is a whole-of-government approach.
    As I mentioned, and I don't want to get ahead of our press 
release this afternoon, but I really do encourage folks to look 
at the array of new innovations that people have identified 
that may not help us immediately in this response--actually 
some of them may--but they will certainly help us in the next 
response. And one of the things that we are following through 
on is once we are able to get these products proven and tested, 
that we will also try to work with them to bring them to market 
and give them the due advertising, if you will, to others so 
that they know they are out there to be used. But I think it is 
one of the really good things that USAID has built on over the 
last couple years, and I give total credit to that to the USAID 
Administrator, Rajiv Shah.
    Mr. Konyndyk. I want to just call out in particular that 
suit that Johns Hopkins designed. It is an amazing design. It 
has yet to be fully field tested and all of that. It remains a 
prototype, so we will see how it does once it is rolled out in 
the field. But one of the biggest constraints that the Ebola 
treatment units face is the management and use of personal 
protective equipment. These suits are incredibly uncomfortable 
to wear. They are incredibly hot. When I was out there, I 
talked with personnel who have to work in these every day, and 
they talked at the end of a 1-hour shift--and they can only 
work for an hour in these suits before it becomes too 
overwhelming--their boots, their rubber boots are literally 
filled with sweat. I mean, they pour the sweat out of their 
boots. So having a better suit that is more comfortable and 
feasible to work in will improve patient care.
    It also will improve the safety of the workers themselves. 
One of the highest risks of exposure is when you are taking off 
your PPE. So having a safer way to take off PPE will greatly 
reduce the risks to healthcare workers who are working on those 
front lines. So this kind of innovation, again, still has to be 
tested. We will see how it works. I am sure there will be 
further tweaks, but it is a really important contribution.
    Mr. Ruppersberger. The good part about the innovation is it 
can not only be used for this situation but for many other uses 
within our country and hopefully throughout the world.
    Ms. Granger. Mr. Serrano, you have the last question.
    Mr. Serrano. Thank you.
    And first, let me say that I think I am going to nominate 
Mr. Ruppersberger for the Johns Hopkins legislator of the year 
award.
    Ms. Granger. I took notes.
    Mr. Serrano. But it is a great institution, and it should 
be commended for its work.
    Let me have just one question. High Ebola infection rates 
among health workers have contributed to the closure of about 
62 percent of health facilities that offer non-Ebola-related 
care in Liberia. What steps has USAID taken to help the 
affected countries resume the operations of their health 
facilities so that they can continue to do work other than 
Ebola, which is the one we are concentrating on, of course?
    Mr. Konyndyk. I will say a couple words on how the response 
piece plays into that and then hand over to Dirk to talk about 
some of the longer-term efforts. It is a huge priority. As you 
know, Ebola has killed a lot of people, but malaria and 
maternal-child health challenges and other things kill far more 
people over time in these regions. So getting those services 
back online is absolutely critical. It is as critical as ending 
this.
    That is one of the reasons why even though some of these 
Ebola treatment units are not seeing a lot of patients, it is 
important to keep them open and keep them operating because it 
provides a safety net in that area and that community to enable 
those other systems to come online. And our teams have been 
telling us that healthcare workers in the normal health 
facilities feel a lot more confident going back to their jobs 
if they know they have a safe place where they can refer people 
who are suspect Ebola cases. And so that is one of the reasons 
why we are keeping those open, even if they are seeing very few 
patients. It is a critical piece of that.
    Mr. Dijkerman. Jeremy, through the response part of the 
operation, has already started expanding infection protection 
control training and commodities into non-Ebola affected 
clinics. But that is part of our response. The other part is 
that we need to make sure the clinics are designed or laid out 
in a way that they have isolation places. They have to be 
worked with to revise protocols, because if somebody comes in 
for a safe birth and you think it is a suspect or probable 
case, how do you deal with that? So there are a lot of things 
that we have to work through and then make sure that the 
healthcare workers in those institutions know what to do to 
feel safe.
    By the same token, I think, as I mentioned earlier, just 
simply opening a clinic is not going to cause people to come 
back. We have seen some opening of schools, and we are seeing 
less than 30 percent of the kids come back. So we need to have 
social messaging and education programs and outreach to have 
people get the confidence again that this clinic, public or 
private, is going to be a safe place for them to go. So we are 
working on that. We are also examining the logistics systems so 
they can manage and get out there in time in the necessary 
quantities the right types of equipment to be able to deal with 
Ebola-suspect probable cases.
    We are working on the transportation system. So if there is 
a case at a health clinic found, how do we get them to a safer, 
better isolation facility like an ETU? So there are a lot of 
elements that we are working on here. They are being laid out. 
Some are in process, as I mentioned, the training, but other 
pieces are still being fleshed out. With some of the partners 
that we have been working with before, we will have to change 
their job descriptions, if you will, to do a bit more to 
address some of these preparedness issues.
    Mr. Serrano. I thank you for your answer, and I want to 
thank you for your service. Our country gets criticized a lot. 
At times, we do some of it ourselves. But when we see people 
like you and see the volunteers and we see the doctors and the 
people that went over, that is America at its best. And we 
should be proud of ourselves and continue our good work because 
when we help others, we help ourselves and vice versa. And I am 
just so proud of the work you do. Thank you so much.
    Ms. Granger. Thank you.
    Thank you for the work you do. Thank you for being here 
today appearing before the subcommittee.
    Members may submit any additional questions for the record. 
The Subcommittee on State, Foreign Operations, and Related 
Programs stands adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                      Wednesday, February 25, 2015.

                        U.S. DEPARTMENT OF STATE

                                WITNESS

HON. JOHN KERRY, SECRETARY, U.S. DEPARTMENT OF STATE

                Opening Statement by Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    Mr. Secretary, I welcome you back to the subcommittee. 
There are many serious foreign policy matters and budget issues 
that Members will want to address with you during our time. We 
look forward to your testimony.
    At the top of the list is addressing the threat of the 
Islamic State and terrorists affiliated with ISIL. As Egypt, 
Jordan, and the Kurds in Iraq are retaliating and defending 
themselves against the group's heinous acts, security 
assistance is being delayed by bureaucratic processes across 
many agencies and poor policy decisions by this administration. 
As a result, our most trusted and capable partners in the 
region are not getting the help they need.
    Mr. Secretary, there are no excuses for this delay. I know 
that this delay is not your responsibility alone, and I have 
voiced my concerns directly to the President, as you know. Our 
allies and partners in the Middle East must get the help they 
need now to combat ISIL--not next week, next month, or next 
year.
    In Ukraine, violence continues despite a ceasefire that was 
reached almost 2 weeks ago. We want to hear your thoughts on 
steps being taken to resolve the situation and what assistance 
is needed to support the people of Ukraine and the region to 
combat Russian aggression.
    In Afghanistan, even with a new government in office and a 
signed bilateral security agreement, there are continued 
challenges, and, in fact, the security environment remains so 
unstable that our diplomatic and development personnel are 
pulling back to Kabul.
    In Africa, Boko Haram has not backed down. They are still 
on the offensive, committing unspeakable acts of brutality. And 
while there has been progress in ending the violence caused by 
the Lord's Resistance Army, the leader of the group, Joseph 
Kony, remains at large.
    For nearly a year and a half, you have worked with our 
international partners to put in place an agreement with Iran, 
and the United States must keep the pressure on as a final deal 
is negotiated. I am closely watching the elements of an 
agreement. I know many of my colleagues share my concerns. The 
security of the United States and our steadfast ally Israel is 
at stake.
    I hope you will address each of these policy issues today.
    In addition, we have questions about the budget request for 
your department's operations and foreign assistance programs. 
The total funding level requested for the State Department and 
USAID is 6 percent above last year, but, even at that level, 
you have sacrificed some of the priorities of members of this 
committee to make room for the administration's initiatives.
    It is difficult for me to justify a new $500 million 
program at the United Nations to fight global climate change 
and additional funding for an embassy in Cuba when, once again, 
many programs that have bipartisan support have been reduced 
below last year's level, such as democracy assistance and 
humanitarian programs.
    Another issue we will continue to address together is 
ensuring the safety of our Nation's diplomats. We need 
assurance that funding is being used effectively to address the 
most urgent security needs.
    Next, I want to mention an issue that I know is a priority 
for you, Middle East peace. Negotiating a peace deal requires 
trusted partners, and the recent actions by President Abbas at 
the International Criminal Court have jeopardized the trust 
that has been built over the years. We want to hear how you 
plan to respond to the Palestinians' move to join the ICC. And 
we question why the administration's budget request includes 
another $440 million for the West Bank and Gaza in light of 
these very troubling actions by the Palestinian leadership.
    Finally, I want to mention an issue that is a priority for 
me, a foreign policy issue in our own backyard. The 
administration's budget request includes $1 billion for the 
Central American countries, more than double the amount 
provided last year.
    Many members of this subcommittee understand the need for 
an increased investment in these countries to stop the flow of 
illegal immigration to the United States. I have, visited these 
countries and the U.S.-Mexico border several times and have 
seen this crisis firsthand. We need your help today to 
understand such a large investment and how it would change the 
situation on our border.
    Our neighbor Mexico is on the front lines of combating 
these troubling patterns of immigration from Central America. 
We must do all we can to help Mexico strengthen its borders and 
turn away those traveling illegally from Central American 
countries. We must also support and use the capabilities of 
partners in the region, such as Colombia, to continue to 
develop and implement a comprehensive security strategy.
    In closing, I want to thank you and the thousands of 
diplomats, development officers, and implementing partners for 
what you do every day to promote U.S. interests abroad. You 
have a very difficult job, and all of the members of this 
subcommittee recognize that.
    We also know that the United States must lead in these 
troubling times. It is our responsibility to hold you to 
account for managing the funds this committee provides to 
address these challenges.
    I will now turn to my good friend, the ranking member, Mrs. 
Lowey, for her opening remarks.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Opening Statement by Mrs. Lowey

    Mrs. Lowey. thank you to my good friend, Madam Chair.
    And welcome. We are so delighted to welcome our 
extraordinary Secretary of State.
    But before I officially do, if I can ask for the indulgence 
of the chair, I would like to acknowledge the absence of our 
colleague from California, Barbara Lee, who is unable to attend 
this important hearing today. Barbara is a longtime member of 
this subcommittee and an advocate of so many vital issues that 
we deal with in this subcommittee.
    As many of you know, she is not here today due to the 
recent passing of her mother, Mildred Parish Massey. And I just 
want her to know that our thoughts and prayers are with her and 
her family during this difficult time.
    Thank you very much.
    Well, Secretary Kerry, welcome back. You continue to 
represent our country with passion, dedication, energy, 
strength. I really do want to thank you for your tireless 
efforts.
    Since you were sworn in 2 years ago, you have worked 
diligently on Middle East peace and Iranian nuclear 
negotiations; faced nonstop crises in Syria, Iraq, and Ukraine; 
consistently worked to counter terrorism and advocated for 
human rights and humanitarian needs.
    Since the last time you testified, we have seen unspeakable 
atrocities committed by ISIL, terrorist attacks in the heart of 
Europe, multiple humanitarian disasters in Africa, devastating 
refugee crises even on our own southern border, anti-Semitism 
once again dangerously on the rise, and several countries on 
the brink of disintegration.
    Diplomacy and development are needed now more than ever to 
address these challenges and countless other global priorities. 
And, again, I want to say we are fortunate to have a person of 
your intelligence and your caliber in this role today. Thank 
you.
    I want to start with Iran. With the negotiations underway, 
I hope you can update us on progress made to narrow the gap 
since the last extension. We all agree we must make it 
impossible for Iran to make nuclear weapons, so I hope you will 
assure the members of this committee that any final deal will 
verifiably close all possible pathways to a bomb, dismantle 
crucial elements of Iran's current program, and ensure the IAEA 
access to Parchin. The final agreement must achieve these 
objectives.
    Additionally, I would like your assurances that the United 
States will remain in close communication with our key allies 
in the region during the remainder of the negotiations.
    I am also very concerned about any new funding for the 
Palestinian Authority, given President Abbas's unilateral 
actions before the United Nations Security Council and the 
International Criminal Court. I hope you will update us on your 
review of U.S. assistance, which, as you know, is intentionally 
conditioned to discourage provocative actions that undercut the 
peace process.
    Has there been any movement at all toward renewed 
negotiations between the Palestinians and the Israelis? I know 
how hard you have worked and how committed you are to that 
process. Since Abbas has pursued action at the ICC, do you 
think it is even possible for the parties to get together to 
reach a deal?
    With regard to Ukraine, I am pleased to see the request 
includes strong economic and security assistance to help 
counter Russian aggression. At the same time, I am very 
concerned about next steps should the current ceasefire 
unravel.
    This year's request also includes funding for new 
initiatives in Central America and Africa as well as a 
multilateral fund on climate change, yet the request reduces 
humanitarian and disaster assistance by $750 million compared 
to last year's levels. I look forward to hearing your 
rationale.
    I would also ask that you update this committee on our 
investments in health, women's empowerment, food security, and 
international family planning, all of which are vital 
components to our foreign policy objectives of improving lives, 
expanding economic opportunity, and enhancing our own national 
security.
    Lastly, while an improvement over prior requests, this 
year's budget request again fails to prioritize international 
basic education. I know we agree that educated girls and boys 
better protect themselves from hunger, poverty, disease, and, 
ultimately, extremism. As you have heard me say before, we 
simply cannot build the world we want for ourselves and for 
future generations without education at the center of our 
efforts.
    So I thank you again for your leadership, your commitment, 
your extraordinary hard work, and for being here today. Thank 
you.
    Ms. Granger. I will now yield to Chairman Rogers for his 
opening statement.

                Opening Statement by Chairman Mr. Rogers

    Mr. Rogers. Thank you, Madam Chairwoman.
    Mr. Secretary, welcome back to the Hill. I admire your 
tenacity and your physical prowess, putting up with the long 
travels that you constantly are undergoing.
    You are serving as the Nation's chief diplomat during a 
truly tumultuous period.
    Undeniably, the threat posed by ISIS demands our immediate 
attention. We have seen this group of terrorists senselessly 
kill innocent civilians and our partners and allies in the 
fight against ISIS, and they are stepping up threats to Western 
targets. ISIS brutality seemingly has no limits.
    The President has asked other countries to play a prominent 
role in dismantling ISIS, and the U.S. must support our friends 
and allies in this endeavor. I echo the chairwoman's concerns 
that security assistance for Egypt, Jordan, and the Kurds in 
Iraq must be delivered with all due haste.
    When our allies and partners are beating back a shared foe, 
they should be able to count on our country to come to their 
aid. I fear that countries like Russia are all too eager to 
fill any perceived vacuum in U.S. leadership, and I hope you 
can address that concern today.
    Speaking of support for our friends in the Middle East, I 
look forward to hearing from you about the peace process and 
its impact on Israel. You have personally poured metaphorical 
blood, sweat, and tears into this critically important effort, 
working hard to create a conceptual framework for talks between 
Israel and the Palestinians.
    Unfortunately, the Palestinians have largely walked away 
from those talks, preferring instead to pursue unilateral 
actions at the United Nations and to join the International 
Criminal Court. We look forward to hearing what the next steps 
might be to get peace talks back on track.
    As Israel's closest ally, the United States must remain 
strong as nuclear talks with Iran near their conclusion. 
Stability in the region, which is tenuous on a good day, 
depends on a resolution wherein Iran is not taking any steps 
toward a nuclear weapons capability.
    The press reports that some troubling concessions may be 
made to Iran despite the fact that Iran defiantly refuses to 
answer IAEA's longstanding questions about suspected work on 
nuclear weapons designs are troubling.
    I look forward to your thoughts about the process of these 
negotiations, your level of confidence that Iran will comply 
with the terms of any agreement that might be ultimately 
reached, and what actions the U.S. will take to enforce the 
terms of any deal. Certainly, we hope diplomacy yields results, 
but any deal must have teeth to be effective. Economic pressure 
and a credible military option should be fundamental tenets of 
negotiating an agreement.
    And, finally, Mr. Secretary, I regret that we do not agree 
on the administration's climate change policies around the 
world. The President's politically driven anti-coal 
environmental policies have wreaked havoc domestically, sending 
tens of thousands of hardworking Americans to the unemployment 
lines and casting into question our country's long-term energy 
security.
    Coal exports are the one bright spot for the thousands of 
mining families who are facing disastrous economic conditions 
in my district and elsewhere, and yet administration officials 
will not promote coal as part of its Power Africa initiative.
    However, this anti-coal posture by the U.S. will not 
preclude emerging African governments from making use of this 
reliable, ubiquitous, and affordable natural resource. These 
emerging countries, ripe for investment, will instead turn to 
the Chinese for financing and technology to build the same 
coal-fired power plants. With China's terrible environmental 
record, the projects they will fund will be dirtier than if 
American companies were involved.
    At the end of the day, these policies are anti-American-
jobs and they will not have the intended environmental 
benefits.
    I also heard that the administration is encouraging members 
of the Organisation for Economic Co-operation and Development 
to impose stringent conditions on the public financing of 
overseas coal-fired power plants. As coal capture and 
sequestration technology is not yet commercially available, 
these conditions would result in a de facto ban on OECD public 
financing of coal plants in much of the world.
    For example, this plan could preclude funding for highly 
efficient coal plant investments in Pakistan. Given U.S. 
national security interests and Pakistan's role in the fight 
against terrorism, the U.S. should be encouraging affordable 
and reliable electricity that can bolster economic growth and 
job creation in that country, in turn reducing instability.
    In addition, the administration's policies have recently 
denied Overseas Private Investment Corporation, OPIC, support 
to an important energy sector project in Ukraine. I hope you 
can explain how these policies are in the long-term interests 
of our country and our allies and partners.
    Mr. Secretary, thank you for taking time to be with us 
today. This committee takes seriously our role in overseeing 
the budget and policies of the Department. We appreciate your 
continued engagement with us.
    Thank you, Madam Chairman.
    Ms. Granger. Secretary Kerry, please proceed with your 
opening remarks. Your full written statement, of course, will 
be placed in the record. We are going to have another set of 
votes fairly soon, so I would ask you to summarize your 
statement so we can try to get a full round of questions before 
those votes.
    Secretary Kerry.
    Secretary Kerry. Well, thank you. Thank you very much, 
Madam Chairwoman; Madam Ranking Member, my friend Nita Lowey. 
Mr. Chairman of the full committee, Hal Rogers, thank you very 
much.
    I appreciate the enormously generous welcome from all of 
you, and I particularly appreciate the opportunity to be able 
to be here. I think we have some of the best dialogue on the 
Hill in this committee, and I always appreciate the chance to 
share thoughts with you.
    And that is what I want to do. This is not, this is not a 
combat. This is really a way to find mutual understanding about 
the Nation's priorities. Historically, we have always said that 
politics should end at the water's edge when it comes to 
American foreign policy, and what we are here to find is the 
common ground with respect to our interests and our values as 
we project them in the context of foreign policy.
    And that is what foreign policy is. It is the best 
enhancement of that combination--our values, our interests. 
There is always a balance. Sometimes one takes a little more 
precedence than the other, and people are uncomfortable one way 
or the other. But that is the objective, and, in the end, it is 
to keep the American people safe and keep our country strong.
    You have all laid out a broad array of issues which I 
couldn't begin, obviously, in just an opening comment to 
address. So I am going to leave them aside for a minute and 
honor the notion that you do have a few votes coming quickly 
and we want to really have the dialogue I talked about. So I am 
going to give a very, very short summary.
    We are here to talk about 1 percent of the budget--1 
percent of the entire Federal budget. That is what we put into 
foreign policy. Between USAID and the State Department and our 
general operations, you are talking about $50.3 billion. And 
that 1 percent, my friends, I promise you, will account for 
more than 50 percent of the history of this era when it is 
written.
    So I personally believe it ought to be much bigger than 1 
percent, and I think we have very justifiable reasons for 
making it so. That is not the budget we have in front of us and 
that we are arguing about here today, but I ask you to keep 
that in the forefront of your minds as you think about all of 
these priorities. Because we are robbing Peter to pay Paul 
right now. We are cannibalizing some programs--you have 
mentioned it yourself--to do other things that we need to do 
that are priorities, and I don't think in the end that serves 
America as well as we should be.
    I think that the richest country on the face of the planet, 
which has significantly reduced its deficit, can examine its 
priorities without a sort of rote, automatic process of 
sequestration or otherwise by which we limit real choices. And 
I just want to start with that.
    Secondly, I will say to you very quickly that this is as 
complicated a time as, in many ways, we have ever faced, 
because the world has changed so dramatically in the last 20 
years. Everybody is connected to everybody all the time. The 
numbers of cell phones in even poor countries is staggering.
    And the degree to which people know what other people have 
affects what they want. Aspirations are burgeoning in all kinds 
of places that it was never allowed to even be thought of, 
historically. So, in the Middle East, in the Sahel, in the 
Maghreb, in the Arabian Peninsula, in South-Central Asia, in 
Asia, I mean, countless places, there are pressures being 
released that are changing the dynamics of foreign policy.
    In many ways, we are looking at a world where states are 
behaving in the ways--and within the states, all kinds of 
different entities behaving independently with their own 
agenda, unlike the sort of clarity that seemed to define the 
differences in the course of the cold war--communism, freedom, 
democracy, et cetera. And we know that, in many dictatorships, 
many of these kinds of aspirations were tamped down, through 
tyranny and oppression, but tamped down, so we didn't have to 
cope with them. Now we do.
    It is counterintuitive, but the truth is that, 
notwithstanding the threat of ISIL, notwithstanding people 
being beheaded publicly and burned publicly and the atrocities 
that they are perpetrating--and it is a serious, serious 
challenge to us--notwithstanding that, there is actually less 
threat and less probability of people dying in some sort of 
violent conflict today than at any time in human history. And 
with advances of health and with advances of statehood and 
other kinds of things, we are living in a very different world.
    I am not going to go into all of that now. I just want to 
end my quick opening by saying to you this: I am proud of the 
way President Obama and this administration are, in fact, 
leading on issue after issue after issue. And while some may 
disagree with the choice that is made and some may feel that 
not enough was done in Libya, Syria, or in some particular 
place, I am telling you that never before in our history have 
so many crises and so many trouble spots and so many larger 
policy challenges been managed simultaneously and, I think, 
have been kept on track as much as they are today.
    And I will be specific. In ISIL, we built a global 
coalition that has Arab countries actually flying sorties 
against Arab countries in the Gulf, 60 nations participating in 
an effort we will talk about a bit today.
    In Iraq, we helped to guide and implement a transition of a 
government, with choices made by the Iraqis, their choices, 
their destiny, but we helped to create a framework within which 
they were transitioning from a Prime Minister Maliki to a Prime 
Minister Abadi and a new government that we could work with in 
order to be able to go out and fight against ISIL.
    In Afghanistan, we helped to shepherd a coalition 
government to emerge out of an extremely questionable election 
and close and negotiate a BSA and hopefully be in a position to 
transition Afghanistan.
    In the Iran negotiations, we are not complete. I don't know 
if we will get there. But I know that trying is the essence of 
United States leadership, to find out whether or not there is a 
way with diplomacy to succeed in preventing a country from 
getting a nuclear weapon, and that we owe it to our citizens 
and the world to prove our willingness to try to do it 
peacefully before we have to make other choices if we did.
    On Ebola, there were predictions of a million people dying 
by Christmastime. At the moment that President Obama made the 
decision to deploy 4,000 American troops to go over there and 
help build the capacity to be able to try to prevent that from 
happening, there were huge questions at the time about how fast 
it might spread and how dangerous that might be, what might 
happen.
    But because of American leadership pulling together 
countries all over the world, you can now look at Liberia and 
Guinea and Sierra Leone and see huge reductions in infection 
and see that, indeed, Americans are not waking up every day to 
the news of some new infection and some new challenge.
    On AIDS in Africa, we are on the cusp because of our 
additional efforts, which you have shared, you have helped 
lead, on the cusp of an AIDS-free generation of children.
    In Ukraine, we have held together, cobbled together, pieced 
together, cajoled, and managed to effect a series of sanctions 
that have--while not stopping everything altogether, no, 
nevertheless, has given Ukraine an opportunity to survive as an 
independent and sovereign Ukraine and has cost Russia a lot.
    Mr. Putin may be able to look at what is happening today in 
Donetsk or Luhansk or Debaltseve and say, wow, I am going a 
great job on short-term tactical stuff. But I will tell you 
this: Russia is not doing great right now--50 percent reduction 
in the ruble's value, $151 billion of capital flight, 
predictions that Russia will be in recession this next year, 
extraordinary restraint on growth. And that has happened 
because of the coordinated sanctions that we put in place.
    Now, there is more that I could run through. I am not going 
to do it all now, but I will just tell you: Between TPP and 
TTIP, we are pursuing two of the most ambitious and important 
trade agreements in recent history.
    Forty percent of global GDP is wrapped up in the TPP. If we 
can achieve that, we will have a definition of the new 
standards of doing business in the region. And even China has 
said to us, if this works, if it comes together, could we join 
it? We are far better ultimately seeing a China join an 
upgraded set of standards for doing business and rules of the 
economy and trade than to not do that and have others write 
those rules or have no rules at all.
    So I can run through, finally, on climate--we can talk 
about climate, Mr. Chairman. I hope we will in the course of 
this. China, up until last year, was an opponent to doing 
anything about climate change. But because we reached out and 
worked with them, starting literally a month and a half after I 
became Secretary, President Obama was able to go over there, 
and China joined in a deal to announce its targets for the 
reduction of emissions and fossil fuel dependency and a 
commitment of a goal to achieve alternative, renewable, and 
efficient energy.
    It is a huge impact. And because of that, in Lima, Peru, 
other countries came together and joined in to say, we have to 
make Paris negotiations a success this year.
    So I would say to you that, whether it is in the Arctic, 
the Arctic Council, which we will assume the chairmanship of in 
about a month and a half, or whether it is on any of these 
things I have listed--there are many things I haven't listed--
cybersecurity, health, health structure--around the planet, the 
United States of America is proving that, when we lead, we can 
make a difference. And the world needs that leadership.
    And I hope that in this budget we can reflect the fact, 
ultimately, that the 1 percent we put into these endeavors 
which result in so much benefit in the long term, so much 
security to Americans, will not be nickeled and dimed at a 
critical moment where we need to bolster yet more those things 
that we are able to do, like the broadcasting, the 
countermessaging of ISIL, the counterterrorism initiatives we 
need to employ, the deprivation of the pool of recruits for 
ISIL. These are intensive efforts, and they will require a 
financial commitment. And we need to understand the connection.
    Mr. Chairman, I think you said something about the 
importance here of taking the budget role seriously. I know you 
do. But we need to connect the dots for everybody in America of 
the money spent out of this committee and the United States 
Congress on the security of our Nation that comes to us through 
the work of diplomacy and the work of development on a daily 
basis.
    And, frankly, we have been hurrying ourselves in the past 
years, where there has been a reduction from the population 
growth rate and the need and demand for that kind of 
investment.
    Madam Chair, thank you.
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Ms. Granger. Thank you.
    I will start with this question. The administration wants 
countries in the Middle East to step up and play a greater role 
in the fight against ISIL, as we do. But as Jordan and Egypt 
and the Kurds are taking on a significant role, and are often 
successful, they are not getting the assistance they need.
    The White House claims that there are robust security 
relationships with these countries, but I would argue the U.S. 
is risking our long-term strategic alliances. The Kurds and the 
Jordanians are very frustrated with the amount of time it takes 
to get military aid to them. I know you know that because they 
have argued that with you, and they have certainly called me.
    And the President's policy on Egypt continues to hold 
equipment such as the F-16s that are paid for and are clearly 
needed in the fight against ISIL and other terrorists in the 
region. I wanted to ask you, why is the administration 
continuing to withhold equipment for Egypt that would help them 
combat ISIL and other threats?
    Secretary Kerry. Well, we are pushing very hard. In fact, 
that is a decision that I think is on the President's desk 
anytime now.
    We are tied, as you know, by Congress to a certification 
process that I have to exercise, and I can certify or I can 
waive and make a decision what to move. But we have broken 
certain things out.
    One of the things we were waiting for, frankly, Madam 
Chair, was the announcement of the parliamentary elections. 
Now, we finally got that announcement. There were a number of 
people in prison. There has been some harassment of Embassy 
employees. There have been some other--as you saw, Abd el-
Fattah was just sentenced to 5 years for taking part in a 
protest. And, you know, these are things that matter to us, 
obviously--the Al Jazeera journalists who are imprisoned, the 
NGOs who were required to be listed.
    So we have been talking as reasonably and as frequently as 
possible with our friends in Egypt. I have a very good working 
relationship with the Foreign Minister, Sameh Shoukry. I have 
had several meetings with President el-Sisi. I am very grateful 
to President el-Sisi for his significant cooperation with 
respect to a number of security issues.
    And we want to get them these additional items. And I 
suspect, Madam Chair, that decisions will be made shortly to 
try to come to cloture on the, sort of, final choices of how we 
move on that.
    So Egypt has presented one set of challenges. One thing I 
want to make clear: I believe Egypt is helping enormously with 
respect to counterterrorism. Egypt is doing a huge amount in 
the Sinai. Egypt has been helpful with respect to Gaza. And 
Egypt has been essential with respect to some elements of the 
peace process, Israel and Palestine. Egypt is could cooperating 
very significantly with Israel, and there is great intelligence 
cooperation and so forth.
    So, by and large, I believe it is important for us to 
provide some of these items, and I believe decisions will be 
forthcoming that will set out how we may in fact proceed 
forward to do that.
    On Jordan, I think you know this; we have had many 
conversations about it, Madam. I am frustrated, as you are 
frustrated. And they have been a little frustrated, and I 
understand that.
    Before I received your letter, I met several weeks ago with 
Foreign Minister Nasser Judeh, whom you all know well, and we 
signed a memorandum in which we agreed to put $1 billion a year 
for the next 3 years into the relationship with Jordan. This is 
before we received the letter from you.
    In addition, before I had received the letter from you, I 
had already initiated a review based on my conversations with 
Foreign Minister Judeh to find out exactly what item was on 
request, exactly where it was in the chain of delivery, and why 
it might have been delayed.
    And I have already--I think just about the time I got your 
letter, I received the answer to all of those questions, and I 
now have a breakdown of all of those items--tier-one 
priorities, tier two, tier three.
    And so the tier-one items are now mostly on the way or in 
possession. F-16 spare parts, for instance, pilot survival, 
night vision, et cetera, are happening. The UH-60 Black Hawks 
we are trying to figure out. We will shortly notify you with 
respect to some formal procedures on that.
    So I could run through the long list with you. I think it 
is better, probably, to do that in a classified forum. But I 
can just tell you that we are on top of this and moving, and 
these items need to get there as rapidly as possible.
    Ms. Granger. We talked about this last year at the hearing, 
and I remember last year you were talking about these needed 
reforms and arrests of journalists and progress on, say, 
parliamentary elections. And those things have been done, 
literally----
    Secretary Kerry. Some. Some.
    Ms. Granger. Some.
    Secretary Kerry. I think two----
    Ms. Granger. Not all.
    Secretary Kerry [continuing]. Two people were released. But 
for every person that gets released, regrettably there have 
also been announcements of life imprisonments for one thing or 
another.
    Look, we are beginning to understand much better the 
restraints that President el-Sisi operates under. And there are 
some. And I think we are beginning to understand, also, some of 
the difficulties of independent judiciary and independent 
efforts that reflect on how the process is working there.
    What is important is Egypt is committed as a major partner 
in counterterrorism. And Egypt is critical, its viability is 
critical to long-term stability of the region. I think the 
United States needs to reflect that, and the President does in 
our policy. And I think we are seeing that happen in what is 
unfolding now.
    Ms. Granger. You may see it happening. I certainly don't.
    And you know we have had numerous conversations. The staff 
has asked questions about this. The situation with the Kurds 
has gone on for months and months and months. And every time we 
ask, we hear, we are making some progress.
    Secretary Kerry. Well----
    Ms. Granger. The Egyptians came back to me and said, we 
don't know what you want, we have no idea. Because we have 
urged them to play a part, and they certainly are. The King of 
Jordan, for goodness' sake, has put on his uniform and is 
flying the planes.
    So I think that the slowness of the process is simply very, 
very disturbing. And I would like from you a weekly status on 
this very immediate threat. It gets worse and worse. And 
everyone that we hear talk, the generals that come and say, we 
can stop it now, but at some point we can't stop it.
    Secretary Kerry. Well, Madam Chair, let me just say to you 
respectfully on this issue of the Kurds--because I have heard 
this for a while, and I think it is a little out of proportion, 
if I can say so.
    We have provided more than 34 million rounds of light and 
heavy ammunition to the Kurds, 15,000 hand grenades, 45,000 
mortars, 50,000 RPG cartridges, and 18,000 rifles. Thousands 
more rounds of ammunition and weapons have been identified for 
donation and are being prepared for delivery now. This is in 
addition to more than 300 tons of arms and ammunition that the 
Government of Iraq provided and delivered directly to the 
Kurds.
    We have also provided 25 MRAPs to our Kurdish partners. 
Hundreds of airstrikes have hit ISIL elements in Mosul and the 
Sinjar Mountain and other areas of Northern Iraq, which has 
provided relief to the Kurdish forces. We have established a 
joint operations center in Erbil that has facilitated 
unprecedented cooperation with the KRG.
    We worked to get--I personally was on the telephone with 
President Barzani and others to work to create a corridor which 
helped the Kurds to be able to get into Kobane and help provide 
relief there and ultimately help win the victory of Kobane.
    We have provided $208 million in humanitarian support to 
deal with displaced Kurds. That is an estimated 850,000 people 
in the Kurdistan area. We have provided 110 tons of 
humanitarian supplies to them. We have provided extensive 
diplomatic engagement with----
    Ms. Granger. I am going to stop you.
    Secretary Kerry. Yeah, but I am just----
    Ms. Granger. I know what you are going to say, and I know 
what you are saying. You know my position. I think you know the 
position of Members of the Congress. And so we will continue 
this as we go on, but I certainly want to have other people 
have the opportunity to ask questions.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much.
    As you know, many of us have had many, many briefings on 
Iran, many of which are in a classified setting. So, obviously, 
the questions that I am going to ask do not include some items 
that have been discussed in a classified setting.
    But we know that the United States is at a crossroads with 
Iran. The overall package must ensure we have closed all 
pathways to a bomb. You have said repeatedly that no deal is 
better than a bad deal.
    I just want to make a couple of points, and then ask you to 
respond.
    Can you assure us that a good deal includes the following: 
dismantling Iran's centrifuge infrastructure; dismantling its 
heavy-water facility at Arak and closing all covert options; 
containing strict verification--
    Secretary Kerry. I am sorry. What was the second?
    Mrs. Lowey. The second one, dismantling its heavy-water 
facility at Arak and closing all covert options; containing 
strict verification and fully detailing the possible military 
dimensions of its programs; allowing full and unfettered access 
to any facility, including Parchin, Fordow, Natanz, and other 
facilities, military or otherwise; have phased-in sanctions 
relief to ensure compliance; and, last, no less than 15 years 
in duration.
    It has been reported that the Supreme Leader has said, and 
I quote, ``I would go along with any agreement that could be 
made. Of course, if it is not a bad deal.'' This is, of course, 
the same Supreme Leader who repeatedly refers to Israel as the, 
quote, ``barbaric Jewish state'' that, quote, ``has no cure but 
to be annihilated.''
    Many experts with whom I have spoken don't think that 
Khomeini is really capable of making a deal, but I know how 
hard and how focused you are in trying to make a good deal. 
And, again, you have said that no deal is better than a bad 
deal.
    Do you really see any evidence that the regime is seriously 
interested in giving up its nuclear program and working with 
the international community?
    You have indicated this is the last phase of negotiations 
and that the administration would not support another 
extension. You have just returned from Geneva. Is this still 
your assessment?
    You have already stated that a good deal provides us at 
least 1 year to respond should Iran renege on the deal and 
break out. I still don't understand how we arrived at 1 year. 
Why is 1 year enough insurance for us, for Israel, for the 
region?
    I know how hard you have been working on this issue. I, 
again, respect your commitment, your thoughtfulness. But if you 
could answer these questions, I would be most appreciative.
    Secretary Kerry. I will try to answer as many as I can as 
fast as I can, Congresswoman Lowey.
    Let me go to the end. That is probably a good place to 
begin, which is this question of breakout in 1 year and do we 
know it is enough and why do we know it is enough and so forth.
    Let me make clear what ``breakout'' is in the context that 
we are talking about. And I want to make clear, also, when we 
talk about 1 year, we are talking about 1 year for a period of 
time that we believe sufficient to build the confidence about 
our access and about the workings of the program and to 
understand that there isn't a covert track.
    But ``breakout'' in the way that many of us thought of it 
when I was here in the Senate in the 1980s, late 1980s and 
1990s--we were debating still the Soviet Union in the 1980s 
with Ronald Reagan and certain missile systems and so forth--
``breakout'' meant your ability to go with nuclear weapons, 
that you broke out and, man, you had a nuclear weapon right 
away and you would go do something. That is not what we are 
talking about here.
    What we are talking about here is--``breakout,'' as we 
apply it to the 1 year we are looking for for this period of 
time, is the time it takes from when they decide from their 
constrained and restricted and verified level of enrichment, if 
they were to kick everybody out and say, we are going at it 
now, and it is just obvious they are going at it, that would be 
a breach the moment they did it. You don't need 6 months. The 
minute they kick you out, you know they are in breach. So if 
you have a year, you have a lot of leeway.
    But that is a timeframe from when they make the decision to 
not comply to try to get a rush to enough fissile material for 
one potential weapon. Remember, enough fissile material for one 
potential weapon, 1 year. That is not having a weapon. That 
could be years away from having a deliverable weapon or a 
tested weapon or a weapon that you have to be concerned about.
    So if you have a year from the time in which one of your 
inspectors discovers they are not complying or a year from the 
time that one of your intrusive cameras or visits or visible 
inspections of the mining or their uranium or their production 
or their centrifuges shows you something is up, you can slap 
sanctions right back on and worse. Or, of course, you always 
have all the options we have that exist today. We are not 
giving up one option.
    When you say to me, do I know that 1 year is sufficient 
insurance with respect to the ability to regulate, you better 
believe it. And do you know what? You know what we have today? 
You know what Israel has today? Two to 3 months. And the reason 
it may be 3 or 4 months right now is because of what we put in 
place with the interim agreement.
    Now, remember, Prime Minister Netanyahu thought the interim 
agreement--quote: ``deal of a century for Iran.'' He thought it 
was the worst thing that ever happened. And some people in the 
Congress echoed that when I came up here to talk about the 
interim agreement.
    Well, guess what? Every aspect of the interim agreement has 
been complied with. The then-20-percent-enriched uranium that 
threatened Israel is now gone, reduced to zero. The Fordow that 
then we didn't know what was going on in it that threatened 
Israel is now inspected on a daily basis. Arak that then 
threatened it as a potential producer of plutonium and a track 
for weapons production has been stopped dead in its tracks, and 
they have not been able to further any commissioning of Arak. 
That makes Israel safer.
    I mean, it defies imagination to make the argument that, if 
Israel was threatened with a 2-month breakout period and they 
are now at more months and we are trying to get a year, that 
they are not safer.
    Now, that is just the beginning of the many pieces of this 
agreement. And I am not going to go into all of the agreement 
right now, because we don't have an agreement. We may not get 
an agreement. They may not be willing to do some of the things 
that you listed that you think are the ingredients of a good 
agreement. And I am not going to sit here, in fairness, Madam 
Ranking Member, and go through each of those items because I am 
not going to negotiate here. I want to negotiate with them and 
see where we are.
    But of course we have to have a resolution of Parchin and a 
resolution of Arak so it can't produce plutonium on a bomb path 
and a resolution of Fordow so it is not a secret, hidden 
enrichment facility and so forth. And those are the things that 
we are arguing about right now.
    Now, the point I would make to everybody is, in the year 
2000s, 2003, under the Bush administration, they had a policy 
of no enrichment. It was American policy. There were 164 
centrifuges then spinning--2003, 2004, 2005, 2006, 2007, 2008--
all during the Bush administration. Nothing stopped. What 
happened? They kept building. Now they are at 19,000 that could 
function. There are not that many functioning.
    And so, obviously, we pursued a policy for a period of time 
under a very tough administration that didn't hesitate to use 
its muscles when it wanted to, didn't use its muscles on that, 
and the fact is we wind up where we are today. Iran knows how 
to make fuel. They know how to do this.
    So we have to decide, how do we get the best shot at being 
able to constrain from the production of a nuclear weapon over 
the course of the future years? Now, that is what we are trying 
to do, and we are trying to close off each pathway to the 
bomb--through Natanz, through Fordow, through Arak, and covert. 
And the test of that will be in the days ahead.
    Mrs. Lowey. I just want to thank you very much. And, 
obviously, we could have a longer discussion, but I guess we 
have votes right now.
    Secretary Kerry. Well, we are going to have a longer 
discussion, I have no doubt about that, if we get an agreement. 
And if we don't, we will have a longer discussion about the 
things we are going to need to do as a result.
    Ms. Granger. Mr. Chairman.
    Mrs. Lowey. Thank you.
    Mr. Rogers. Thank you, Madam Chairman.
    Mr. Secretary, let me talk about Iran.
    A New York Times article last Thursday cited a recent 
report by the International Atomic Energy Agency that Iran was 
still refusing to answer longstanding questions about suspected 
work on weapons designs.
    As you say, there is a very short time remaining for 
conclusion for that framework agreement. And their continued 
refusal to provide IAEA with answers about past nuclear weapons 
work, that is troubling. Because if they refuse to answer, how 
can we be sure that whatever is agreed upon they will live by 
and abide by?
    Secretary Kerry. Well, there are a bunch of questions the 
IAEA has asked that are going to have to be answered, and we 
have made that very clear. The IAEA is going to have to get 
answers to questions.
    What is more critical than answering, than having some 
confession of, oh, yeah, we were doing this back then, is 
getting the ability to know what they are doing now with 
clarity and going forward so that you can prevent any 
development whatsoever.
    We presume, I mean, we all have pretty good information, we 
are in a nonclassified venue here, but I think I can safely say 
that we have made our presumptions based on the information we 
have about what they were doing. So we are certainly proceeding 
with eyes open that it is our belief they had a weapons track, 
and we understand that we need to respond accordingly in 
whatever it is that we do here.
    Mr. Rogers. Well, I mean, how can we trust Iran, given the 
lack of compliance with past agreements with IAEA? Your own 
deputy secretary, Tony Blinken, has testified before the Senate 
that during the Joint Plan of Action, there were situations 
that, quote, ``We believe there were violations of the JPOA,'' 
end quote. How can we trust them given that?
    Secretary Kerry. Well, there have been no violations of 
JPOA. I am not sure what he is referring to. There may have 
been a place or two we had a question, but they were answered. 
We raised one issue. There was one centrifuge which was being 
fed at one point in time which we learned of, and we learned of 
it because of the verification that we had, which, by the way, 
is far less comprehensive than the verification we want to get 
ultimately.
    But we did learn of it, which is an indication that there 
was transparency and that we had accountability. And the moment 
we mentioned it, it was really based on a misunderstanding of 
what was current. Under the JPOA, under the interim agreement 
they are allowed to pursue the current level of what they are 
at. This, we argued, was new, and we won the argument, and they 
stopped, and that was the end of it.
    But, look, a fundamental basis of your question, Mr. 
Chairman, you said, how can we trust them? This agreement is 
not based on trust. No arms control agreement is based on 
trust. Remember, Ronald Reagan's famous ``trust but verify.'' 
That is a euphemism for make sure you are able to know what is 
happening. And that is the guideline of this negotiation. It is 
not based on trust.
    You may be able to build some trust. The last year of 
compliance has, frankly, helped people to have a sense of 
seriousness of purpose here and intent. The fact that they did 
destroy their 20 percent uranium stockpile. The fact that they 
have provided access. The fact that they did stop work on Iraq. 
I mean, all of these things begin to build a little bit of 
confidence that this is serious.
    But we have to build a structure here that gives us great 
confidence going out into the future that we will know what 
they are doing so it isn't relying on anybody's word or on any 
level of trust.
    Mr. Rogers. A lot depends on what happens, obviously. So we 
wish you the best.
    I yield.
    Secretary Kerry. A lot does depend on it. I agree with you.
    Ms. Granger. Short question.
    Mr. Ruppersberger. Let me try and make it short.
    Ms. Granger. Thank you.
    Mr. Ruppersberger. Getting back to what Chairwoman Granger 
was talking about and the issue of Egypt and Jordan and our 
relationship with them. We know Egypt, as an example, 82 
million people, we know there are human rights concerns. We 
also know the United States of America has the best country in 
the world and a democracy that works, and we want to make sure 
that we deal with issues of human rights in the countries that 
are our allies. But Egypt is very critical to the Middle East. 
They are critical to Israel. They are critical to a lot of our 
goals and agendas.
    I just want to ask this question. We want to export our 
democracy, but we are going into countries that have thousands 
of years of traditions. And yet it seems that if they aren't 
exactly following our model, that we are slow to be involved.
    So my question would be, we want to support democratic 
issues in these countries, but what lessons have we learned, 
based on what has happened in Egypt especially, by our 
democracy efforts. In fact, you had the Muslim Brotherhood 
taking control and the country was almost falling apart. And 
yet Egypt was trying to take control of their country with all 
the issues that they were dealing with as far as unrest and 
terrorism.
    Should we act more deftly with those countries, based on 
their traditions, while trying to influence them with our 
traditions, and hold back giving them the resources they need 
to take on ISIS or a terrorism situation?
    Secretary Kerry. Well, I personally don't believe so, 
Congressman. I think that we have to be very, very careful and 
very thoughtful about each country's ability to transition and 
measure our expectations in a very thoughtful way. We should 
not be automatic and sort of simplistic about that endeavor. We 
certainly shouldn't stereotype and fit everybody into the same 
box because every place is different. And the lessons certainly 
that I have learned in the last 10 or 15 years are that we 
really need to think very, very carefully about what kind of 
political space, what capacity there is for the embrace of our 
vision and at what pace.
    We sometimes come crashing in with a sense that we can sort 
of hold out X amount of aid and say, you have got to do this 
and this in order to do it. And they kind of look at us 
nowadays increasingly in many countries and scratch their heads 
and ask a lot more questions than they used to and are not 
quite as impressed by the level of our leverage because, 
frankly, it is significantly diminished, if you want to know 
the truth.
    The Emiratis and Saudis are putting 20 billion bucks a year 
into Egypt, and we are putting a $1.3 billion or whatever it 
is, $1.6 billion. And so they look at it and they say, well, do 
we have to put up with all these headaches since we have got 
these other folks we could turn to and we will get some help 
there?
    President Putin just paid a very visible, well-received 
visit to Egypt, and there was an exchange, an agreement for 
some very significant purchase of weapons and so forth. They 
would prefer to buy them and have the relationship with 
America, but they feel like we are sometimes asking more than 
the market will bear at the rate at which we are looking to 
them to----
    Mr. Ruppersberger. We need to evaluate that policy. And 
Sisi said a very positive thing, which I think is important in 
the Muslim world. He stood up to his mullahs and said that you 
have to stop this type of radical jihad. That is a good message 
that we hope the Islamic community will send to the small 1 
percent of terrorists that are trying to take the world over.
    Secretary Kerry. Well, I encouraged them strongly with 
respect to a number of people they needed to release. They 
released them. I encouraged them to rapidly move to set the 
date for the election. They set the date publicly for the 
election. We encouraged them to do a number of other things. I 
won't go into all of them here. But to the best of our 
awareness, they worked hard to try to do those things. They got 
some done and couldn't get others done, but we know they made a 
bona fide effort on some of them and ran into various 
roadblocks.
    Ms. Granger. Thank you. I am going to recess the hearing 
for members to vote. If you will return as quickly as possible.
    Mr. Ruppersberger. We are going to come back?
    Ms. Granger. We are going to come back. The hearing is now 
in recess.
    [Recess.]
    Ms. Granger. The hearing will now come to order. I will now 
turn to Mr. Dent for his questions.
    Mr. Dent. Thank you, Madam Chair.
    And good afternoon, Mr. Secretary. Good to be with you.
    First, I wanted to commend you for your good effort in 
Afghanistan with respect to the presidential election where you 
helped mediate the aftermath, and successfully, I might add. 
And so I want to thank you for your leadership there. And I 
agree with what you just said moments ago on TPP and TTIP, 
about how essential those agreements are to setting standards 
and advancing our interests globally.
    On the issue of Ukraine, however, I wanted to raise a real 
concern that I have. This very recent cease-fire agreement 
facilitated by the Germans and the French seemed very desperate 
and feckless, to be quite honest. I believe the West has been 
humiliated. As much as I admire the Germans and the French, 
they have taken the idea of arming the Ukrainian Government off 
the table. Putin knows that. These cease-fires will last as 
long as Vladimir Putin wants them to last, and that has been 
the case.
    It seems that we, the U.S., have outsourced the 
negotiations to our friends, and the results have not been very 
good, and I am deeply concerned about that. I think there needs 
to be greater leadership. The West has been humiliated. And at 
some point, I believe we are going to have to provide some kind 
of lethal defensive weapons to the Ukrainian Government, 
antitank weapons, antiartillery. And I would like to hear your 
perspective on that because I just feel that this recent cease-
fire has been really a major setback for all of us.
    And I do appreciate your leadership on the sanctions 
regime, and I know our European friends always haven't been as 
accommodating. So I appreciate hearing your comments.
    Secretary Kerry. Thank you, Congressman. I appreciate that 
very, very much.
    In fairness, I think that Chancellor Merkel has actually 
been leading very forcefully in this and working very, very 
hard to make sanctions happen at times where others in Europe 
were not quite as prepared to hold the line, take the measures. 
So I think that Germany's leadership, France's engagement with 
Germany and leadership has been important.
    I think it was important for them to try to see whether or 
not they could make Minsk meaningful. And they, themselves, 
took the position that if Putin didn't adhere to it and was not 
prepared to take the steps of the Minsk, that then there is 
plan B.
    So plan B is really tougher sanctions and additional 
support to Ukraine. And I think I would not count everybody out 
in terms of whether or not, as a result of what has happened, 
they are automatically against the provision of some defensive 
assistance to Ukrainians. But there is not yet clarity to the 
breach, the total breach with respect to the Minsk effort. The 
prisoners were exchanged the other day. Some weapons have 
pulled back. Some battalions are now assembled on the border, 
not inside. So it is a little unclear, and I think they and we 
are waiting to see how this unfolds in the next days and hours.
    I talked at lunchtime yesterday with the Foreign Minister 
of Germany, who had just come out of the meeting with the 
French, the Ukrainians, and the Russians. And it was his sense 
that they had sort of mapped out a few potential steps over the 
next few days.
    So we are getting to that critical decision time, 
Congressman. The President has a number of options that he is 
asking his team to evaluate, and he will make the appropriate 
decision, together with discussions with Chancellor Merkel. In 
fact, he may well have talked to Chancellor Merkel today or 
yesterday.
    Mr. Dent. Can I also just quickly add, speaking of Germany, 
we have Congress-Bundestag Youth Exchange Program. I am very 
involved with the German-American Caucus and study group on 
Germany, and we have serious concerns about the State 
Department's decision to reduce by half the funding for the 
Congress-Bundestag Youth Exchange Program. This program is 
essentially maintaining a strong relationship between our two 
countries.
    Secretary Kerry. Right.
    Mr. Dent. Chancellor Merkel, I know, raised the issue of 
this cut when she visited the U.S. Can you give us the 
rationale why the State Department has gone against clear, I 
thought, congressional intent and unilaterally moved funding 
away from the Bundestag exchange program?
    Secretary Kerry. Well, it is still going to remain the 
largest exchange program between the United States and any 
country in the world. The academic year last year had about 710 
total participants, 350 Americans, 360 Germans. And the funding 
has been a pretty level $4 million.
    The reduction, in our judgment, would allow us to meet some 
other high priority demands for exchanges that we are having to 
support. One is like Ukraine, for instance. We are trying to 
get Ukrainians to be part of it. We are trying to bolster our 
networks in the entire periphery around that region. So whether 
it is Georgia, Moldova, or the Baltics, other countries, we 
want them to be able to participate. So it is really trying to 
allocate according to priority and available resources.
    Now, if you want to help us and plus it up a little bit, 
there is nothing we would like more than to keep it at the same 
level. But this is where I am talking about robbing Peter to 
pay Paul. All those are virtuous and important efforts, and I 
think you can see that.
    If you can get some students out of each of those other 
places and it makes a difference in the long-term capacity 
building of those countries and their outlooks, that is 
spreading the wealth a little more. And as I say, the German 
program will still remain the largest program we have.
    Mr. Dent. Thank you.
    Yield back.
    Ms. Granger. Thank you. Mr. Serrano; I am sorry. I am 
wrong.
    Ms. Wasserman Schultz. I apologize.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Mr. Secretary, it is good to see you. And I want to shift 
gears a little bit. I know that the line of questioning has 
focused mostly on the Middle East and Iran, but the 
subcommittee obviously has other focal points, including food 
aid and disaster relief. And so I wanted to just touch on where 
we are in our progress with reform. In recent years we have 
seen increased momentum to push for reform of our international 
food aid programs and make them more effective and more 
efficient and save more lives in less time. And so while 
obviously the focal point is being more fiscally responsible, I 
mean, hopefully our goal is also to make sure that we can end 
hunger and provide nutrition to more people. At the same time, 
obviously, that helps our own local farmers and agriculture and 
production.
    The President's budget request included several reform 
measures that allow for increased flexibility within those 
programs and increased funding for local and regional purchase 
of food aid, and that has bipartisan support. But my question 
is, do you believe that the reforms that have been proposed, 
the increased flexibility for the type of and delivery of aid, 
are those essential for responding to the crises that we are 
facing today, the ones that we might encounter in the future, 
and really enable us to effectively respond to food insecurity, 
and at the same time moving towards resilience and self-
reliance?
    Secretary Kerry. We hope so, Congresswoman. I mean, that 
was the purpose of these reforms, as you know. The effort is to 
try to be able to deliver more faster with greater local buy-
in. It increases our reach and it increases the cost savings.
    Now, the proof will be in what happens. I mean, right now 
it can take from 4 to 6 months to buy and deliver U.S. 
products. And we know there was a certain upheaval here about 
this. But if you allow more cash-based activities, then USAID's 
food programs could become much faster, much more nimble, much 
more responsive, and it actually helps to build some capacity 
and infrastructure in the communities you are trying to create 
a sustainable cycle for. So we think it is the right direction 
to move in, and it allows us to reach 2 million more 
beneficiaries, about 25 percent increase.
    Ms. Wasserman Schultz. And just briefly because I don't 
have a lot of time left, and I am the ranking member on the 
Legislative Branch Subcommittee and have to go back to that 
hearing, what steps is the Administration taking to ensure that 
the Helms amendment is correctly applied and that U.S. foreign 
assistance that may be used for abortions in the case of rape, 
incest, and life endangerment and to make sure that preventing 
pregnancy in those cases is our primary goal?
    Secretary Kerry. Well, I mean, we evaluate it in every 
single country and every program where we are. I am not aware 
that there has been a specific complaint that something is 
lacking or missing in that effort. Is there something specific 
that you are----
    Ms. Wasserman Schultz. There has been--not on the part of 
the Administration--an issue surrounding the misinterpretation 
of the Helms amendment that prohibits the use of funds for the 
performance of abortion as a method of family planning. That it 
has been incorrectly implemented, essentially to become a total 
ban on funding for abortion. And so that is a--I hate to use 
the term ``nuance''--but there is a difference between 
prohibiting abortion entirely and prohibiting its use as a 
method of family planning.
    Secretary Kerry. I understand.
    Ms. Wasserman Schultz. And so that is the interpretation or 
misinterpretation I am concerned about, and I am wondering if 
that has been addressed.
    Secretary Kerry. Well, let me do this. I haven't had that 
specific conversation, frankly. Let me investigate that. And, 
of course, I have a----
    Ms. Wasserman Schultz. By the way, it predates this 
Administration.
    Secretary Kerry. I am not taking it personally actually. I 
remember this debate when I was up here. I just want to find 
out exactly, because I haven't been part of any conversation 
that has examined some shortfall in it. So let me find out 
where we are.
    Ms. Wasserman Schultz. Thank you.
    Secretary Kerry. We will examine that.
    Ms. Wasserman Schultz. Thank you, Mr. Secretary.
    Madam Chair, I yield back.
    Secretary Kerry. Well, thank you. And thanks for coming. I 
know you are chairing something. I appreciate it. Thank you.
    Ms. Granger. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    Mr. Secretary, let me bring you a little bit closer to 
home, to this hemisphere, Cuba. As you know, U.S. law states 
that if certain conditions are met by the Castro regime, the 
embargo in essence goes away. The President has been stating, 
he said in the State of the Union that he wants the embargo 
just to go away, and he wants Congress to lift the embargo 
without fulfilling those conditions that are in the law.
    So which of those conditions does this administration 
oppose? Or which of those conditions does this administration 
believe that the Cuban people do not deserve? Because let me 
tell you what they are. They are the release of all political 
prisoners. They are the legalization of political parties, 
independent press, and independent labor unions, and free 
elections.
    Those are the conditions in law. The administration has 
said that we don't need to meet those conditions, that Congress 
should get rid of the sanctions without those conditions. Which 
one of those conditions does this administration think are too 
much to ask or unfair or the Cuban people do not deserve?
    Secretary Kerry. None. They deserve them. There is none 
that is unfair. We should ask for all of them. What this 
administration believes, however, is that the embargo has not 
produced them and will not produce them. In fact, it is the 
exact opposite. We believe that if you lift the embargo and 
engage more thoroughly with Cuba, you have a much higher rate 
of probability and a much faster set of transformations that 
can take place. I believe that very strongly, personally. I 
believed it when I was here in that Senate.
    I think we have actually helped repression by shutting it 
down. It is much easier for regimes that are not held 
accountable, that don't interact with the world, that sort of 
are shut off to be repressive than places that have been opened 
up where there is engagement and countries are involved and 
families----
    Mr. Diaz-Balart. Let's talk about that, if I may, Mr. 
Secretary. As you know, I apologize for interrupting but we 
don't have a lot of time.
    Secretary Kerry. Go ahead.
    Mr. Diaz-Balart. So as of the time of the President's 
December 17 announcement, there have been hundreds of political 
arrests, including more just this weekend, 200 last weekend, 
which include the arrests of over 80 Ladies in White, more than 
90 from the Cuban Patriotic Union, including very well-known 
activists. By the way, at least 5 of the President's so-called 
53 political prisoners that the President said is one of the 
things that he got out of this deal for the United States and 
for Cuba have been rearrested since then. And yet it seems that 
the administration is continuing to negotiate, even though the 
regime has not only continued their repression, has been 
escalating their repression, but even those that the President 
said were kind of the success story, that the Castro regime 
released, a number of them have been rearrested.
    So, it would seem that the administration is looking 
forward to normalization at all costs, regardless of what the 
regime is doing. And is there anything that the Castro regime 
would do, could do, to stop this administration from 
normalizing? Which, as you know, normalizing relations with the 
United States for a terrorist regime, that is a pretty good 
gift. So what could they do, what should they do, what can they 
do that would stop the President and this administration from 
normalizing?
    Secretary Kerry. Well, first of all, we don't know that 
they are currently engaging in international terrorism. That 
evaluation is being made.
    Mr. Diaz-Balart. Well, Mr. Secretary, there was a shipment 
of arms that went to North Korea that even the U.N. stated.
    Secretary Kerry. Yes.
    Mr. Diaz-Balart. So, I mean, I am sure you are aware of 
that, Mr. Secretary.
    Secretary Kerry. I am aware of that. But the standard by 
which you all wrote the law with respect to what has to be 
measured for international terrorism is whether or not they 
have engaged in acts of international terrorism in the last 6 
months.
    Mr. Diaz-Balart. You are aware that the Colombian military 
confiscated arms recently that were in the hands of the FARC?
    Secretary Kerry. Well, this is all being evaluated right 
now.
    Mr. Diaz-Balart. You are aware of that?
    Secretary Kerry. I don't know who----
    Mr. Diaz-Balart. That would qualify as an act of terrorism.
    Secretary Kerry. I don't know yet, I am not going to 
prequalify what is being appropriately judged with the input of 
all of our Intel Community. All the relevant agencies are asked 
to contribute to this. You will be well, obviously, advised and 
briefed with respect to what the conclusions are on it. And I 
don't know what they are yet because they are engaged in that 
endeavor. That is a prerequisite, obviously, for the ability to 
move forward.
    But that said, let me just say to you that we are well 
aware of the Ladies in White and the challenges internally. 
Actually, I interpret that as sort of a reaction to, it is a 
manifestation of the fear that might come. But I think there is 
a much greater opportunity to be able to hold them accountable 
and deal with that when you have the scrutiny that will come 
with additional transactions, commerce, presents, money in 
hands of people there, people traveling, open up standards that 
come with this. And there is a much greater ability.
    I mean, that is how we have operated in many other 
countries. I mean, Richard Nixon opened up and normalized our 
relations with China. We still have huge disagreements with 
China. We normalized and opened up our relations with the 
Soviet Union. We had huge years during the Cold War where we 
were fighting them in a cold war. But we were able to do more 
as a consequence of that engagement. And ultimately, both 
changed. One disappeared, the Soviet Union, and the other has 
been increasingly partnering, opening up, engaging in different 
ways, even as we continue to have some problems.
    So these things don't change overnight, and I don't expect 
that will, nor do you. The question is, are you better 
positioned to be able to fight for the things that matter to 
you? Can you leverage people's rights? Can you send an 
ambassador in to raise the profile on a particular human rights 
challenge? Can you do more to be able to do that?
    We have not backed off of one of those priorities. And, in 
fact, when Roberta Jacobson, Assistant Secretary Jacobson was 
there, she met with civil society. They didn't like it, but she 
met with them.
    And so we will continue to press our case, but we also 
think we are far more advantaged in doing so if we are having 
diplomatic relations and engaging and opening up so that a lot 
of folks from Florida, from New Jersey, from other places who 
have family there would be free to visit, bring ideas, bring 
their openness, bring their money and other things, which will 
change life in Cuba. I have no doubt about it.
    Mr. Diaz-Balart. And, Mr. Secretary, my time has clearly 
expired. I would not use China as a model to talk about when we 
talk about human rights. That is precisely what we do not. When 
you talk about the success of China, I will tell you that is 
not a success.
    Secretary Kerry. Please, don't put words in my mouth. I 
didn't say----
    Mr. Diaz-Balart. You mentioned China. I did not, sir.
    Secretary Kerry. I did. I mentioned China as a country with 
whom we have normalized diplomatic relations----
    Mr. Diaz-Balart. Yes, we do.
    Secretary Kerry [continuing]. And huge differences, is what 
I said, huge differences, both on a political system, on human 
rights, on business practices, cyber. Run the list.
    Mr. Diaz-Balart. Yeah. And has that helped the human rights 
condition of the Chinese people?
    Secretary Kerry. But we have diplomatic relations.
    Mr. Diaz-Balart. Has that helped the human rights condition 
of the Chinese people? That is a discussion for another time 
because my time is up. I would argue, Mr. Secretary, that it 
has not.
    Thank you. I yield back.
    Ms. Granger. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Secretary, for your service. 
Though the origins of Serrano and Diaz-Balart come from two 
different islands in the Caribbean, whenever we follow each 
other we usually stay on the same island for discussion.
    So, on the issue of Cuba, let me congratulate the 
administration for seeing the light that this country hasn't 
seen for over 50 years and understanding that we do better when 
we invade people with blue jeans and sneakers and ideas and 
trade than when we try to isolate them. And I think that you 
are right, we helped whatever went wrong in Cuba throughout 
these years by isolating them. I hope to see that change come 
true.
    So I have two questions for you and put them together. 
Without telling me what I am not supposed to know--I can't 
believe I am saying this on TV, we are supposed to know 
everything, right--but without telling me what I am not 
supposed to know, how are those negotiations going with Cuba 
and what is it that we want the Cubans to give us in return for 
opening up diplomatic relations?
    And secondly, total my opinion, and this is totally my 
opinion, we know that our differences with Venezuela stemmed, 
one, from the style of President Chavez, but it also came 
strongly from their relationship to Cuba. So if we get close to 
Cuba, does it open the door to get closer to Venezuela?
    Secretary Kerry. Let me answer both of those. First of all, 
the negotiations regarding with Cuba right now are really 
fairly straightforward regarding diplomatic relations. It is a 
process of diplomacy, an automatic process regarding 
normalization. The parameters of that were negotiated 
originally, which involved the release of the prisoners. There 
is obviously a concern about anybody who may have been 
rearrested or even the Ladies in White. That issue will be 
raised for certain.
    In addition, the Internet agreement and other components of 
what was already agreed on will be on the table. But the most 
important part of this now is really the pro forma stuff of 
diplomatic relations, visas, travel, the access and process by 
which your diplomats are going to be treated. That is sort of 
the hard stuff of diplomatic relations and that is what is 
being talked about right now.
    With respect to Venezuela and Cuba, I will tell you that I 
talked to President--I actually shouldn't--the President of a 
Latin American country to tell him that we were engaging in 
this policy. And there was almost a whoop of excitement on the 
other side of the phone saying, wow, that can really help 
change things throughout Latin America. If America can begin to 
have a different relationship with Cuba, it will change what 
has been a tool, a weapon that has been used against us by 
other countries in Latin America. And so, in fact, this 
President thought that he was going to undertake to call 
President Maduro immediately and talk to him and say, hey, 
don't get left behind, look what is happening, be part of the 
future.
    Now, that hasn't happened yet, and we have serious concerns 
about what is going on in Venezuela. And obviously we are sort 
of perplexed by the and frustrated by the frequency with which 
President Maduro seems to want to blame everything on us when 
we have, in fact, done nothing. And every time he is in 
political trouble he tries to play the anti-American card and 
starts citing some mythical coup or something that isn't taking 
place.
    It would be great if he could realize the benefits to the 
people of Venezuela. The people of Venezuela are currently 
being hurt by the policies that he is pursuing, and we hope 
that he will realize that we are ready to engage in normal 
relationship of nations and become engaged in helping to deal 
with the problems of his people, the poverty, the opportunity, 
the education that is needed, other things, if he wants to 
engage in a legitimate relationship.
    But there is no doubt that this was well received 
throughout Latin America. Quite surprised by many countries. 
Very welcomed by all.
    Mr. Serrano. Yes, it was. It was. And I can tell you----
    Secretary Kerry. Except, perhaps, Venezuela that may be 
highly unsettled by it because it sort of leaves them quite 
isolated.
    Mr. Serrano. But they are isolated, yes, but still unable 
to blame our country for its treatment of Cuba, which has been 
used by many Latin American countries throughout the years. So 
that is why you saw this whooping, you know, this excitement. 
And I think that your statement that the countries in Latin 
America would sign up, a lot of Americans just don't understand 
that Cuba became a symbol to them--to them--of American 
oppression. And so when that gets settled, then Latin America 
has to look at itself again.
    And we have to look at the fact--and I will close with 
this--that Latin America in our generation, Mr. Secretary, went 
from dictators to elected people who didn't care about their 
constituents to leftist people who built schools and got 
elected and built hospitals and got elected. And so if we 
understand that and we embrace that, regardless of how left 
they are of us, we may accomplish more than what we are 
accomplishing in Cuba.
    And I just want to congratulate you because I have spent 25 
years in Congress saying it is a wasted philosophy and policy 
and it serves nothing. And to see this President take this bold 
step, it is historic and I appreciate it and I thank you.
    Secretary Kerry. Thank you, Congressman. I appreciate it.
    Ms. Granger. Thank you.
    The Secretary has to leave here at a quarter till 5. That 
is 15 minutes. And we have two members that have not asked 
questions.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    Mr. Secretary, welcome.
    I want to share with you a story and return to the Middle 
East. In 1979, when I was a young colleague student, I lived 
for a time in Egypt, and it was the year of the peace accords 
between Israel and Egypt, and there was a celebratory 
atmosphere of this newfound relationship with America.
    But I lived for a time in a remote oasis area with farmers 
in the western desert. And one of the farmers, their English 
was very limited, so you did the best you could, but one of the 
farmers wanted to show me something. And he took me to one of 
his neighbors, and he grabbed his neighbor's hand, and he took 
his wrist and he bowed and placed his neighbor's wrist right on 
his face. His neighbor was a Coptic Christian and he was a 
Muslim, and his neighbor had the tattoo of Christianity, which 
is common among Copts, on his wrist. He was trying to tell me a 
couple of things. One, that they were brothers, that they were 
friends, and also that I was welcome there in that village.
    This story is very hard to reconcile with what is happening 
today, particularly with the emergence of ISIL and this 8th 
century barbarism with 21st century weapons that is not only 
assaulting life, but it is assaulting this sacred space of 
human dignity, this right, this value of being able to hold 
reasonably held beliefs and exercise them in religious 
tradition.
    So once ISIL is hopefully contained, degraded, and 
eliminated, we still live with the difficult problem of 
assuring a religious pluralism and that the ancient peoples who 
have been there, who have every much right to be there as 
anyone else, Christians, Yazidis, other religious minorities, 
as well as innocent Muslim people who are being victimized by 
this, a new day should shine forth whereby this right of 
conscience and religious freedom should be respected.
    In this regard, in the State Department, I have a 
suggestion and a plea for you. You have an Ambassador for 
International Religious Freedom, but I understand that his role 
is not as perhaps robust as it could be in reporting directly 
to you. This assault by ISIL is not only an assault on human 
dignity and life, it is an assault on civilization itself. So, 
again, once it is contained, this ideal of bringing forth a new 
and robust understanding of protecting the rights and dignities 
of all persons, no matter their religious faith. Middle Eastern 
Christianity is shattered and someone is going to have to pick 
up the pieces here.
    If we have time, I would like to turn to the question of 
how the Kurds can help in this regard because they have been 
doing a very significant heavily lift in protecting that 
population, as well as the Yazidis. But if you would care to 
comment on the Ambassador for Religious Freedom and the 
position that they have in the State Department.
    Secretary Kerry. Well, Rabbi Saperstein is as distinguished 
an advocate as there is, and he has access to me any time. I 
mean, I have enormous respect for him. He knows that. I worked 
very hard to get him to be able to come in and take this job 
on. And the last thing he is going to suffer for is lack of 
access to me, I assure you.
    This is a huge priority within the State Department. I also 
appointed the first faith-based liaison office with Shaun Casey 
filling that role. We are deeply involved in trying to pull 
interfaith efforts together in order to appropriately stand up 
for religious freedom, but also to harness the full measure of 
force that comes from leaders within various religions to start 
speaking out about the true Islam, about interfaith abilities 
and needs, and so forth.
    So I am very excited about it. The position has existed 
under prior administrations, but I think everybody would agree 
that Rabbi Saperstein is hugely appropriate to this moment. And 
I expect nothing but good results.
    Mr. Fortenberry. Well, I agree. I hear you saying, I am 
interpreting your words, is that you have elevated and 
intensified the positioning of this Ambassador within the 
dynamics of the Department. And I think he, as well as whoever 
comes along, needs to have a seat at the table as the 
rebuilding begins in the Middle East so that not only stability 
takes place, but the very basis for that stability of respect 
for human dignity and rights as expressed in religious freedom 
is right there next to everything else, defense considerations, 
economic considerations, human dignity considerations.
    Secretary Kerry. Well, it is at the center of the struggle 
we are involved in.
    Mr. Fortenberry. Yes.
    Secretary Kerry. And we all need to pay attention to that.
    Ms. Granger. Mr. Stewart.
    Mr. Stewart. Madam Chairwoman, thank you.
    And, Mr. Secretary, thank you, sir. Thank you for your 
many, many years of service. Thank you for your patience today 
as we have had votes and other responsibilities. And though you 
and I might see the world differently in some respects and 
politically we may not agree on everything, I do respect the 
leadership that you are providing in the administration now.
    In framing my question, I would like to tell you that I 
spent 14 years as an Air Force pilot, as a military officer. 
During that time, I was the pilot rep for the implementation of 
START treaty with the former Soviet Union. It was a great 
experience. I learned a lot.
    One of the things I learned from my military experience in 
general from that experience with the START treaty and, 
frankly, from some of my experience here in Congress is that 
for a treaty or an agreement to work there has to be a modicum 
of trust between the two parties. They may be adversaries, they 
may not like each other, but both of them must want the treaty 
to be successful and, again, for there to be some element to 
trust.
    And to return to a topic that we have discussed here, but I 
would like to pursue it in a slightly different way, I am not 
sure that we have that trust with Iran. And let me explain what 
I mean by that. Iran is a state sponsor of terrorism. They have 
been recognized as such for more than 30 years, Hezbollah, 
Hamas. The list of them working against our interest is very 
long.
    And so I would ask, to you, sir, two questions. I could go 
on for quite a long time telling you what you already know, 
that they have been and, I think, view us as an enemy in many 
regards, perhaps in most regards. They have a long list of 
working against our interests. Can you give me a single example 
of where they have worked with us as a partner or with any of 
our allies in a constructive way?
    And the second question would be, how do we reconcile the 
damage that I believe this has done with our primary partner in 
the area, and that would be our friend of Israel, and their 
suspicions of these negotiations and whether we protect their 
interest as well?
    Secretary Kerry. Well, first, let me begin, Congressman, I 
want to thank you for your service. I really appreciate, like 
everybody does, anybody who puts on the uniform and spends a 
few years.
    Mr. Stewart. I have got to tell you, flying jets was a lot 
more fun than what I do now.
    Secretary Kerry. As a pilot since I was in college, only 
out of currency since I have been Secretary of State, I agree 
with you.
    Let me just say to you that you raise two issues there. Is 
there any issue where they have worked with us? Well, they are 
working with us on this right now. They put the interim 
agreement in place over a year ago now. I think it was around 
November we cut the treaty--the deal, not a treaty. So it has 
been more than a year. They have done everything they said they 
would do in the context of that.
    They have also kept secret those things that we thought 
needed to be kept secret as we worked through what could be a 
final agreement. I mean, we operate under the rule nothing is 
agreed until everything is agreed. And that means that whatever 
we may have agreed over here we have got to keep, because it 
may require one or the other to say yes to something that may 
not be very popular back home, but may be defensible. But it 
isn't defensible until you have the whole agreement.
    They have not burned us with respect to that, nor we them, 
and that has facilitated a kind of dialogue that is pretty 
direct and open and allows us now to bear down on some of these 
things. They recognize we have difficulties. We recognize they 
have difficulties. And we all have bottom lines. That is in any 
negotiation.
    So the interim agreement is one example of trying to work 
together on something. Now there are some things they have done 
that help us, but we are not coordinating with them. We are not 
working on it. We haven't asked them to do it. But, for 
instance, fighting ISIL. They are totally opposed to ISIL, and 
they are, in fact, taking on and fighting and eliminating ISIL 
members along the Iraqi border near Iran and have serious 
concerns about what that would do to the region and so forth. 
So we have, at least, a mutual interest, if not a cooperative 
effort.
    But in the end, I emphasize to you, your second question 
was how to reconcile the damage that they may have done or that 
they could do to Israel in this. That is making a presumption, 
if you don't mind my saying so, that we are not going to have a 
deal here that, in our judgment, will absolutely protect 
Israel. It is not just Israel, by the way. It is us. It is 
every country in the region.
    And it is not just us at the table trying to do this. 
People need to focus on this. Russia is as adamant as we are 
that Iran cannot engage in proliferation activities. China is 
at the table. China has been helpful in this process, as has 
Russia, by the way. Even in the midst of the fight over 
Ukraine, Russia is working to help hold Iran accountable and 
get a favorable agreement, as is China. And then we have 
Germany, France, Great Britain, all at the table, all as 
equally concerned about where this goes.
    Then you have all the countries in the region, Turkey, 
Qatar, Saudi Arabia, Emiratis, Kuwaitis, Jordanians, they all 
have a stake in this.
    So we are not flying by the seat of our pants, nor are we 
proceeding in a solo basis here. And everybody understands the 
implications of the potential of their having a nuclear weapon. 
Israel is not the only country. Others worry about it. So they 
all want to see that we are trying to negotiate an agreement 
which will meet a high standard of accountability and eliminate 
the four pathways to a bomb: the Natanz pathway, the Iraq 
pathway, the Fordow pathway, and then, of course, the potential 
of a covert pathway.
    Now, that is complicated. We have to proceed. But you have 
to, also, measure this--I say carefully--against alternatives. 
Presumptions may be being made here by some people that there 
is an alternative way that you somehow get them to--you know, 
it is like ``Men in Black,'' you can hold up a little flash pen 
and flash it and they will forget everything they have learned 
about fuel cycle or nuclear weapons or nuclear production, 
peaceful nuclear production.
    Do you think that is going to happen? Is there any notion 
of reality in anybody's mind that says that we are going to 
negotiate a deal where they have eliminated all of their know-
how? And if you don't have verification and if you don't have 
insight as to what they are doing, there is a greater 
likelihood they dig deeper under a mountain and do something 
that you don't know and you wake up one day and, boom, they do 
have something.
    So you have got to ask yourselves what are the real 
alternatives here. I hear people talk about dismantlement. I 
mentioned the Bush administration from 2003 on where their deal 
was no enrichment. But they just enriched away, and they 
centrifuged away, and they went from 164 to 19,000. They did 
that while they had sanctions, while there was a prohibition on 
the policy, while there was a U.N. resolution. And so you have 
got to stop and say, what is the best way to be able to 
guarantee they don't get a bomb for the period of time to build 
in the future as we begin to change a lot of other things, 
hopefully?
    Now, I will tell you this. I am not going to go into all of 
it now. I want us to see if we have a deal before I put all the 
arguments out there. But I am telling you there are many more 
arguments than have been heard about why this is important, and 
there are many more arguments than you will probably hear next 
week. And we need to wait and see what deal we have before you 
can really measure what it is that is at stake here and what 
the options are and how you feel about it.
    Ms. Granger. Thank you, Mr. Secretary. We have run out of 
time. Mrs. Lowey has an issue she would like to bring up.
    Mrs. Lowey. I don't think we have time to discuss it today, 
but I would like to raise one point. I know Andy Lack was just 
appointed head of the BBG, a talented person, very capable. I 
know that you are investing $5 million, as announced by the 
President, in Center for Strategic Counterterrorism 
Communications. We have failed. We have lost this war. And I 
don't get it. As a proud Member of Congress, as a proud 
American, I don't understand why we can't communicate more 
effectively.
    I have been asking this question for a very long time. We 
are losing the public relations war. And while I think it is so 
important, we can't discuss it today. It is called the Center 
for Strategic Counterterrorism Communications. It is a $5 
million program. We have $742 million in program done by BBG. 
Together, I think we should figure out how we can be more 
successful.
    The President brought this up at the conference last week, 
and I would love to get a briefing and understand why we are 
losing this public relations battle.
    Secretary Kerry. Well, I really want to engage in that 
discussion with everybody. Russia today can be heard in 
English. Do we have an equivalent that can be heard in Russian? 
That is a pretty expensive proposition.
    They are spending huge amounts of money with speaking 
languages that other people understand and putting out 
information that other people understand in other countries 
around them, and we are not. We are beginning now to do this 
with respect to ISIL, and so we are putting out things in Urdo, 
we are putting out things in Somalia, we are putting out things 
in Arabic.
    But this is a big enterprise, folks. I am all for it. The 
President is all for it. But it takes money. And we have got to 
be prepared to invest in sort of that kind of marketing, if you 
will, and the penetration. What we have allocated now under BBG 
goes to Radio Free Asia, it goes to TV Marti, it goes to all 
these various entities, it is split up, while the real 
challenge is not as much there, to be honest with you, as it is 
in some of these other places.
    So we will all agree we ought to sit down and rethink it, 
recommit, figure out how we are going to do this most 
effectively. We haven't cornered the market on the wisdom of 
that. But you are right, Andy Lack is a very capable guy. We 
are hopeful that we are going to have a rejuvenation of that 
effort. And we are sure to come back to you and talk to you 
about some of the ways we could try to augment our initiatives.
    Mrs. Lowey. Let me just say in conclusion, because we are 
not going to have the discussion today, Walter Isaacson is a 
pretty talented guy too. He headed it for a couple of years 
before.
    Secretary Kerry. Very talented guy.
    Mrs. Lowey. We somehow have failed here, and I would be 
interested in having a serious discussion.
    Secretary Kerry. I will tell you what, I will commit to 
come to you with a program that will lay out, together with all 
of those folks you have just named, a stronger approach on 
this, and I hope we can have a meeting of the minds on it.
    Madam Chairwoman, with your indulgence, can I just say that 
we remain as deeply committed now as I was in the very 
beginning to trying to work something between the Palestinians 
and Israelis. It has been made very, very difficult by virtue 
of the Palestinian accession to the ICC, which we strongly 
advised them not to do and said would be acting against their 
own interests and the interests of a long-term resolution.
    As everybody knows, there is a critical election in Israel 
in the next weeks. We are assiduously not engaged and do not 
want to get in the middle of that. It is up to the people of 
Israel to make their own decision. Our hope is, however, that 
when that decision is made and a government comes together, we 
will have an opportunity to get back to the real work of peace 
and of finding a road forward.
    And the United States is deeply committed to that as 
before, and we are working right now to help make sure the 
Palestinian Authority doesn't collapse because of the lack of 
revenues and the stress that they are under. But make no 
mistake, that remains a major priority of many nations in the 
region, and I hear it wherever I go.
    Ms. Granger. Mr. Secretary, as we adjourn the meeting, I 
have a request. Last year the House established the Benghazi 
Select Committee. It is in all of our best interest for the 
select committee's work to be completed as soon as possible. So 
your assistance in ensuring sufficient resources are dedicated 
to respond quickly to the select committee's requests is 
appreciated.
    Thank you again for your time today. This concludes today's 
hearing.
    Secretary Kerry. Thank you so much.
    Ms. Granger. Members may submit any additional questions 
for the record.
    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs stands adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, March 17, 2015.

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT


                                WITNESS

HON. ALFONSO E. LENHARDT, ACTING ADMINISTRATOR, UNITED STATES AGENCY 
    FOR INTERNATIONAL DEVELOPMENT

                Opening Statement by Chairwoman Granger

    Ms.  Granger. The Subcommittee on State, Foreign 
Operations, and Related Programs will come to order.
    I want to welcome the Acting Administrator of the U.S. 
Agency for International Development, Ambassador Al Lenhardt.
    Ambassador, we look forward to hearing your testimony and 
certainly with working with you.
    USAID responds to some of the most challenging problems in 
the world, from tackling emergency situations, such as the 
Ebola outbreak in West Africa and the humanitarian crisis in 
Syria, to addressing long-term development needs in some of the 
poorest, most conflict-stricken places around the globe. I am 
proud of our men and women who serve overseas in our military 
and USAID missions, the Peace Corps, and our embassies around 
the world. I want to ensure that the United States continues to 
lead on the world stage.
    Real leadership requires the willingness to review what is 
going well and what isn't. I believe there are many areas of 
USAID that could see improvement that I hope we can work 
together to address. My first concern is that there are many 
U.S. Government agencies involved in health, development, and 
disaster response activities overseas. I am concerned that 
responsibilities may not always be clear, that agencies may 
duplicate each others' efforts, and coordination may not occur 
as it should.
    As you well know, as a former ambassador to Tanzania, an 
embassy that was attacked in the 1990s, desk space at U.S. 
embassies comes with a high price because of the security 
required. Overseas positions for all agencies should be 
carefully considered to ensure that the work gets done 
effectively and efficiently by the agency with the most 
appropriate skills to address the problems at hand. There is no 
room today certainly for replication of budgets.
    Another challenge that former Administrator Shah tried to 
address, is with the Feed the Future Initiative, and I hope you 
will continue to do so with other programs as well.
    In many countries USAID tries to do too much. The Agency 
needs to continue focusing on reducing the numbers of programs 
it manages and do those very well. You should terminate the 
programs that don't work or may be causing you to spread the 
Agency's people and resources too thin. I would love to work 
with you on some of those.
    My next concern is that it is difficult to get access to 
USAID. There are many American businesses, faith-based 
organizations, and universities that have development ideas to 
bring to the table, and we consistently hear complaints that 
they can't find ways to partner with the Agency. So I would 
hope you would look at that.
    Ambassador Lenhardt, with your military background and your 
time spent as a diplomat, you bring a great perspective to the 
Agency. I hope you can discuss some of the management 
challenges that are directly related to your budget and we can 
work together to solve them.
    The budget request includes $22 billion that USAID manages 
entirely or partially. This includes a $269 million increase 
for USAID's operating expenses. It is, frankly, very unlikely 
that our subcommittee's allocation would allow us to address 
all the areas identified in the request, so we will have to 
work closely together to prioritize many competing demands in 
international development, health, and humanitarian programs.
    I want to close by thanking you and the men and women of 
USAID as well as your implementing partners, who are committed 
to solving some of the most difficult global development issues 
around the world, often in very dangerous places. All of us on 
this subcommittee understand and appreciate that work.
    I will now turn to my ranking member, Mrs. Lowey, for her 
opening remarks.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    Opening Statement by Mrs. Lowey

    Mrs.  Lowey. Thank you, Madam Chair.
    Welcome, Acting Administrator Lenhardt. As a fellow New 
Yorker, I welcome you to our subcommittee and I look forward to 
discussing the President's vision for development and global 
health.
    We cannot build the world we want for ourselves and future 
generations without a strong, stable, and well-resourced 
development policy. USAID has spent the last several years 
endeavoring to rebuild itself as a premier development agency 
on the front lines of poverty reduction and disease eradication 
while leading international efforts to advance economic 
opportunity, health, education, food security, and democracy 
activities.
    The efforts of you and your AID colleagues, made possible 
only by the continued generosity of the American taxpayer, make 
us all proud. With so many challenges around the world it is 
our responsibility to make sure that USAID has the tools to 
prioritize global needs, effectively implement its programs, 
and evaluate what is and what is not working. And when 
challenges arise, Congress and the Agency need to speak frankly 
on how to remedy them.
    This year's request includes a significant increase for 
Central America to address the root causes and rapid increase 
in migration of unaccompanied minors. How does this initiative 
build on previous efforts in the region and to what extent are 
the Central American countries prepared to partner with you? I 
know we agree that our chances of success are significantly 
enhanced when local governments are fully engaged and prepared 
to contribute. I hope you will also address the long-term plan.
    I understand USAID cannot nor should be present in every 
country in the world. Nevertheless, is this year's dramatic 
increase for Ukraine, Moldova, and Georgia an attempt to make 
up for the fact that USAID has not been very active in Eastern 
Europe in recent years? Given Russia's continued provocation 
against Ukraine and its neighbors, is the requested assistance 
still adequate? How will USAID prioritize any new funding?
    I was very pleased that the Congress provided $2.6 billion 
in emergency funding to help combat the Ebola outbreak in West 
Africa. The U.S. response continues to showcase USAID's ability 
to lead international humanitarian efforts, particularly during 
a time of crisis.
    The outbreak also reinforced that robust national health 
systems are an absolute necessity and that without one in place 
crises are far worse, require far greater resources, and are 
likely to reappear. I hope you will address how we can build an 
appropriate health infrastructure to prevent another disease 
outbreak.
    I also need to raise two additional issues. First, basic 
education funding. The fiscal year 2016 request once again cuts 
current levels despite widespread agreement on the importance 
of these programs to the United States and millions of children 
around the world. I hope you will commit to working with me on 
both the amount of resources and the quality of USAID's basic 
education programs this year.
    The second issue is family planning. Giving women some 
measure of control over the size and spacing of their families 
has long-lasting benefits to them, their children, and their 
communities. I hope we can all work together this year to 
address this basic need without partisan fights and divisive 
policies.
    In closing, as I have said before, the strength of USAID is 
and always has been its dedicated public servants from the top 
down. While I know we will all miss Administrator Shah's 
tireless efforts, I look forward to working with you and to 
building on the many endeavors started under his leadership.
    Thank you, Madam Chair.
    Ms.  Granger. Thank you.
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Ms.  Granger. Ambassador Lenhardt, please proceed with your 
opening remarks. I would encourage you to summarize your 
remarks so we leave enough time for questions and answers. Your 
full written statement will be placed in the record. And we 
understand that votes are going to be called about 3:30, so we 
hope to have everyone be able to ask their questions. Thank 
you.
    Mr.  Lenhardt. Thank you, Chairwoman Granger, Ranking 
Member Lowey, and members of this subcommittee, for allowing me 
to discuss the fiscal year 2016 budget request for the United 
States Agency for International Development.
    Thanks to strong interagency partners and bipartisan 
support in Congress, we are fortunate to have leaders 
throughout government who understand the importance of 
development to our own Nation's security and prosperity. At 
USAID, we believe that by partnering to end extreme poverty and 
promoting resilient democratic societies we are helping 
developing countries transform into peaceful, open, and 
flourishing partners for our own Nation.
    As I testify today, my colleagues at USAID are supporting 
that mission and representing our country in dynamic and 
challenging environments around the world. We are rooting out 
threats before they reach our shores, unlocking flourishing 
markets for American businesses, and connecting our young 
people and universities with global opportunities, all for less 
than 1 percent of the federal budget.
    This year's budget request advances our country's interests 
while responding to pressing national security priorities all 
over the world, from Nigeria to Honduras. By leveraging public-
private partnerships and harnessing innovation we are 
maximizing the value of each and every dollar entrusted to us. 
At the same time, we are making difficult choices about where 
our work will have the greatest impact, shifting resources and 
personnel to better advance our mission of ending extreme 
poverty around the world.
    These investments have delivered real, measurable results 
on behalf of the American people. Our Feed the Future program 
has helped 7 million farmers boost their harvests with new 
technologies and improve nutrition for more than 12 million 
children. Power Africa has mobilized $20 billion in private 
sector commitments and encouraged countries to make critical 
reforms. And thanks to a groundbreaking investment in child and 
maternal survival, we are on track to save the lives of up to 
15 million children and nearly 600,000 women by the year 2020.
    These efforts are at the very core of the new way of doing 
business at USAID. After 5 years of reform, I am confident our 
Agency is now a more accountable and effective enterprise. Yet, 
I am equally humbled by the challenges before us and recognize 
that we have much more work ahead of us. That is why my focus 
will be on one core discipline, management. I will push our 
Agency to be more innovative and strategic in our effort to get 
better every day, because while we may not have all the right 
answers, we are asking the right questions. Above all, I will 
ensure that we are good stewards of the precious resources 
entrusted to us.
    Spending over 30 years in the Army and becoming a two-star 
general, and later as an ambassador to Tanzania, may not be the 
typical path to a job in development. But even though my 
journey was different from the development professionals with 
whom I have the privilege to serve, my conclusion is the same: 
America's investment in development is money well spent. Saving 
children from hunger and disease elevates our own moral 
strength. Empowering entrepreneurs to innovate and create new 
markets advances our own prosperity. Strengthening civil 
society not only gives a voice to the oppressed, but also makes 
our own citizens more secure.
    Through our work, we are opening up new paths to 
opportunity, energizing the global economy, and reducing root 
causes of insecurity. In doing so, we are advancing the values 
that unite the American people and the people throughout the 
world.
    As we work to tackle these global challenges, we will value 
your counsel on how we can become even more accountable and 
more effective.
    Thank you for your kind attention. I look forward to 
answering your questions.
    Ms.  Granger. Thank you so much.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms.  Granger. As you were talking about that, I remember 
when I first came on this subcommittee and we were getting 
ready to go and Mrs. Lowey was the chair. I received a call 
that was from someone named Bono who said ``don't ever forget 
you are saving lives.'' There is a difference, so thank you 
very much.
    I will go into questions. I have one question. Ambassador 
Lenhardt, I know that you are aware of a recent press report 
that the State Department funded an organization that has been 
involved in trying to influence the upcoming elections in 
Israel. USAID was not involved in that. But the question is, 
how would you ensure that USAID wouldn't use U.S. taxpayer 
dollars to fund organizations trying to influence elections, 
including some of those of our closest allies?
    Mr.  Lenhardt. Thank you, Madam Chair.
    We are not involved in that situation. And before we get 
involved in any program, project, or activity we do a thorough 
assessment as to the appropriateness of it. In our involvement 
and our activities, we determine what are the outcomes and are 
they legitimate outcomes, are they ones that we want to see, 
and will they advance our committed work? And where the answer 
may be no, we don't get involved. It is that simple. So this 
particular case, I can assure you that we are not involved in 
that.
    Ms.  Granger. Thank you, very much.
    Mrs. Lowey.
    Mrs.  Lowey. Thank you.
    As I mentioned in my opening statement, the Ebola crisis 
has reinforced how important functioning and capable country 
health systems are. They are important not just for the 
citizens of that country, but as Ebola has shown, they are 
important to the safety of U.S. citizens as well. I was glad to 
hear that the Liberian Government is planning their own 
initiative to rebuild their health system.
    If you could share with us the current planning for the 
emergency fiscal year 2015 Ebola resources to focus on getting 
these countries' health systems at least back on their feet, if 
not better than they were before they were devastated by Ebola.
    Number two, how are we building a focus on stronger health 
systems into all of our global health work? And how does having 
disease-specific funding impact work on cost-cutting issues 
like health systems? And lastly, how is the Global Health 
Security Agenda working to ensure that we are ahead of the next 
disease outbreak, and what role is USAID playing vis-a-vis 
other U.S. Government agencies?
    Mr.  Lenhardt. Thank you, Ranking Member Lowey, for your 
question. It is one that certainly we have given a great deal 
of thought in terms of our response. Your question is 
multifaceted. I will tell you at the top of this, the men and 
women who responded from our disaster assistance team were very 
effective in coordinating a response that became one that 
involved CDC, Department of Defense, State Department, and as 
many other interagency teams in orchestrating the coordination, 
the collaboration of all of our efforts aimed at stopping the 
disease.
    At the height of the disease in Liberia there were 100-plus 
cases per week. I am happy to report now that we are near zero 
in terms of getting down to a point where we can say that this 
has been conquered. Guinea and Sierra Leone are being handled 
by the French and Brits, but we are assisting there as well. We 
are not walking away from that. We want to ensure that we 
respond as much as possible across the entire breadth of this 
epidemic.
    With respect to resiliency of institutions in Liberia, we 
are focused on that based upon the excellent and the great 
support we got from the Congress in providing for the Ebola 
emergency supplemental. Thank you very much for that. Those 
resources will be used, in fact, to bring back and reconstitute 
some of the institutions. Not all of them, as President 
Sirleaf, who was in my office about 3 weeks ago, she wanted to 
rebuild the entire country, and I said that was not possible, 
but we are certainly looking at how we can, in fact, bring you 
back up to a level where you then can take it forward and bring 
about your own increase in institutions. Medical is one, but 
also the economy, how might the economy be brought back, 
because there was a significant hit to the economy in Liberia 
as a result of this incident.
    My point in all of that is to say simply, this is a disease 
that America responded to with great resources, but also a 
determination to ensure that we bring it down. We feel very 
satisfied at this point in time that things are working, and we 
will continue to do that to the point where we finally get this 
thing under control and we can put it behind us.
    With respect to the Global Health Security Agenda, it is 
about detecting, early detection. It is about responding in an 
appropriate way as quickly as we can and preventing future 
incidents of this kind of epidemic.
    Mrs.  Lowey. I yield.
    Ms.  Granger. Thank you.
    Mr. Crenshaw.
    Mr.  Crenshaw. Thank you, Madam Chairman.
    Let me just follow up on that question, and it is part of 
the debate that takes place in the foreign assistance 
community. I think indirectly she was referring to this. On one 
hand, this committee will appropriate money to specific sub-
accounts for specific purposes. Some people say that is good. 
Yet, it doesn't take into consideration that there are other 
issues in the countries we are trying to help, like a health 
system. The other side of the debate is that if you had more 
flexibility then you could deal with the specifics, but you 
could also deal with some of the broader issues that you might 
run into in a particular country, which they might need more.
    I am wondering what you think about that. We have 
historically done a lot of specific appropriations, but from 
time to time, we have realized that we miss out on the broader 
picture. But if you have too much flexibility then we have a 
hard time maintaining our oversight capability and knowing 
where the money goes. Are you familiar with that debate, and is 
that something you have thought about? Where do you come down 
on that?
    Mr.  Lenhardt. Thank you, Congressman, for your question.
    I have given a great deal of thought to this. But the 
reality is, in a constrained fiscal environment and competing 
priorities we can't do everything. We have to be much more 
selective and focus on those areas where we think we can do the 
most good. As we, in the case of a particular country, are able 
to get them up to a level where they then can make it on their 
own, middle-income status, then we will work ourselves out of a 
job in that country and move on to other locations where we 
can, again, do the same kind of goodness.
    The reality is, as many opportunities that we want to help 
children, help mothers, help education, as was mentioned 
earlier, we can't do everything. And so we have to be a lot 
more thoughtful about where we can have solid impact. That is 
what the Presidential policy directive 6 was all about. How do 
we stop salami slicing across the world where no one gets well 
and how do we focus then on those countries where we can bring 
them up and then move on to others where we can bring them up--
--
    Mr.  Crenshaw. I figured that. It does make sense that, 
when you do that specifically, you are also helping the country 
in a broader sense as well and you are more focused.
    I have got a little time. Let me ask a more specific 
question about wildlife trafficking. You know that is a crisis. 
It has become a multibillion industry, and there is a lot of 
crime involved and criminal syndicates. I am pleased to see the 
administration has taken this under its wing. Our subcommittee, 
under Chairman Granger's leadership, in 2014 appropriated $45 
million and last year $55 million.
    Sometimes I hear that money is not getting down to where it 
needs to be to really deal with the problem. I know it is a 
complicated problem. On one hand, you look at Nepal, a very 
poor country, but, as I understand it, 2 out of the last 3 
years has had no poaching. I doubt if they spend $45 million or 
$55 million.
    So can you give us a little update on how that money is 
being spent, and how effective that is? Because I think we want 
to continue this fight. They tell me that almost every 15 
seconds an elephant is killed illegally in Africa. It is a huge 
crisis. So touch on how we are doing with the money we have 
already spent or we have appropriated. Is it effective?
    Mr.  Lenhardt. Thank you for the question, Congressman.
    Our programs are aimed at helping countries develop their 
own capacity in terms of how they are going to manage many 
types of conservation. How do they protect their heritage in so 
many cases? And so it is about training, how do we get training 
focused down to those rangers and other responding patrols who 
are looking for poachers within a particular country.
    You mentioned Nepal. It is about how do we get the Nepalese 
to handle their own situation, how do they then communicate to 
local residents so that local residents become part of the 
solution. It is about conservation. It is about land 
conservation where citizens within that country understand 
their participation and their need to protect the local 
environment so they keep poachers out. They know, by the way, 
who the poachers are because many of them are taking money 
right there on the scene. And so how do you back away from 
that?
    So the money that we have--and again, competing priorities, 
constrained budgets--it is focused on how much good can we do. 
In a perfect world, could we have more? The answer is yes. But 
the reality is, with as many priorities, that would not be 
wise.
    Ms.  Granger. Thank you.
    Mr.  Lenhardt. But it is a problem, and it is something 
that we are addressing in a meaningful way.
    Ms.  Granger. Thank you.
    Mr. Ruppersberger.
    Mr.  Ruppersberger. Sure. Let me get into one issue, and I 
also want to get into tuberculosis assistance that you have 
been working on.
    The two main concerns, that Congress has with USAID, and I 
want to say it is an important agency for our country to be 
able to handle the issues that you do. So it is a very 
difficult agency, I am sure, to manage because there is also a 
lot of money.
    But you talk about how your priority was going to be 
management. Let's talk about what your management style will 
be. A lot of management has to be accountability. Are you going 
to be using more technology? When you have money you have to 
make sure that it is spent appropriately, and then come back to 
us on transparency and accountability.
    So let me get into a little bit more detail about your 
management style and what you plan to do to try to deal with 
some of the issues that your predecessor has been dealing with. 
These changes aren't going to happen overnight, believe me, and 
you do have a good agency. So if you could discuss your 
management style, I would appreciate it.
    Mr.  Lenhardt. Thank you, Congressman, for that question.
    My style starts with people. It is all about people and 
powering down the authority for people to do their job to the 
lowest levels and then having them respond with that 
expectation to do their jobs. And when it is not working, then 
you have to correct for that. You have to fix it in some way, 
either through training or, for that matter, replacing 
individuals. But it is about the positive aspect of that and 
releasing the energy that people have to do the job. You take 
care of them, ensuring that they have the tools, they have the 
training, and they have the development aspects of how to do 
their job better.
    But it does not exclude, and it wraps very neatly with 
leveraging science, technology, innovation, and partnership. So 
that is a major part of it. And if I can cite some of the work 
that we are doing in USAID, it is about the Global Development 
Lab that helps our professionals who are out there doing a job. 
And by the way, they do superbly.
    Madam Chair, I thank you very much for recognizing them for 
the job that they do. They work in some very tenuous, dangerous 
conflict areas of the world, and they do it with aplomb. They 
do it with the knowledge that the activities they undertake 
bring about a better world, and they do it without hesitation.
    So all of that wraps around, I don't think you can separate 
anything in particular, I have given you a sense of how I come 
at things based upon my training both in the military, as well 
as a diplomat running nonprofit organizations, philanthropic 
organizations, for a very short period of time a business 
operation as well, to tell you that it is about people. You 
take care of people, they take care of everything else.
    And then you check to make sure that the systems that are 
in place to guarantee the efficiency, the effectiveness, and 
getting as much out of the limited resources, that is working 
for you as well. And when you need to make a midcourse 
correction, you make that. Or for that matter, if the midcourse 
correction says that you need to suspend, eliminate a program, 
then you don't hesitate to do that, having made the right 
judgments about how you come at it.
    Mr.  Ruppersberger. How many employees do you have at 
USAID?
    Mr.  Lenhardt. Sir, I am sorry?
    Mr.  Ruppersberger. How many employees do you have at 
USAID?
    Mr.  Lenhardt. The number of employees, it is just under 
10,000, 9,800-and-some-odd. But, again, we are covering the 
world.
    Mr.  Ruppersberger. I am not complaining about it at all. I 
think your answer was good. You are only as good as your 
people. You have to give the people the resources to do the 
job, hold them accountable, and you have to motivate them too.
    But I would like you to just get a little bit more 
specific, especially as it relates to money. When money comes 
in you are going to have to have somewhere in your Agency to 
track the money and then make sure the money is spent wisely 
and held accountable. Do you have a team that does that?
    Mr.  Lenhardt. Yes, sir, we do. We have a team that is 
focused specifically on that. We call it our Management Bureau. 
But also within each of the bureaus, our pillar bureaus as well 
as offices, everyone tracks their expenditures. They have to be 
able to articulate what it is that they are doing, the 
efficiency of that, and then how do they then rationalize the 
work, the continued work on any particular project, initiative, 
or program.
    In addition to that, we have something we call the 
Administrator's Leadership Council. And basically what it does 
is determine at any point in time whether or not we are green, 
amber, or red, and it takes a page from the old military 
readiness report. Those things that are green, that is the 
expectation. If it is amber, what do you need to bring it up to 
the green category? And if it is red, what is the problem? How 
do we fix that? What are the resources that you might need in 
order to bring it up?
    And so we do this routinely. It is done at least several 
times a month, sometimes to our chagrin because it keeps 
seeming to get rolled around faster each time. But we do it in 
a very organized, a very methodical way of ensuring that we are 
on the mark and that we have our systems that are checking and 
evaluating to make sure that we are there. And when it is not, 
then we back away.
    Mr.  Ruppersberger. Thank you.
    Yield back.
    Ms.  Granger. Thank you.
    Mr. Rooney.
    Mr.  Rooney. Thank you, Madam Chair.
    General, I got to know Mr. Shah over the last couple years 
on this committee, and one of the things I tried to impress 
upon him the most that was interesting to me was the Food for 
Peace program. I wanted to ask you, generally speaking, with 
regard to South Sudan, the U.N. Security Council describes 
South Sudan's catastrophic food insecurity as one of the worst 
in the world. There is a funding reduction in fiscal year 2016 
from fiscal year 2014. The State Department and your Agency got 
additional emergency funding.
    My question is this: In order to reduce future demands for 
this kind of emergency humanitarian assistance that can be 
overly costly, how does your request help address long-term 
food insecurity through agricultural development? I am 
concerned because your fiscal year 2016 request only provided 
for $10 million in the Food for Peace program, which is the 
only program at USAID that focuses primarily on helping small 
community farmers to become self-sufficient. Obviously, it is 
the whole you can give people money or you can teach them how 
to feed themselves analogy. So that is sort of the focus of my 
question.
    Mr.  Lenhardt. Thank you, Congressman, for your question.
    Food for Peace is but one program whereby we reach out to 
countries around the world and try to handle as many 
humanitarian assistance--or disasters, in this case--as we can. 
But it is not the only program. And so, in addition to Food for 
Peace, we have a program Feed the Future. And Feed the Future, 
as you mentioned, takes the approach of how do we teach 
farmers, how do we teach people how to grow their own food, how 
to become more food secure in their own right. And so Feed the 
Future currently is working with 7 million farmers around the 
world and feeding 12.5 million children nutritious foods, 
preserving their lives.
    I will tell you that in the case of Tanzania we had farmers 
who had increased their yield beyond anything they ever 
imagined, in some cases twofold, whereby they not only provided 
for their own families, but also had enough that they sold at 
market and therefore increasing their own ability to do other 
things with the money, send their children to school, have a 
better life.
    As lamentable as the situation in Sudan is, we are having 
success in a number of areas. Where the Sudanese cannot farm, 
then we are providing that support.
    My point in all of that is to say that there is an 
integration of our humanitarian assistance across the board, 
across many programs, focused again on how can we bring relief 
to as many people as possible. And we are doing that. The 
American people are reaching out to people of the world.
    And in many cases that I saw in Africa the response is very 
positive, very favorable towards Americans, because it is 
really the connection people to people that merely solidifies 
what I see as our own security, advances our own security, as 
well as our own prosperity. Because those countries, once they 
come up to a standard where they can start acting on their own, 
they start partnering with us. They are our allies. They become 
vanguards of democracy wherever they may be in the world.
    Mr.  Rooney. Thank you, General. I look forward to working 
with you on this, specifically with regard to South Sudan, as 
we move forward.
    Thank you, Madam Chair. I yield back.
    Ms.  Granger. Thank you.
    Mr. Serrano.
    Mr.  Lenhardt. Thank you, sir.
    Mr.  Serrano. Thank you. First of all, I want to 
congratulate you on the positive aspects of the work that you 
do at the Agency that is throughout the world.
    There is a question that I should have asked 25 years ago 
when I came to Congress that has always been on my head and I 
never asked it, and it has to do with Cuba.
    Cuba does not, even though things may change, Cuba does not 
trust and we spend a lot of time criticizing Cuba. Yet your 
Agency was in Cuba. Now, Cuba doesn't open its doors to any 
other American Government agency being there, and I know you 
didn't invade them by force. So what kind of agreement was 
there that would allow your Agency to be in Cuba.
    And secondly, notwithstanding what we think about the Cuban 
system, whenever they accused us of meddling in their system 
and trying to change it, what kept them from kicking us out? I 
mean, it is all very confusing, this relationship between USAID 
and Cuba.
    Mr.  Lenhardt. Thank you, Congressman, for your question.
    Cuba is but one example, but we operate in a number of 
closed societies around the world, bringing democratic ideals 
to those countries, bringing to those countries support to 
civil society within those countries, and then, finally, 
ensuring as much as we can and trying to bring about the access 
to independent media, information within, and let's say the 
example used, within Cuba, among people. It is all about how 
can we inspire as much goodness.
    We do also have in Cuba humanitarian assistance to family 
members of prisoners, political prisoners of one description or 
another, from the standpoint of health, food aid, in some cases 
providing learning.
    So it is not a question necessarily that we are doing 
anything nefarious as much as we are doing what we can to 
advance democracy.
    One of the things that I mentioned----
    Mr.  Serrano. General, if you will forgive me. I understand 
that, and that is very commendable.
    My question is, how did you get there? Did they say it is 
okay for you to come in and try to undo our system? I mean, 
there is a part here that has always confused me. How did the 
Cuban Government, who is not friendly to us and we are not 
friendly to them for over 50 years, say this Agency is okay to 
come in, even though at times we will arrest one of them or 
imprison one of them because they are doing what they are not 
supposed to be doing. I am totally confused. I can see it from 
other agencies that do it in a covert situation, but you don't 
operate that way. So maybe it is a question that can't be 
answered.
    Mr.  Lenhardt. Sir, I cannot answer it specifically as much 
as to say our brand is well known throughout the world, and so 
there are many, I am sure--I suspect, I suspect--there are 
places where people wink at the fact that we are there in 
closed spaces doing our work.
    And by the way, on closed spaces, part of what came out of 
the Cuban example is that we developed a new framework, an 
operating framework, so that we know what we are doing, how we 
are doing it, and ensuring that our implementing partners, who 
are valuable members of our team as well, understand the 
working in closed societies and the danger of that, and so that 
they then protect themselves and they then report up to us as 
to what is going on so that we have a sense of is it time for 
us to leave potentially--the potential of that rather--and the 
fact that we are committed to ensuring transparency, as well as 
balancing that with security.
    And so that is the example that came out of the Cuban 
situation. And it is one where, as the Deputy Administrator, 
when I came in Dr. Shah said to me, I want you to get this 
under control and figure out how we then respond. And so we 
review it on a periodic basis, at least quarterly, coming back 
to me to ensure that those countries that are closed to us, we 
know how people are operating within those countries and 
ensuring, again, transparency, as well as balancing it with 
security.
    Ms.  Granger. Thank you.
    Mr. Fortenberry.
    Mr.  Serrano. Thank you.
    Mr.  Fortenberry. Thank you, Madam Chair.
    Mr. Ambassador, nice to see you. I am confused by 
something, and I would like you to clarify it up front. When 
Mrs. Lowey, our ranking member, greeted you, she said so as a 
fellow New Yorker. When I said hello to you, you gave me the 
secret Cornhusker handshake? So what is it, Nebraska or New 
York?
    Mr.  Lenhardt. Thank you, Congressman.
    Mr.  Fortenberry. I will stop.
    Mr.  Lenhardt. I graduated from the University of Nebraska 
that I am very proud of.
    Mr.  Fortenberry. Yes.
    Mr.  Lenhardt. And I lived in Omaha, Nebraska.
    Mr.  Fortenberry. I just needed to get this on the record.
    Mr.  Lenhardt. I am also a New Yorker.
    Mr.  Fortenberry. But you had a wonderful experience in 
Nebraska, and I am glad you did, and so you are always welcome 
back home, so to speak.
    Mr.  Lenhardt. Thank you, sir.
    Mr.  Fortenberry. I enjoyed your initial presentation where 
you talked about your own background as a soldier, having spent 
time as well as a private sector manager. Now you are in a new 
fight, a new type of fight, fighting poverty, fighting for 
values, fighting really for, frankly, international stability 
and the future of civilization.
    In regards to why we do this, why we spend a little bit of 
taxpayer money in this area, it is sometimes a hard question to 
ask, constituents ask it, because seemingly there is such 
little gratitude for what America does around the world.
    I try to answer it like this: That it is very hard for 
Americans to sit idly by while other people just die. That is 
not who we are. Secondly, we benefit from this exchange that 
takes place, both economically, as well as culturally. And 
third is, smart development is actually inextricably 
intertwined with international stability and that creates the 
conditions for our own national security. The military tells 
me, send us in last, do everything you can to promote smart 
diplomacy, smart development, and smart security outcomes.''
    So your work is very important, and I like the enthusiasm 
that you are bringing to it and, frankly, the commitment to 
answering that hard question that the taxpayer deserves--why 
are we doing this?--and to holding the Agency accountable in a 
transparent way to the necessity to be effective and efficient. 
And I assume you are going to carry on the good work of 
Ambassador Shah in trying to develop the metrics that actually 
show that.
    In this regard, I have two questions. One is, to focus on 
the Middle East, there is a dire humanitarian crisis in Iraq 
and through many areas of the Middle East flowing from the 
ruthless persecution of Christians, Yazidis, innocent Muslims, 
as well as other minority faith traditions. Many people are 
crying out for help, help to be able to defend themselves, as 
well as help for the displaced population.
    So it is a heavy lift. This is not fully your job, but it 
is a heavy lift. And I understand that your partners, USAID 
partners have been able to reach some internally displaced 
people, but it is a significant minority.
    Also, the other problem is that it is my understanding the 
people that you tend to be reaching are the ones housed in 
refugee camps, defined areas, versus other refugees flowing 
into other countries that still do need assistance but maybe 
aren't concentrated in one place.
    The second question I have goes to what our Chairwoman 
Granger raised regarding potential new partnerships with our 
own universities in the area of higher education, but also in 
the innovative and smart program of USAID, Feed the Future. 
Suddenly, development aid, as it exists through new innovative 
sustainable agricultural practices, has become cool. And I 
never thought agricultural policy would be cool, having been 
studying it myself years ago. But nonetheless to tap into the 
energy of the next generation and to further consolidate our 
efforts at partnerships with the universities who have 
complementary resources I think would be a good outcome for the 
efficiency goals that you have outlined.
    Mr.  Lenhardt. Thank you, Congressman, for your question. I 
will start by saying that your observation----
    Ms.  Granger. Long days.
    Mr.  Lenhardt. Yes, ma'am. Thank you. Your observation is 
right on target with respect to soldiers having to fight. It is 
a lot more expensive than development. And so that is the 
choice that we first use, development as opposed to sending 
soldiers in.
    The second part of that is religious groups. In all of our 
work, in all of our humanitarian assistance, we don't target 
necessarily groups as much as we look at people in need. And 
within that group the people in need, both in Syria, as well as 
Iraq and other places, there are religious minorities. There 
are people who are receiving the benefit of our food aid, 
water, and health, as well as other services that we provide. 
And so that is happening. And so we are not targeting groups as 
much as we are opening the door for as many people.
    In the case of Syria, for instance, I would just say that 
all of the work we are doing, certainly there is a huge 
minority there in the Shi'as to begin with, but also Christians 
within that Syrian community as well.
    There are a couple of categories. There are refugees, but 
there are also internally displaced persons. And in Syria, that 
is almost 8 million people, and up to 4 million who are outside 
in Lebanon, Turkey, or for that matter Jordan.
    So those things are happening in a way that I feel 
comfortable in saying that, in a constrained environment, 
reduced with resources, that we can't prioritize everything 
that is happening, and we are servicing those various 
communities.
    Ms.  Granger. Thank you.
    Ms. Lee.
    Ms.  Lee. Thank you very much.
    Good to see you, Mr. Lenhardt, and congratulations once 
again. And I look forward to working with you on so many issues 
that are so important to really the survival of many 
populations of people, children, vulnerable persons, people 
living with HIV and AIDS, mothers. Your work is so important in 
terms of the development of not only underdeveloped countries, 
but just in terms of the development of human beings so that 
they can live decent, healthy lives. So thank you very much.
    A couple of questions that I have quite naturally following 
up on Mr. Serrano's question as it relates to Cuba, and also 
the countries that you mentioned where USAID operates in closed 
societies. I have oftentimes visited countries around the world 
where people are concerned about USAID workers because they are 
not sure what they are doing. They are not sure if they are 
working for the CIA and USAID. And I think this really puts a 
lot of our staff and contractors at risk, i.e., Alan Gross.
    The contract--and we have talked about this--that Alan 
Gross was working on seemed to be perfectly reasonable, 
bringing in telecommunications, communications equipment to 
help set up a communications system where people could 
communicate with each other. Reasonable.
    But I don't believe, because I was very involved in the 
whole case, that Alan knew that this contract that he was 
working under and the work that he was conducting was forbidden 
by law by the host country where he was doing the work, and so 
we know what happened.
    And so I am wondering now, have you had a chance to go back 
and look--and we raised this before, Congresswoman Lowey and 
myself, with Mr. Shah--looked at these contracts to see if 
there are some disclaimers on it that if you are engaged in 
bringing support to civil society, if you are engaged in these 
democracy promotion programs that clearly, one, are against the 
laws of another country, do workers and contractors know that 
and that they could be subject to arrest? I mean, I think that 
we have an obligation to let our people know that they could be 
arrested by doing this work.
    And then, third, let me just ask you, as it relates to the 
countries where USAID is operating, how do we know what 
countries you are operating in doing this democracy work? Is it 
clear? Is it public? Are you transparent about that? I mean, I 
didn't know about the work, I heard about the work in Cuba, but 
I never could put my hands on it until it was exposed. So how 
do we know where you are doing this work?
    Mr.  Lenhardt. Thank you, Congresswoman, for your question. 
To begin with, yes, in fact we are very cognizant of the work 
that we do and we operate in very dangerous environments, as I 
spoke of earlier, our implementing partners as well. And so, as 
I mentioned that framework earlier in terms of the Cuba 
question in response to Cuba, this framework gives a very 
specific approach to operating in closed societies or, for that 
matter, conflict areas, in terms of how do you protect 
yourself, what should you be considering, and how do we 
continually assess whether or not the situation may become 
untenable to the point where we have to curtail our activities.
    But the thing that we have learned is that local 
implementing partners know basically what is going on in the 
area so they can respond.
    Ms.  Lee. But that is after the fact, Mr. Lenhardt. I am 
talking about up front.
    Mr.  Lenhardt. Yes.
    Ms.  Lee. How do people who willingly do this kind of work 
know up front that they could be either perceived as a CIA 
operative or they are working against the laws of the country, 
I won't even call it the host country, but the country that 
they are in, that could be perceived as----
    Mr.  Lenhardt. Ma'am, if I may, we are very transparent in 
our activities and there's nothing nefarious. There is no cloak 
and dagger. There is nothing that would suggest that our brand, 
which is a very recognized, very respected brand around the 
world, is going to be put in jeopardy to the point where we are 
doing something that could come back to either embarrass us or 
to create a major problem.
    Ms.  Lee. But it has in the past. And I am just wondering 
how we can get the information, this committee, this 
subcommittee, on where we are operating in this manner and what 
we are doing.
    Mr.  Lenhardt. Ma'am, I can say sitting here that we are 
not operating in a manner that tracks with the CIA or, for that 
matter, any other intelligence organization. I say that with 
great confidence.
    Ms.  Lee. Okay. But just operating then in closed 
societies, doing the democracy promotion programs, is there a 
public list that we could have so we can kind of look at where 
USAID is doing the type of work that it is doing now in Cuba?
    Mr.  Lenhardt. Ma'am, we can provide that to you. The 
answer is, yes, we can provide that to you.
    Ms.  Lee. Okay.
    Mr.  Lenhardt. And gladly.
    Ms.  Lee. Thank you very much.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Ms.  Granger. Mr. Dent.
    Mr.  Dent. Thank you.
    And thank you, Ambassador. I am going to follow up a little 
bit on what Mr. Crenshaw had been talking about a few moments 
ago, and I want to give you a little bit more time to 
elaborate, I think, on your answer.
    One of the frustrations I have heard by those working in 
USAID projects is the inflexibility of funding. When I was in 
Ethiopia a few years ago that was a common refrain I heard: We 
have money in the HIV/AIDS account, but we need to move the 
money to malaria or tuberculosis or some other health issue, 
for example. But the funding flexibility wasn't there, and so 
they couldn't transition that money to malaria prevention, for 
example, even where in a country where AIDS may have been more 
stabilized and under control than had been the case.
    What can we on this committee do to ensure that USAID and 
its partners are able to make the most effective use of these 
appropriated funds? Are there statutory changes that need to be 
made to provide this flexibility to you?
    Mr.  Lenhardt. As I understand the question, sir, whether 
or not we have funds that move from one account to another, 
sir, we have within global health objectives to reduce child 
and maternal deaths, as I mentioned, but also an AIDS-free 
generation and approaching and preventing infectious diseases. 
And so if you are asking the question, is it possible as we see 
the drawdown in one disease to move it to another disease, is 
that----
    Mr.  Dent. Yeah. Within a country, that is a common 
refrain, or they need money for fistula, for example, for 
women's health, they can't move the money. There is money 
available, but it can't be spent on the account in which it is 
in. There is no flexibility with limited dollars out there. I 
would rather be able to give you more flexibility to move money 
where it is needed rather than trying to appropriate additional 
funds that may not be necessary in every case.
    Mr.  Lenhardt. But, again, within the global health 
account, sir, we do have some flexibility to do that based upon 
the need. But, again, it is sometimes about competing 
priorities. And that is the biggest driver, more so than 
anything else, competing priorities. Would it be possible for 
us to be everywhere in the world? We can't do that. We don't 
have the resources.
    Mr.  Dent. And I am not asking you to. But that is the 
complaint I heard in the field from our people out there, that 
there is money available, but we can simply not move it to 
where it could be most beneficially spent.
    And now the second question I had, your predecessor, Raj 
Shah, had been applauded for bringing a business-minded 
approach to the Agency's operations, and by and large the model 
appears to be working pretty well.
    Can you tell us what objective metrics USAID is currently 
using to evaluate the effectiveness of its projects?
    Mr.  Lenhardt. Which projects, sir?
    Mr.  Dent. Just how are you measuring the effectiveness, 
what are the metrics you are using to evaluate the 
effectiveness of the programs under your jurisdiction?
    Ms.  Granger. Before you answer that, could I say they have 
called votes. There are still 308 that haven't voted. We have 
two, Ms. Wasserman Schultz and Diaz-Balart, who haven't had a 
question.
    Mr.  Lenhardt. Okay.
    Ms.  Granger. So we are going to try to do that.
    Mr.  Dent. That is my last question, though.
    Mr.  Lenhardt. Okay.
    Sir, we use a number of methods to evaluate our programs. 
We use a tiered system in some cases based upon independent 
evaluations, but also those who are on the ground, our 
implementing partners. We also have our USAID personnel who are 
on the scene evaluating programs as well.
    And so it is a tiered approach. It is multifaceted. It 
comes across as looking for the golden thread that weaves 
itself throughout to ensure that we are getting maximum benefit 
from our programs. And where it doesn't work, and I will give 
you a couple examples, if I may. In the last couple of years we 
have conducted about 243 evaluations of one description or 
another. Fifty percent of those caused us to rethink, reprogram 
our direction with respect to a particular activity. And in a 
couple of cases, we suspended the program, we stopped the 
program. In the case of Malawi we stopped a program based upon 
it was no longer effective.
    So there is that evaluation that guides some decisions. 
Again, how do we conserve, how do we ensure those limited 
resources, constrained priorities, limited resources and 
constrained budgets are being effective and how they are being 
used? And so we continue to make those assessments.
    I am trying to get a handle on the question as much as 
anything. But I assure you we have those processes underway and 
we evaluate. We have a team that also looks at it from the 
standpoint of whether it make sense on what we are doing, and 
how then do we ensure that the outcomes that we expect are 
being realized. And where they are not, then we make 
adjustments.
    Mr.  Dent. Thank you.
    Ms.  Granger. Thank you.
    Ms. Wasserman Schultz.
    Ms.  Wasserman Schultz. Thank you, Madam Chair. Ambassador, 
welcome. Good to see you.
    Congressman Diaz-Balart and I sponsored the 1,000 Days 
resolution last year to call attention to that window in which 
we have an opportunity to really make a difference when it 
comes to the nutrition and future health of a young child.
    So that made it somewhat disappointing that there was a 12-
percent cut in nutrition funding in the President's budget, and 
I would like to ask you to explain how are we going to continue 
to make sure that we can be a leader and leverage other 
countries in what is really a vital area. Now, I ask that 
question knowing that we have the Multi-Sectoral Nutrition 
Strategy and that we are trying to line up the resources with 
the strategy and the goals. But, you know, in the meantime, 
that strategy is not complete, and we want to make sure that we 
can maintain that leadership role and maintain momentum. So if 
you could answer that.
    I will just ask my second question since I know we have 
votes at the same time. I am concerned, even though we have not 
had any major national disasters that required a global 
emergency response, thankfully, recently, we have humanitarian 
needs that are alarming around the world. We have to make sure 
that we have adequate response capabilities, and the budget 
request has a 13-percent cut to humanitarian funding which 
includes significant decreases in both the migration and 
refugee and international disaster assistance account. So can 
you also talk about how we are going to be able to maintain 
those adequate response capabilities given that proposed cut?
    Mr.  Lenhardt. Thank you. Thank you, Congresswoman. To 
begin with, our fiscal year 2016 request for nutrition, 
recognizing the absolute importance of nutrition for children, 
both from the standpoint of physical wellbeing as well as their 
mental development, we have a number of other integrated 
programs for nutrition. Feed the Future is but one, but also 
specifically within the global health account and global health 
programs, nutrition has been identified separately. But across 
all of those accounts, we are well positioned to provide for 
nutritional value to children as well as to mothers.
    As I mentioned in my opening statement, we are talking 
about recognizing and providing for 15 million children. With 
mothers, it is 600,000 by----
    Ms.  Wasserman Schultz. So, forgive me for interrupting, 
Ambassador, but are you realizing efficiencies in that proposed 
cut? I mean----
    Mr.  Lenhardt. It is a combination of efficiencies, but it 
is also recognizing that many of these efforts, again, in a 
constrained environment, and we are not saying that we are 
leaving children behind or not caring for them as much. We 
can't do everything. And so, in a budget-constrained 
environment and competing priorities, this is where we are. But 
we feel that what we are providing is workable, and it is 
solving a problem that we both know is something that needs to 
be addressed.
    Ms.  Wasserman Schultz. Ambassador, again, you are----
    Mr.  Lenhardt. If you are asking, should we be putting more 
money to it----
    Ms.  Wasserman Schultz. This isn't about whether we put 
more or less money into it. It is about making sure that we can 
maintain our leadership role, and in the interim, until we have 
that multisector plan in place----
    Mr.  Lenhardt. Yes.
    Ms.  Wasserman Schultz [continuing]. That we not roll 
backwards.
    Mr.  Lenhardt. Yes, ma'am.
    Ms.  Wasserman Schultz. And so I understand that we can't 
be everything to everyone. That is not what I am suggesting. I 
want to make sure that with a proposed 13-percent cut, we are 
able to maintain that leadership and not go backwards----
    Mr.  Lenhardt. Yes.
    Ms.  Wasserman Schultz [continuing]. In terms of the 
ability for us to provide assistance for children that badly 
need it.
    Mr.  Lenhardt. Thank you, ma'am. I understand. But, again, 
we have nutrition integrated in other programs as well that is 
not part of that one identified area within global health. So 
that is happening. I will continue to look at that and make 
sure that we are being responsive as much as possible, but I am 
seeing the evidence of that. I saw it as the Ambassador to 
Tanzania, where the difference between a child who has been 
provided nutritional-valued foods and one who is not, is 
significant.
    The second part of that had to do with Ebola. Did I not 
answer----
    Ms.  Wasserman Schultz. No, you didn't.
    Ms.  Granger. Could we go to Mr. Diaz-Balart, and then come 
back if we still have time to your second question?
    Ms.  Wasserman Schultz. Sure. I think we have to vote, so I 
don't know that we are going to be able to.
    Ms.  Granger. I think we only have----
    Mr.  Diaz-Balart. And I will be very brief, Madam 
Chairwoman.
    And, again, thank you for your service to our country. You 
have been serving our country for many, many years. A couple of 
points, and it sounded like you are very committed to the 
democracy programs. Is that correct?
    Mr.  Lenhardt. Yes.
    Mr.  Diaz-Balart. All right. And, obviously, democracy 
programs seem to be--are in closed societies. They are not in 
Liechtenstein, right, so they tend to be potentially dangerous, 
and you have spoken about that.
    With that in mind, I just want to bring you back to 
Venezuela. I don't have to tell you about the situation in 
Venezuela. The administration has been kind of taken aside. The 
Secretary of State said that he was compounded by the situation 
in Venezuela, and yet the House has consistently put--last year 
$8 million for democracy programs in Venezuela. The request 
from the administration is $5.5 million. Any chance that there 
will be an amendment to that request of $5.5 million since the 
administration is now realizing that we seem to have a serious 
issue with Venezuela and the lack of democracy therein?
    Mr.  Lenhardt. And, sir, I cannot answer the specific 
question. It is something that--in terms of a dollar amount--
but, again, it is about human rights. It is about independent 
media, and it is providing for, in the case of Venezuela, 
transparent electoral processes. But, with respect to a dollar 
amount, I cannot answer that from the administration's point of 
view.
    But, again, we operate in those places because there is a 
need, because that is who we are as Americans in outreach to 
countries and the world, trying to, as much as possible, 
encourage democratic institutions.
    Mr.  Diaz-Balart. Well, I am glad to hear that, I mean, 
about your commitment to that. This committee has always been 
committed to that. I think you are going to see--that emphasis, 
not only in Venezuela, but in Cuba and elsewhere, and look 
forward to working with you on that.
    And I know I am out of time.
    Mr.  Lenhardt. Thank you, sir.
    Ms.  Granger. Thank you, Ambassador Lenhardt. Thank you 
again for your time.
    This concludes today's hearing. And Members may submit any 
additional questions for the record.
    The Subcommittee on State, Foreign Operations, and Related 
Programs stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, March 18, 2015.

             DEPARTMENT OF TREASURY INTERNATIONAL PROGRAMS

                                WITNESS

HON. JACK LEW, SECRETARY, DEPARTMENT OF TREASURY

                Opening Statement by Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    I would like to welcome Secretary Lew before the 
subcommittee to discuss the fiscal year 2016 budget request for 
the Treasury Department's International Affairs Programs.
    The funding under review today supports contributions to 
international financial institutions, such as the International 
Monetary Fund and the World Bank, global climate change 
programs, debt relief, and technical assistance programs.
    The budget request totals $3.1 billion, a 28 percent 
increase above fiscal year 2015. This funding level reflects 
the Congressional Budget Office's higher scoring of the IMF 
proposal than that of the administration.
    This is the third year that the administration has 
requested authority and funding for the IMF. In the past, there 
has not been sufficient congressional support for the IMF 
proposal. And, frankly, I don't expect much to change this 
year.
    Turning to the World Bank and the regional development 
banks, I have continued to express concerns about multiyear 
funding commitments made to these institutions. The 
administration argues that these organizations give us more 
``bang for the buck'', but I question whether these 
multilateral institutions are being held to the same standards 
as our bilateral programs.
    The banks' lack of transparency in allocating funds and 
decision-making hurts their support in Congress. Increasingly, 
it seems the United States is one of the only voices demanding 
responsiveness and accountability.
    I would like to hear from you today about the efforts these 
institutions are making to publicly track funding and provide 
independent evaluations of program effectiveness.
    Last year the administration made a multi-billion-dollar 
pledge to the new Green Climate Fund. When you commit the 
United States to controversial programs that are unlikely to be 
fully funded by the Congress, the administration puts the 
credibility of the United States on the line. Mr. Secretary, I 
hope you can discuss this more with the subcommittee today.
    Finally, while the Treasury Department's role in U.S. 
policy toward Cuba lies more in the jurisdiction of the 
Financial Services Subcommittee, this subcommittee is also 
closely following the administration's move to normalize 
relations with Cuba, and I have deep concerns.
    Secretary Lew, thank you for being here today. We have many 
important topics to discuss.
    I will now turn to my ranking member, Mrs. Lowey, for her 
opening statement.

                    Opening Statement by Mrs. Lowey

    Mrs. Lowey. Thank you very much.
    I join Chairwoman Granger in welcoming our distinguished 
person here today. Thank you so much for your service to our 
country.
    I appreciate you coming before us today to present the 
administration's budget request for the coming fiscal year. As 
a former director of the Office of Management and Budget, you 
are keenly aware of the factors that go into the preparation of 
an annual budget proposal. It really is a statement of values.
    The administration's fiscal year 2016 proposal calls for 
investments in research, education, training, and 
infrastructure. Instead of relying on the outdated and 
unrealistic budget caps under sequestration, the President 
calls for them to be replaced with more targeted spending cuts, 
program integrity measures, and the closure of some outdated 
tax loopholes. The budget rightly calls for an end to the 
mindless austerity of sequestration.
    My colleagues may not agree with the administration's 
specific proposals, but I hope they can agree on the premise 
that a path forward must be found. We did it before with the 
Murray-Ryan plan, and we are going to have to do it again.
    There is simply no way an appropriations process can 
succeed unless we put in place reasonable allocations that give 
these bills a chance of being enacted. Without such an 
agreement, discretionary funding would be at its lowest level 
as a percentage of GDP since the Eisenhower administration.
    The President's 2016 budget request reflects the importance 
of our continued multilateral cooperation with international 
financial institutions, such as the IMF and the World Bank. It 
continues important efforts to address root causes of 
instability, poverty, poor health, lack of education, as well 
as continues to promote global economic growth.
    Additionally, the President's budget continues to promote 
our own economic and national security interests while also 
making important investments in multilateral institutions, 
recognizing these are a cost-effective way to leverage taxpayer 
dollars.
    To that point, I remain perplexed by some of my colleagues 
who continue to oppose quota reform for the IMF while 
simultaneously warning of the risk if the European financial 
crisis deepens or if a fresh regional economic crisis were to 
emerge surrounding Ukraine.
    The IMF is an excellent tool to help stabilize struggling 
economies. It provides much needed protection of our own 
financial institutions in the event of a foreign financial 
emergency. Unless we support the IMF, I fear the potential 
effects on our economy would be far worse. I believe we need to 
maintain our leadership within the IMF, expand its lending 
capacity, and support the quota reforms.
    While there are a myriad of issues we can discuss today, 
one I hope receives priority is global climate change. As we 
are all now beginning to better understand climate change, it 
is not just an environmental concern.
    These important programs help reduce the instability caused 
by population displacement, address declines in global food 
supply, mitigate major shortages of water. A failure to provide 
for these priorities risks creating conditions for greater 
danger, failed states, and populations even more vulnerable to 
radicalization.
    I look forward to hearing about the administration's 
efforts in the coming fiscal year as well as hearing an update 
on the effectiveness of prior funding.
    Mr. Secretary, we have discussed before the fine work your 
Department has done in disrupting terrorist financing networks 
and enforcing sanctions against countries such as Russia, Iran, 
and North Korea. I continue to be impressed by the work of the 
Treasury Department and want to commend, in particular, the 
sustained implementation of these efforts as the backbone of 
our Iran policy.
    I hope to hear what additional economic actions and 
sanctions the administration will seek if negotiations with 
Iran fail to yield an agreement permanently denying Iran 
nuclear weapons capability. Equally, your leadership is crucial 
in implementing two key prongs of the administration's response 
to the Ukraine crisis: economic support for Ukraine and 
sanctions against Russia.
    With respect to Russia, I look forward to hearing more 
about what role our European partners will play in addressing 
the current situation. I would like to hear directly whether we 
should expect additional retaliatory countermeasures from 
Russia and, if so, what form those may take.
    Lastly, I hope you will address recent concerns that have 
been raised about some donors providing loans instead of grants 
as contributions to multilateral institutions. The committee 
needs to understand what the implication of this trend is for 
the United States contributions to these organizations.
    Thank you for being with us today. Our country, once again, 
is privileged to have your experience and thoughtful 
leadership.
    Thank you, Madam Chair.
    Ms. Granger. Thank you, Mrs. Lowey.
    I will now yield to Chairman Rogers for his opening 
statement.

                  Opening Statement by Chairman Rogers

    Mr. Rogers. Chairwoman Granger and Ranking Member Lowey, 
thank you for holding this important hearing.
    Mr. Secretary, good to see you. Thank you for coming in 
support of your 2016 budget request for international affairs.
    Unquestionably, the international programs that fall under 
your purview at Treasury have an important role to play in 
fostering U.S. leadership around the globe. Given the 
tumultuous times in which we find ourselves, this leadership is 
perhaps more important than ever before.
    When Secretary Kerry testified before this committee 3 
weeks ago, we heard from him about the global coalition joined 
in the fight against ISIL, the threats posed to our allies in 
the Middle East by a nuclear Iran, Russia's bold moves to 
assert herself in the region, and how the U.S. can help address 
the spread of disease and epidemics around the world. These are 
just a few examples.
    I say this to make the point that our contributions to 
international financial institutions must be targeted to ensure 
that we are promoting what Secretary Kerry called ``the best 
enhancement of our values and our interests.''
    With due respect, Mr. Secretary, I am not sure we see eye 
to eye on some of these investments, to put it mildly. I would 
like to focus my comments today on your budget proposals, 
particularly the International Monetary Fund and the Green 
Climate Fund and the proliferation of policies affecting the 
U.S. coal industry and power generation for the developing 
world.
    Taking CBO's scoring of the IMF proposal into 
consideration, Treasury's international programs request totals 
$3.1 billion. That is a whopping 28 percent increase over 
current levels. You know and I know that the committee will not 
be able to find that level of funding and stay within our 
discretionary allocation.
    As the chairwoman noted, the administration has once again 
made an IMF proposal that has not had sufficient support in 
previous Congresses, and the new Green Climate Fund proposal is 
particularly questionable.
    Next, Mr. Secretary, I have serious concerns about the 
administration's position on coal-fired power generation in 
developing countries. The President's politically driven anti-
coal environmental policies have wreaked havoc domestically, 
sending tens of thousands of hardworking Americans to the 
unemployment lines and casting into question our country's 
long-term energy security.
    Coal exports are the one bright spot for the thousands of 
mining families who are facing disastrous economic conditions 
in my district and elsewhere. And, yet, administration 
officials are not only interested in precluding U.S. investment 
in foreign coal-fired generation, but the U.S. is actively 
encouraging our international partners, such as members of the 
Organization for Economic Cooperation and Development, to 
impose near-impossible conditions on the public financing of 
coal plants in the developing world. The results of these 
policies are troubling.
    First, I believe what we will see is significant Chinese 
investment in Sub-Saharan Africa. With China's terrible 
environmental record, the projects they will fund will be 
dirtier than if American companies were involved. At the end of 
the day, these policies are anti-American jobs and they will 
not have the intended environmental benefits either.
    Second, the international community will not make 
investments in efficient coal plants in places like Pakistan or 
Ukraine. Given our national security interests in those 
countries, the U.S. should be encouraging affordable and 
reliable electricity that can bolster economic growth and job 
creation there, in turn, reducing instability. I hope you can 
explain how these policies are in the long-term interest of our 
country and our allies and partners.
    Mr. Secretary, we thank you for being here today. This 
committee takes seriously our role in overseeing the budget and 
the policies of the Treasury Department. And we appreciate your 
continued engagement with us.
    Thank you, Madam Chair.
    Ms. Granger. Secretary Lew, please proceed with your 
opening remarks. I would encourage you to summarize your 
remarks so we leave enough time for questions and answers. Your 
full written statement will be placed in the record.

                   Opening Statement by Secretary Lew

    Secretary Lew. Thank you, Chairwoman Granger, Ranking 
Member Lowey, Chairman Rogers, and members of the committee. I 
appreciate the opportunity to testify today on our proposed 
budget for our international programs.
    As we meet here today, the U.S. economy continues to make 
considerable progress. By almost every metric, America has come 
a long way since the depths of the worst recession since the 
Great Depression. Last year we saw the best year of job growth 
since the 1990s.
    Over the past 5 years, America's businesses have created 12 
million new jobs, the longest stretch of sustained private-
sector job growth in our Nation's history. At the same time, 
our economy continues expanding and forecasts project above-
trend growth for this year.
    American exports set another record last year for goods and 
services sold overseas, and our fiscal deficit, which has 
fallen by almost three-quarters, is forecast to decline even 
further in the next fiscal year. These achievements underscore 
America's enduring economic strength, and we can build on this 
progress with the right policies and bipartisan cooperation.
    The President's Budget puts forward sensible solutions to 
keep our progress going, including replacing sequestration by 
cutting spending and closing tax loopholes. This commonsense 
plan would continue to rein in the deficit and put the debt on 
a downward path as a share of the economy.
    If Congress does not act, defense and nondefense funding 
will fall when adjusted for inflation to their lowest levels in 
a decade. This would damage our national security, and it will 
keep us from making the investments that we need in key 
priorities to grow our economy.
    But we do not need to follow this course. With the right 
policies, we can fuel economic growth, job creation, and 
opportunity while strengthening our national security, driving 
long-term prosperity.
    The international financial institutions, which include the 
International Monetary Fund and the multilateral development 
banks (MDBs), are a critical part of this effort. Our 
investments in these institutions are some of the most cost-
effective ways to reinforce economic growth at home and to 
respond to critical challenges abroad.
    To that end, it is essential that Congress pass the IMF 
quota reforms. These reforms will put the IMF's finances on a 
more stable footing over the long term, help modernize IMF 
governance structure, and preserve America's strong influence 
within the IMF and, more broadly, as a leader of the 
international financial institutions.
    As the international community waits for Congress to 
approve these reforms that we helped to design, emerging and 
developed economies alike are looking to other alternatives as 
a means of driving the global system forward.
    Our continued failure to approve the IMF reforms is causing 
other countries, including some of our allies, to question our 
commitment to the multilateral institutions that we helped 
create. Until these reforms are in place, the United States 
runs the risk of seeing its preeminent role in these 
institutions eroded, especially as others are establishing new 
and parallel institutions.
    The fact is the IMF reforms will help convince emerging 
economies to remain anchored in the multilateral system that 
the United States helped design and continues to lead. These 
reforms are a win-win for the United States. They retain our 
veto power and they do not increase our financial commitment. 
That is why we are determined to continue to work with Congress 
to get these reforms passed as soon as possible.
    As a clear example of the IMF's role in promoting American 
security and economic interests, the IMF is providing Ukraine 
with critical financial and technical support. The IMF is a 
cornerstone of a broad international effort to support Ukraine 
amid extraordinary circumstances, and it recently approved an 
augmented longer term program that will allow Ukraine to pursue 
a sustained set of economic reforms.
    Similarly, our investments in the World Bank and the 
regional development banks are key to advancing America's 
economic and strategic interests. My full statement that I 
submitted for the record lays out in detail how the MDBs help 
grow export markets, increase opportunities for American 
businesses, create jobs in the United States, and protect our 
national security.
    I would like to highlight quickly a few of the areas where 
these institutions have recently advanced our priorities.
    In Ukraine, the MDBs have stepped in to address the crisis 
and stabilize the country, increasing their commitments to 
nearly $5 billion.
    In Central America, they are working to spur stronger 
economic growth, which will help address the root causes of the 
flow of migrant children to our border.
    In Africa, they have taken a significant number of steps to 
fight the spread of Ebola and strengthen health systems.
    To be sure, the MDBs are essential to global stability. 
Whether it is fostering inclusive economic growth, promoting 
food security or increasing natural disaster preparedness, they 
are making a difference. It is no surprise that, throughout our 
Nation's history, both Democratic and Republicans Presidents 
have made it a priority to invest in these institutions.
    As you can see from our budget request, we are using what 
we have learned from the MDBs and specialized funds to launch a 
well-designed and cost-effective Green Climate Fund. This fund 
will enable the poorest countries to build resilience and will 
help cut carbon pollution globally, advancing some of our vital 
security and development objectives.
    In closing, let me say that the world is looking to the 
United States for leadership and it is essential as ever for 
the United States to demonstrate that leadership across all of 
the international financial institutions.
    This will, of course, require bipartisan cooperation. I 
look forward to working with all of you in this committee to 
make that happen. Thank you, and I look forward to answering 
your questions.
    Ms. Granger. Thank you very much.
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Ms. Granger. In May of last year, Ukraine issued 1 billion 
dollars of new debt on the international capital markets, 
backed by the United States. It is my understanding that the 
proceeds are providing support for ongoing reforms and 
development in Ukraine.
    The President's request for fiscal year 2015 includes 
another $1-billion loan guarantee, but the funding request for 
$275 million to subsidize that loan guarantee is not consistent 
with OMB's most recent analysis of the appropriated funds 
required.
    Could you explain the funding needed and requested for a 
loan guarantee in fiscal year 2016.
    Secretary Lew. Madam Chairwoman, let me start with the 
policy and then come to the scoring. We have played an 
essential role in putting together a global response to the 
economic crisis in Ukraine.
    There is no question that Ukraine has a lot of economic 
challenges apart from the security situation. They need to have 
enormous reforms. They now finally have a government that is 
taking those reforms seriously, and our support and the support 
through the IMF is part of what enables them to do that.
    I think it is essential that Ukraine have the economic 
runway so that it can have the time to put those reforms in 
place. Frankly, while the security situation has to be settled 
down, if the economic situation isn't resolved, that will 
become something that is just an existential threat as well. So 
it is critical to Ukraine to get its economic house in order.
    We provided a billion dollars of loan guarantees last year 
as a part of a global effort, including the IMF support I 
described, including bilateral contributions from other 
countries and from the European group, and it is being used to 
support the economic reforms.
    We specifically designed our support last year so that as 
they reform their energy pricing system, there will be the 
ability to insulate the lowest income households, for example, 
from some of the burden. Because if they did not have the 
ability to make the impact on the most vulnerable of economic 
reforms manageable, the ability to carry out the reforms would 
have been jeopardized.
    The cost of the loan guarantees does not get frozen for all 
time. It is a reflection of what is going on at the time the 
scoring is done. So, as I think you know, the risk in Ukraine 
has been rising because of the geopolitical situation.
    As we have moved through from the first loan guarantee to 
the latest request, the cost of scoring has changed and gotten 
more costly because it is higher risk. We adjusted to that in 
realtime last year.
    We would look forward to working with you to continue to 
adjust to it, but we have always used the current scoring at 
the time we have made our proposal as the basis for estimating 
the cost.
    Ms. Granger. I understand what you just said. I also have 
another concern, and that is when will the additional loan 
guarantee we authorized in December be obligated.
    It has been 3 months now, I just returned from Ukraine, and 
time is of the essence. Can you explain when it will happen.
    Secretary Lew. I was in Ukraine myself a few weeks ago and 
at the time, signed an initial memorandum of understanding that 
launched the process of getting the details worked out.
    I met just the other day here in Washington with the 
finance minister of Ukraine, who is a real reformer and 
moving----
    Ms. Granger. I met with her yesterday.
    Secretary Lew. Yes, she is driving the reform agenda very 
hard. We agreed that our teams would continue to work as 
quickly as possible to finalize the terms.
    Obviously our loan guarantees, as is the support of the 
IMF, has been conditional on the Government of Ukraine taking 
certain actions. I am pleased to say that last week the 
Government of Ukraine enacted the critical reforms that were 
necessary for the IMF to approve their package, which also 
frees us to move forward.
    I am hopeful that we will be able to work very quickly with 
them and put in place a financing. I agree with you, time is of 
the essence.
    In addition to the USAID, we work very closely with the IMF 
to try and make sure that the structure of the IMF package 
provided enough up-front support to provide Ukraine the ability 
to get through this very difficult period.
    Ms. Granger. Good. I think everything we can do to help 
them will certainly be appropriate.
    Mrs. Lowey.
    Mrs. Lowey. Thank you, Madam Chair.
    While the Supreme Leader of Iran has said--and I quote--``I 
will go along with any agreement that could be made, of course, 
if it is not a bad deal,'' we have every reason to question 
Iran's real intentions, given their track record. This is, of 
course, the same Supreme Leader who repeatedly refers to Israel 
as the ``barbaric'' Jewish state that ``has no cure but to be 
annihilated.''
    I am very concerned by reports of various European 
commercial delegations traveling to Tehran in eager 
anticipation of sanction relief in the prospect of doing 
business with Iran.
    Have we weakened the resolve of the world community by 
providing sanctions relief in the interim deal?
    Secondly, the administration has pledged to continue to 
strictly enforce existing sanctions in Iran, other than those 
relaxed under the interim deal. Yet, I understand that Iran's 
oil exports are being offered from UAE trading firms acting as 
middlemen.
    What is the current status of overall Iranian oil exports? 
Are we talking to China and India, both of whom are reportedly 
increasing their imports from Iran this year? If these trends 
continue, is the administration going to sanction these 
countries? Specifically, what are the exports to China, India, 
and Turkey? And will you be making available publicly the 
Department's country-by-country estimates on Iranian oil 
imports?
    Thank you.
    Secretary Lew. Congresswoman Lowey, let me start with the 
first part of your question on the Joint Plan of Action and its 
aftermath.
    I think we all remember that, before the Joint Plan of 
Action went into effect, there were a lot of critics saying 
that it was going to provide massive relief from the sanctions.
    We said that was wrong. We said, at the time, that it was 
very enumerated relief. We could say very much to the dollar 
how much relief it would be, and that is the relief that Iran 
has gotten.
    It is single-digit billions of dollars of relief at a time 
when there is tens of billions of dollars of additional burden 
being placed on Iran because of the existing sanctions that 
were not part of the Joint Plan of Action.
    So over this period of time of the Joint Plan of Action, 
the actual pressure on Iran has gone up, not down. I think that 
is a very important point because we kept the oil and the 
financial sanctions in place and we essentially provided Iran 
limited access to enumerated amounts of its own money--not our 
money--and, in exchange, we got for the first time in over a 
decade a commitment for Iran to not just slow down, but 
actually take a step back on its nuclear program. We also put 
in place an inspection regime where we can actually see what 
they are doing.
    So I think what we have seen over the year, year and a 
half, almost, that the Joint Plan of Action has been in effect, 
we have had the first period of time in recent history where we 
have actually arrested the development of Iran's nuclear 
program and seen it deteriorate.
    I have read a lot and seen a lot of accounts of businesses 
going to see whether there is a future to do business in Iran. 
The message we have delivered very clearly around the world is, 
``Iran is not open for business, and anyone who does business 
with Iran--until and unless there is an agreement which 
prevents Iran from having nuclear weapons which leads us to 
lift the financial and the oil sanctions--doing business with 
Iran is at your own risk because we are enforcing the 
sanctions, and we will continue to enforce the sanctions.''
    There have been reports--oil exports country by country 
fluctuate on a month-to-month basis. I would be happy to get 
back to you with a more detailed response.
    We have been working very closely with all of the countries 
that have been cooperating with the--and part of the sanctions 
on Iran. While there have been numerous times when I have heard 
the burden it is putting on other countries, I have also heard 
that they understand clearly that they know that we will 
enforce our sanctions and they do not want to get caught in 
sanctions enforcement.
    I do not think that, if you look at the condition of Iran's 
economy today versus before the Joint Plan of Action, they have 
seen any big dramatic turnaround. They have seen a slight 
slowing of the rate of inflation and slide of the economy, but 
they are in a deep hole that they will not get out of unless 
they reach an agreement that we find acceptable to assure us 
that they will not have nuclear weapons.
    We are not there. The negotiators are still working, as the 
President has said many times. At best, it is 50/50. We would 
be in a safer world if we have an agreement that is, clear, 
that will prevent Iran from having nuclear weapons. But until 
we are there, our sanctions regime stays in place.
    As the President has said on many occasions and as I have 
said on many occasions, no options will be taken off the table 
if it fails. We will continue to implement sanctions, we will 
come back, if need be, with tougher sanctions, and no options 
have been taken off the table.
    Mrs. Lowey. I will let it go at this point. Thank you very 
much.
    Ms. Granger. Chairman Rogers.
    Mr. Rogers. Mr. Secretary, as I said in my opening 
statement, the administration has not been shy about its utter 
disdain for an energy source that has kept the lights on in 
U.S. homes since the 1740s.
    The EPA's regulations, which are constitutionally dubious, 
have brought coal mining to a screeching halt and coal-fired 
power plants to their knees.
    Aside from the devastating effect to the mining families 
who rely on this industry for their livelihoods, we are going 
to see electric prices skyrocket for families and businesses in 
this country, and now the administration wants the same fate 
for families and businesses in the developing world.
    In 2013, your Department issued new guidance to vote 
against World Bank financing for coal-fired power plants unless 
the project employs carbon capture or sequestration technology. 
And later the Export-Import Bank announced similar new rules to 
deny financing for coal-fired power plants. In essence, you 
have said we can't mine coal, we can't burn coal, and now we 
are going to eliminate the international markets to export 
coal.
    As you know, carbon capture and sequestration technology, 
while promising, is not yet a reality, with commercial 
deployment not even expected in the U.S. for several years, to 
say nothing of poor countries in the developing world, at the 
same time as the administration is setting stringent 
regulations for greenhouse gas emissions domestically and 
abroad. The Energy Department is consistently slashing the 
fossil energy research and development budget to make this 
technology a reality.
    How do you reconcile that dichotomy, imposing that CCS 
structure on developing countries, but refusing to support the 
research necessary to get that technology off the ground?
    Secretary Lew. Mr. Chairman, I know that we have different 
views on coal policy. But I think you have to look at how our 
coal policy fits in domestically and internationally.
    We are very much of the view that we in the United States 
have to develop our energy resources. I think we have shown, 
over the course of the last 6 years, great success in 
developing our energy resources.
    Internationally, our view has been that getting power into 
the poorest countries is critically important, and we have 
promoted a range of alternative fuels, both in terms of the 
less-polluting traditional fuels and renewable energy sources 
including hydroelectric power.
    I think the policy we have had on coal distinguishes 
between the poorest of countries. In the poorest of countries, 
we have the exception that, if it is the only available power 
source, it is not treated the same as in other countries.
    I do not think there is any way to distinguish between the 
environmental impact of carbon emissions in one part of the 
world from another. Our planet is one system, and it is not 
that we are trying to apply rules internationally that are 
exactly the same as the rules here. We would not have the 
exception for the poorest countries, if we did.
    On the other hand, we know that as those countries adapt to 
meet the needs of their growing populations and their growing 
economies, they are going to need to develop sources that do 
not add, in a dangerous way, to the accumulation of carbon 
emissions. That is what our policies are designed to 
accomplish.
    Mr. Rogers. World energy demand continues to rise with 90 
percent of increased energy demand driven by the needs of 
developing countries. China and India alone will account for 
over 50 percent of the total increase between now and 2030, and 
these countries together account for 9 percent and 5 percent of 
U.S. coal exports, respectively.
    How do you expect to meet that demand if coal is not a part 
of the equation as a low-cost option?
    Secretary Lew. I think China and India are very important 
countries to work with. The President has worked with China. We 
have reached an agreement with President Xi on reaching goals 
that will help advance the reduction of carbon emissions. We 
continue to promote similar discussions in India, and they have 
committed to substantial commitment in other energy resources.
    But I think the fundamental point is that the growth in 
consumption, growth in population, and growth in the economies 
in the emerging markets, is going to be a big part of where the 
additional power generation of the future comes.
    They are going to need to adapt, and we, as a global 
community, as a world community, are going to need to help find 
alternatives that are sustainable, which is why we are working 
so hard with them like the Power Africa initiative is part of 
that. But the development of renewable energy sources in 
countries like China has been such a high priority.
    Mr. Rogers. I think this could be a self-defeating policy 
as developing countries will simply turn to other countries 
with lower environmental standards to finance the plants that 
they are going to have to build.
    Do you think China or India will step up to the plate to 
finance these projects in Southeast Asia and Africa? Is that 
the administration's stated preference?
    Secretary Lew. Our preference, obviously, is that we 
promote the view that it should be a position taken by the 
international community, which is why we have taken the 
positions that we have in the international financial 
institutions.
    I cannot disagree that there will be other sources of 
funding available for some continued projects, but our goal is 
to shift the focus of future development into areas that 
address the problems that we face globally in terms of carbon 
emissions. The solution is not for us to just proceed in a 
business-as-usual way.
    As I mentioned earlier, we do have the exception for the 
poorest of countries, recognizing that there are some countries 
that have no alternative and there they should use the cleanest 
technologies available.
    Mr. Rogers. Mr. Secretary, I don't think you and I are 
going to agree on much on this topic.
    Secretary Lew. I did not think so.
    Mr. Rogers. But I thank you for your testimony.
    Thank you.
    Ms. Granger. Mr. Serrano.
    Mr. Serrano. Thank you.
    Secretary, you seem to show up at all the committees I 
belong to, and that is a good thing.
    Let me ask you a question. Last week the United Kingdom 
decided to join the Chinese-led Asian Infrastructure Investment 
Bank. Yesterday France, Germany, and Italy agreed to join the 
bank as well.
    What are your views on this bank? Do you think that China 
is seeking to enhance its power in the Asia-Pacific region at a 
time when our Nation is trying to strengthen its military and 
economic presence in the same region?
    Secretary Lew. Congressman, let me start with what the goal 
of the bank is, to fund infrastructure in Asia. It is an 
important objective. It is one that we share. There is a huge 
need for infrastructure in many parts of the world, in Asia, in 
Africa, even here in the United States. So we do not disagree 
on the objective of having a mechanism to fund infrastructure.
    The concerns I have raised over the Asia Infrastructure 
Bank are that it is not yet clear what the governance structure 
of that institution will be and a concern that it not compete 
with the high-standard institutions that have been developed 
over the last 70 years, which promote very important standards 
in terms of labor protection, environmental protection, 
anticorruption efforts, and debt sustainability.
    The point that we have made, both directly in our 
conversations with China and in conversations with other 
countries that were considering their participation, is that 
those issues really need to be resolved and addressed as 
countries make the decision whether or not to participate. We 
will continue to engage with countries around the world to make 
sure that, both in bilateral and multilateral efforts, these 
kinds of standards are an important part of the institution.
    I would say that the conversation that we had earlier about 
the IMF, some of the back-and-forth, the importance of the 
Congress ratifying the IMF reforms is very significant. There 
is a lot of concern in developed and developing countries that 
the failure to ratify the IMF reforms in the United States, the 
last country to act, reflects our stepping away from those 
institutions and stepping away from the leadership role that we 
have traditionally played.
    That is a very dangerous thing strategically and I think it 
is a mistake. The reforms are well structured to preserve the 
U.S. position in the IMF, and I think the congressional action 
to approve the IMF reforms would very much increase the 
leverage we have to have these kinds of conversations with 
other countries.
    Mr. Serrano. It is interesting because you answered my 
second question at the same time.
    So my third question would be: Do you feel there is a tie-
in between, for instance, approving the reforms and your 
ability or our government's ability to talk to the first 
question about that Infrastructure Bank and other issues?
    Secretary Lew. I must say I spend an inordinate amount of 
my time, when I meet bilaterally and in multilateral settings, 
defending our commitment to these organizations and making 
clear that we are still committed to getting the reforms 
approved.
    Whenever you have to spend your time defending against 
suspicions like that, it just reduces your ability to do other 
business and it makes countries start thinking about do they 
need to develop other alternatives. I do not think that is a 
good thing for the United States, and I do not think it is a 
good thing for the world.
    That is why I am committed to getting IMF reform done and I 
remain hopeful that we will be able to do it because it is just 
critical to our national security.
    Mr. Serrano. Well, thank you.
    And I yield back.
    Ms. Granger. Thank you.
    Mr. Serrano. He answered both questions in one.
    Ms. Granger. That was good.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you.
    And thank you for being here, for your service.
    We talk a lot about sanctions in the broad sense. And I 
just wondered--for instance, some people would say the 
sanctions we put on Iran brought them to the table. Some people 
say that, when we ease the sanctions, they are less apt to 
deal. But I want to talk in a broader sense about sanctions, in 
general.
    How do you decide what kind of sanctions you are going to 
put in place?
    And, for instance, you mentioned you could almost measure 
to the dollar, in general, about what a sanction might do one 
way or the other.
    I am just curious to know some real-world examples of big 
sanctions, little sanctions, that we would understand exactly 
how you go about deciding.
    And how do you decide whether they are effective? And how 
do you decide whether they get outdated? Give us a primer on 
sanctions.
    Secretary Lew. Congressman, let me start with the broadest 
principle, which is that economic sanctions can create economic 
pain and economic impact in a country.
    We have gotten quite good at designing sanction regimes 
that can do that to affect the country that you are trying to 
sanction while reducing, to the extent that it is possible, 
spillover in areas that you do not want to see the effects 
felt.
    What sanctions can not do is force a leader to change their 
view, and in the case----
    Mr. Crenshaw. And I appreciate all that.
    Give me some real-world----
    Secretary Lew. In the Iran case, just to be clear, what I 
was describing in terms of the ability to enumerate quite 
precisely, was the relief in the Joint Plan of Action.
    Because what we were essentially doing, for the most part, 
was freeing up access to resources that we had frozen and 
saying, ``You can get X dollars of your money out of it.'' That 
is a little different than imposing sanctions where there is a 
degree of uncertainty.
    But as to Russia----
    Mr. Crenshaw. I am trying to understand just, real world, 
what--do you sit down and say, ``What is the biggest and best 
sanction we can put on Iran?''
    Secretary Lew. Well, obviously, what we have done is we 
basically cut them off from growth in oil sales and we have cut 
them off----
    Mr. Crenshaw. And how do you do that?
    Secretary Lew. We have put in place limits on how much oil 
can be exported, sanctions against the violation of that that 
affect both the importers as well----
    Mr. Crenshaw. And how do you decide----
    Secretary Lew [continuing]. They all need to do business 
through U.S. financial institutions----
    Mr. Crenshaw. Right.
    Secretary Lew [continuing]. Which gives us the ability 
through U.S. financial institutions----
    Mr. Crenshaw. And how--and I am just talking about real 
world. How does that work out when you decide, okay, you can 
only export X barrels of oil?
    Secretary Lew. Well, we have the ability to tie up funds 
that the Government of Iran can't get access to, and we have 
the ability to sanction countries that engage in transactions 
that violate the sanctions.
    Mr. Crenshaw. So you will say, ``You can't buy oil from 
Iran''?
    Secretary Lew. Yes.
    Mr. Crenshaw. And if you do, then what happens?
    Secretary Lew. Well, the--the----
    Mr. Crenshaw. I am not being argumentative. I am trying--I 
am really trying to understand how sanctions work. It is all--
it is more--when I say we are going to put some sanctions on 
people----
    Secretary Lew. It is hard to give a general answer. You are 
asking about Iran. In Russia, we did some very different 
things.
    Mr. Crenshaw. Like what did you do----
    Secretary Lew. In Russia----
    Mr. Crenshaw [continuing]. Specifically?
    Secretary Lew. In Russia, we did not put sanctions on the 
whole Russian financial system. We put sanctions on individuals 
who were decision-makers and close to people in the inner 
circle to create pressure on----
    Mr. Crenshaw. But, I mean, what kind of sanctions--what do 
you do to that----
    Secretary Lew. They do not----
    Mr. Crenshaw. Well, how do you sanction an oligarch?
    Secretary Lew. Well, if your accounts are in the United 
States and you can not transact business anymore, that impedes 
your ability to get access to your money and to do new 
transactions.
    For example, in Russia, we said, the financial 
institutions--we did this in concert with Europe. It was not 
something we did unilaterally--we were going to limit the 
ability to roll over debt. Russian companies that were 
sanctioned could no longer roll over their debt for a year, 2 
years or 3 years. They were limited to very short-term 
rollovers.
    Mr. Crenshaw. Do you do that in terms of the lenders?
    Secretary Lew. Yes. Yes. And lenders who violate that would 
be violating sanctions----
    Mr. Crenshaw. I got you.
    Secretary Lew [continuing]. And they do not want to do 
that.
    The reason I was going to say it is a little bit hard to be 
entirely precise, I think we did an excellent job in Russia 
targeting the impact where we meant it to be felt.
    But we have actually seen the sanctions have greater impact 
because there was a voluntary action to curtail financial 
relations because there was a fear that the sanctions would get 
tougher or a desire to stay very far away from the boundary 
line.
    So it has actually had a slighly bigger impact, and then on 
top of that, the price of oil came down and a weakened Russian 
economy took a second hit.
    If you look at the design of the Russia sanctions, we were 
working with our European allies, very much of the view that we 
wanted, to the extent that we could, limit the spillover into 
Europe and the global economy. I think we have been successful, 
to date, limiting that impact.
    It also is not our view that the burden should be felt 
broadly by Russian consumers. It should be felt by those who 
might be able to effect the decision-making that was taking 
place. In Iran, it is much more of a blanket set of policies. 
So there is not just one way to do sanctions.
    We have learned a lot over the last 10 years in terms of 
how to design sanctions more precisely, and they are more 
highly engineered. I think what we have learned in the last 
year, in the case of Russia, is that you can have a very 
significant economic impact without causing as much effect 
outside of the country as you might otherwise. What we have 
unfortunately not been able to do is change the decision-making 
calculus of the leadership in Russia.
    In Iran, I think we did change their decision-making to the 
point that they came to the table. I believe that they came to 
the table to get relief. I think that the relief in the Joint 
Plan of Action was just a bit of a taste of what broader 
sanctions relief would be.
    Their top priority in Iran right now is to get their 
economy moving and have some relief. I think that is the only 
reason that they are having a serious conversation about 
foregoing the development of nuclear weapons. We are not there 
yet. I can not say that it has been ultimately successful. But 
I do not believe this negotiation would be underway but for 
sanctions.
    I wish I could say that we had made as much progress in the 
last year with Russia. We shall see.
    Mr. Crenshaw. Thanks so much.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First, I want to talk to you about oil 
prices in Iran and possibly sanctions. It is a widely held view 
that the falling of oil prices are putting pressure on Iran and 
Iran cannot repatriate their oil revenues.
    But under the Joint Plan of Action, Iran can withdraw $700 
million a month from foreign-held reserves. And that being 
said, it seems Iran's economy is largely insulated from the 
fall in the price of oil, at least in the near term, and the 
fall of prices will be insufficient to put new pressure on the 
Iran regime to accept a good deal.
    My question would be: Do you agree with that premise? Could 
you share your analysis of the real impact of oil prices on the 
Iran economy.
    Secondly, have we seen any indication that oil prices are 
impacting Iran's decision-making in the ongoing negotiations?
    And, finally, given the state of the global energy markets, 
can countries that are purchasing oil from Iran now find 
alternative suppliers?
    Secretary Lew. There is no question that our sanctions 
regime puts Iran in such a seriously bad economic position that 
they do not have access to the revenues that would come from 
all their oil flows, to begin with. The amount that they do not 
have access to limits the impact, to some extent, of the 
decline of oil in the short run.
    In the long run, they are an economy that is highly 
dependent on oil and I think it does weaken them, in terms of 
what their prospects are. Even in the short term, it has an 
effect, but it is not dollar for dollar. So I think in Russia 
it is much more direct.
    You know, the challenge in Iran is that in order to 
maintain their oil industry at peak production level, it is 
more than access to their money they need, they need access to 
technology, they need the ability to develop resources.
    We have through the sanctions made it harder for them to 
continue growing their oil capacity. Looking forward, they see 
sanctions relief as being critical to their economic----
    Mr. Ruppersberger. Do you think that is our number one 
leverage in the negotiations, the sanctions relief, based on 
their economy?
    Secretary Lew. I think their economy is in very bad shape. 
They still have very high inflation, very high unemployment. 
They still face a future that is very bleak. The only hope that 
is now in their economy is that, if there is an agreement, it 
will get better. That gets dashed pretty quickly if there is 
not an agreement.
    The relief in the Joint Plan of Action gave, as I said, a 
taste of what relief would mean. But it was just a fraction of 
the ongoing additional pain that sanctions put on Iran's 
economy.
    In the period of the first year of the JPOA, you know, it 
was about $40 billion of additional sanctions impact and 
roughly $7 billion of sanctions relief. It was still a great 
deal of additional pain because the oil and financing sanctions 
were staying in effect.
    They want access to their resources. They want to be able 
to grow their economy. They are only going to get that if there 
is an agreement that we can have confidence that it prevents 
them from having nuclear weapons.
    Mr. Ruppersberger. Okay. I yield back.
    Ms. Granger. Thank you.
    Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Secretary, for your time. I 
have some questions, and it is dealing with many--like many of 
us, on the sanctions. I am going to come to that in a moment.
    I have to reinforce what our full committee chairman said 
about some of his comments and your comments on carbon and his 
concerns there.
    Just very quickly, I will say that someone in the 
administration is going to have to go to 40 million children in 
India and China and tell them they will never have health care, 
they will never have a job, and they will never have an 
education, because you don't have those things without some 
source of energy.
    And those countries can't build nuclear power plants. They 
don't have hydro resources. And it concerns me that they would 
view us as fairly arrogant in taking that position and denying 
those things when it is beyond their ability to provide them 
for themselves.
    But putting that aside, coming to the Iranian nuclear 
program and the negotiations there--and I appreciate your 
comments on this so far--I want to tell you a little bit about 
my background. I was an Air Force officer and pilot for 14 
years, and I had this great honor of working with the START II 
and START III implementation with the former Soviet Union, as 
the pilot rep.
    Now, I had a very, very small picture of that. I was just a 
captain at the time, hardly a person of influence, but I did 
see how that agreement was implemented. And I learned from 
that, as I have written in editorials in the last few weeks, 
that if a nation wants to cheat on an agreement, they can.
    They can find a way around that, which brings us to the 
point of you having an extraordinarily powerful and influential 
position--you and your organization--in our national security, 
which I don't think many people would recognize, you know, the 
Department of Treasury and national security, how closely they 
are tied in this situation.
    So let me ask you this. And I want to go through a couple 
of questions very quickly--because I think you and I will agree 
on this--and that is, the difficulty of organizing our sanction 
partners and to come to an agreement to have the current 
sanctions imposed, would you agree that that was a significant 
effort, that it took, a degree of political capital, it took 
quite a long time and that it was a fragile process?
    Secretary Lew. Absolutely. One of the things that I think 
has really been quite profoundly successful both in Iran and in 
Russia has been our ability to work with the international 
partners that we have.
    Our unilateral sanctions against Iran could not be anywhere 
near as effective as they are without the cooperation of other 
countries, and it has required ongoing, continued engagement 
with them. That is one of the reasons we felt it was so 
important for us to not do anything that would be perceived as 
inconsistent with the agreement in the Joint Plan of Action.
    Mr. Stewart. And I get that. And I do. And I appreciate 
that this was a large and an intense effort to come to this 
degree of success. That these sanctions are fragile, I think we 
would agree with that.
    But in light of that--this is my fear, the good news and 
bad news. The good news is we got to this point. The bad news 
is it is very, very difficult to replicate that effort once 
again.
    And, you see, I wonder, how rapidly would the U.S. be able 
to reverse course if we come to a situation where we feel like 
our Iranian partners are cheating or they intend to withdraw 
from this agreement, especially, Mr. Secretary, in light of 
what you just said, with our partners of Russia and China?
    Because I don't think we could replicate this again, 
especially again with those two partners. And, if we could, it 
would take a long time. And the outcome is not at all certain.
    So can you see why those of us who are concerned about this 
and--recognize that these sanctions were a great effort, but it 
is very, very difficult to replicate that? And to just assume 
that we could turn that around and impose those sanctions 
again, I don't think that is true at all. I think that is a 
stretch, to make that assumption.
    Secretary Lew. First of all Congressman, these are issues 
that are still currently being discussed, what kind of 
sanctions relief should be part of an agreement, if there is an 
agreement. So, I do not want to prejudge what the outcome is. 
But I would say that in a world where there was an agreement 
with Iran, and Iran violated the agreement, we would feel 
perfectly within our rights to use every tool at our disposal. 
We have a lot of tools to put back in place, very severe 
penalties if we need to. Our ability to do that, if we needed 
to, even unilaterally, would be very widely understood if that 
violation was there.
    Mr. Stewart. I understand that. But I do think--and I think 
you would agree with me--it is much more difficult after this, 
especially with China and especially with Russia. Their frame 
of mind is different now than it was a year ago, I think.
    Secretary Lew. What I do not think is different is that the 
world community agrees that Iran should not have nuclear 
weapons. That is why there is this very tight engagement, even 
at a time when there is so much tension between the United 
States and Russia over Ukraine, tight engagement on working 
towards an agreement that prevents Iran from getting nuclear 
weapons.
    Mr. Stewart. Well, I certainly appreciate that. You and I 
agree on that, although, this is a national security and a DOD 
question, not necessarily in your area of expertise. But, I am 
afraid that this agreement makes that almost a foregone 
conclusion that they would rather then preclude him from that. 
But, again, that is another topic, and I know you would 
disagree with that conclusion, certainly.
    Secretary Lew. Congressman, if I could just go back to the 
point you made about the children in India.
    Mr. Stewart. Yes.
    Secretary Lew. I was just in Mumbai and Delhi a few weeks 
ago, and I have to tell you, I have never seen air pollution 
like I saw in Mumbai and Delhi. So the children in those cities 
are right now at risk for the air they are breathing, and I 
think we have to remember that as well.
    Mr. Stewart. I certainly appreciate that, and you can go to 
Beijing and see it just as bad, as in other places as well. But 
you can mitigate it. And I do not think that it is an either- 
or proposition. But thank you, Mr. Secretary.
    And madam, I yield back.
    Ms. Granger. Thank you. We will offer another round of 
questions.
    I am going to ask a question first. In 1993, the NAFTA 
agreement included a side agreement to create the North 
American Development Bank, NADBank, to tackle environmental 
issues on the U.S./Mexico border. NADBank was originally 
focused on water and waste water problems, but the bank has now 
moved into renewable energy projects. The budget request 
includes new funding for the NADBank, and I understand that 
part of the increase is because NADBank's ability to borrow on 
the capital markets is limited because of a downgrade by 
Moody's and other credit-rating agencies.
    First, I hope you can explain to Members why the NADBank 
was downgraded; second, how much of this downgrade was due to 
NADBank's shift to finance renewable energy projects; and 
finally, will the authorization language that is needed to 
recapitalize the NADBank require a change to the NAFTA treaty?
    Secretary Lew. Chairwoman Granger, my understanding of the 
downgrade is that there was a technical change in some of the 
credit-scoring rules, and it was not a reflection of a change 
in policy. So, I am not actually aware of it being due to any 
change of activity, but I am happy to check and get back.
    Going back to the origins of NADBank, I think it reflects 
the close relationship the United States and Mexico have, that 
we undertake infrastructure projects on both sides of our 
borders. We pay for projects on the U.S. side, they pay for 
projects on the Mexican side. It is in the interest of the 
region in the United States and in Mexico, and it is a source 
of ongoing encouragement to the free flow of trade, which is 
very important in terms of U.S. exports as well as Mexican 
exports.
    I am not aware that the inclusion of renewable projects has 
materially changed the structure of that relationship. The 
things that I have been most focused on, as I have talked to 
our Mexican counterparts, have been things to ease the flow of 
goods, roads, customshouses, and the like.
    There was one more part of your question and I might not 
have answered it.
    Ms. Granger. Will this require a change in NAFTA?
    Secretary Lew. Oh, I do not believe it does. I think it is 
just a funding issue.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mr. Ruppersberger.
    Mr. Ruppersberger. No.
    Ms. Granger. Mr. Serrano.
    Mr. Serrano. Thank you.
    Mr. Secretary, very quickly, I know that there are things 
you can't tell me about the negotiations going on with Cuba, 
but can you tell me at least, if you see, or the administration 
sees a willingness on both sides, and especially on the side of 
the Cubans, on the part of the Cubans, to make something to 
change the relationship to, to bring it to the point that I 
have wanted it, for the last many years and that other people 
have wanted. Do you see that desire to make this work?
    Secretary Lew. Congressman, I will have to defer to my 
colleagues in the State Department who are engaged in 
conversations----
    Mr. Serrano. But you have information?
    Secretary Lew. Yes. I have not actually gotten a report 
from the meetings that took place this week, so I do not have 
more current information.
    But, let me go to kind of the broader principle about why 
we undertook the changes that we did. It was our view and the 
view, frankly, of many people in many administrations of both 
parties that the program that was in place was not having the 
positive effect it was intended to have. It was not opening 
Cuba up. It was not leading to the kind of change that is going 
to promote human rights and free expression and a move towards 
a freer economy in Cuba. That more contact with the American 
people, the easier flow of funds amongst family members and the 
opening up of easier financial transactions for our 
agricultural exporters and the like, would ultimately bring 
Cuba closer to where we think they ought to be.
    I think it is premature for us to be talking about the full 
normalization. I mean, the international financial 
institutions, we are barred by law, as you know, from 
supporting their entry. We are not talking about changing the 
things that are as a matter of law, off limits. We have to take 
this one step at a time. We have opened a big door in a way 
that I think is going to promote the kind of positive change 
that I think we all want to see in Cuba.
    I think more contact, more communications, more telephone 
contact, more Internet contact, more exposure to printed 
material from the United States, is all going to be part of it. 
I am hopeful that we will see the kind of change in Cuba that 
the Cuban people need, but that will also be good for U.S./Cuba 
relations in the long run.
    Mr. Serrano. Right. And I am not trying to be funny, but I 
know that when you sit around that big table with other members 
of the cabinet, their discussions and opinions and so on, and I 
can honestly tell you that one of the parts that has confused 
me totally about our Cuban policy, I mean, a lot of things have 
confused me, is this whole thing of Cuba being on the list of 
terrorist nations. It never made any sense, and it is probably 
the kind of thing that 20 years from now we will decide was a 
political decision made to appease a certain part of the 
American community or whatever, but it doesn't make any sense.
    Going back to a question that was asked before by Mr. 
Crenshaw, what are sanctions like? I remember in the Cuba 
issue, for a while--I don't know if it is still in place--where 
if a ship did business--or a country did business with Cuba, it 
could not dock its ship in any of our ports for 180 days. So, 
those were the kind of things that people apply during 
sanctions. But, you know, I think many of us are on the same 
page, that it is time the end this policy. It has been a 
failure for the Cuban people and for our country, and it is 
time to move ahead and, you know, just deal with a country that 
is 90 miles from our coast.
    Thank you.
    Ms. Granger. Thank you.
    Mr. Fortenberry, you will have the last question.
    Mr. Fortenberry. Thank you, Madam Chairwoman.
    Mr. Secretary, thank you for being here today. I want to 
return to the discussion--which you probably already have. I 
missed the balance of the hearing--but on the IMF. You are a 
proponent of us embracing this reform package. Could you gives 
your rationale, please?
    Secretary Lew. Yes, I would be happy to, Congressman. The 
IMF reforms were negotiated about 5 years ago, to address the 
fact that the world has changed in terms of the size of 
different economies, the stage of development of different 
economies, but the rules at the IMF have not. It was very 
important to the United States that we maintain our position at 
the IMF, that we not see a dilution of our veto and the very 
substantial role that we play.
    There was essentially a reallocation of shares and 
executive committee membership so that a couple of seats moved 
from Europe to the emerging economies. There will be share 
increases that move around amongst countries, all the while 
preserving the U.S. interests. It is something that was 
considered a very important step forward by the emerging 
economies. It is something that even the countries that are 
giving up shares that they would rather not be giving up would 
like to see finalized so that the institution is stabilized and 
it has the resources it needs to go forward. So, that means a 
lot of these emerging economies will contribute more.
    We do not have to contribute more to meet the new levels of 
capital. We have, through the new arrangement to borrow, put 
money into the IMF during the financial crisis. That by simply 
moving those resources from the new arrangement to borrow into 
the general capital, we will meet our share of the new 
contributions. While a lot of other countries are bringing new 
money to the table, we are just moving it from one IMF fund to 
another.
    I think it was a very good deal for the United States. It 
is a very good deal for the IMF, because it gives the IMF the 
resources it needs to deal with whatever comes over the coming 
years, and it is a good deal for the emerging economies who 
legitimately want to see some increase in their representation 
in a body that was designed before they were part of the world 
conversation.
    Everyone but the United States has ratified. The United 
States is the last country. We have helped drive this forward, 
design it. It is an institution that we were fundamental to the 
creation of and the sustenance of. And our leadership in it is 
going to be challenged severely if we do not ratify the 
reforms. I think it is a good deal, and the sooner we ratify 
it, the better it is for both the United States and the IMF.
    Mr. Fortenberry. Even though we don't have any heightened 
direct fiscal impact from it, do we have heightened risk from 
additional obligations?
    Secretary Lew. Well, there is a scoring impact for 
technical reasons, but just to put it in perspective, it is 
moving a commitment of roughly $60 billion from one fund to 
another and the scoring impact is a few hundred million 
dollars. It is not a very substantial change, even if one takes 
the view that the scoring is the measure of the change. I 
personally do not think the scoring is even necessary, but 
rules are rules and we have come up with proposals to cover 
that cost.
    Mr. Fortenberry. As a lender of last resort, though, what 
is your perspective on the IMF power to interact with rogue or 
to stop, rogue fiscal policies that could undermine the very 
substantive change that need to take place in order to stop 
whatever crisis they might be intervening in?
    Secretary Lew. I think if you look at the IMF's involvement 
in the last decade, it has been a force for change not just to 
stop rogue fiscal policies, but to require that responsible 
fiscal policies be adopted as a condition for IMF support at a 
difficult time. Some have criticized the IMF for being too 
tough in demanding programs of reform in exchange for support.
    I think if you look at some of the situations, whether it 
is Ukraine today, or Europe during the financial crisis, there 
are important national security interests and economic 
interests for the United States. I believe we have a serious 
national security interest in making sure Ukraine can survive 
through this difficult period adopting the kinds of reforms it 
needs to have a future that is free from the kind of corruption 
that characterized its past.
    And without the IMF, I do not think those reforms would be 
as far as they are, and I don't think that they would have the 
runway that they have in order to withstand the very difficult 
security situation in the east. If you look at Europe, Europe 
is our biggest trading partner. If Europe had not had the IMF 
to go to, there was nowhere else to stop the spread of the 
economic crisis. The IMF was the first line of defense, and we, 
as a country that export quite a lot to Europe, that where the 
trade flows between the United States and Europe are a 
significant part of our economy, benefitted from that quite 
directly, not to mention the geopolitical risk of a totally 
collapsed European economy.
    Even in the last 10 years, the IMF has proved it is an 
essential asset in the world financial order, and it provides 
the first line of defense. Just a few months ago, when everyone 
was worrying about Ebola, the first relief that went to African 
countries to give them the ability to deal with the situation, 
it came from the IMF, because they can respond quickly.
    So I think that, like any institution, one can, raise 
questions of whether you would have done exactly what they did 
in one situation or another. We have a voice in that, that is 
very strong. I am afraid that that voice gets weakened if we do 
not come to the table having kept our part of the bargain, 
which is what ratification of the reforms is.
    Mr. Fortenberry. Thank you. Thank you, Mr. Secretary.
    And thank you, Madam Chairwoman.
    Ms. Granger. Thank you. Secretary Lew, thank you again for 
your time. This concludes today's hearing, and members may 
submit any additional questions for the record.
    The subcommittee on State, Foreign Operations, and Related 
Programs stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, March 24, 2015.

                     ASSISTANCE TO CENTRAL AMERICA

                               WITNESSES

ROBERTA S. JACOBSON, ASSISTANT SECRETARY OF STATE, WESTERN HEMISPHERE 
    AFFAIRS
AMBASSADOR WILLIAM R. BROWNFIELD, ASSISTANT SECRETARY OF STATE, 
    INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS
ELIZABETH HOGAN, ACTING ASSISTANT ADMINISTRATOR, LATIN AMERICA AND THE 
    CARIBBEAN, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

                Opening Statement by Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    I would like to welcome our witnesses to today's hearing: 
Roberta Jacobson, Assistant Secretary of State for the Western 
Hemisphere; William Brownfield, Assistant Secretary of State 
for International Narcotics Control and Law Enforcement; and 
Elizabeth Hogan, Acting Assistant Administrator for USAID for 
Latin America and the Caribbean.
    Thank you all for being here.
    Last summer, our country experienced a national security 
and humanitarian crisis of historic proportions as tens of 
thousands of unaccompanied minors were sent through criminal 
smuggling networks from Central America across Mexico into our 
southern border. Although the number of unaccompanied children 
has dropped since then, thousands more are expected to cross 
this year. And that is unacceptable.
    At the Speaker's request, I led a working group to examine 
this issue and provide recommendations. I visited the Texas-
Mexican border several times. I also led a delegation to 
Guatemala and Honduras to see where the children were coming 
from and why.
    There are many reasons why so many families and children 
have made and continue to make this dangerous journey. Some of 
this can be explained by the administration's slow pace of 
deportations and insufficient focus on law enforcement at the 
border. The harsh conditions and lack of security in Central 
America also play a role. In addition, the lack of economic 
opportunity and high unemployment is causing people to look for 
other ways to survive.
    The purpose of today's hearing is to discuss what the 
United States and other countries in the region can do to put 
an end to this illegal migration at its source. The United 
States has provided assistance to Central America for many 
years. We need to take a hard look at what has worked, what has 
not, and what changes need to be made going forward.
    Last year's appropriations act increased assistance for 
Central America and also included support for programs to 
combat human trafficking and help countries repatriate and 
reintegrate their citizens. The administration's budget request 
includes one billion dollars for Central America, more than 
double the amount provided last year. The committee needs an 
explanation from our witnesses on how such a large investment 
will change the situation at our border.
    While the United States has a role to play in helping 
Central America, we cannot and should not do this alone. Other 
countries in the region have a stake in Central America's 
failure or success. Our neighbor Mexico is at the front lines 
of combating illegal migration, and we must do all we can to 
help Mexico strengthen its borders.
    In addition, we should also support and use the 
capabilities of partners in the region, such as Colombia. There 
are a number of lessons we can learn from Plan Colombia. 
Specifically, for lasting change to occur, we need a solid 
commitment from the partner countries themselves. These 
governments must be willing to make hard choices and address 
the needs of their own citizens.
    I have met with the presidents of some of these countries 
and have already seen progress. For the first time, the Central 
American governments had come together to develop a joint plan 
to address shared problems in the region. Just as I believe the 
United States should assist those countries, so, too, should we 
hold the governments accountable for following through on their 
commitments.
    I look forward to hearing from our witnesses today on how 
we can best address these important issues.
    And I would now like to turn to my friend, Ranking Member 
Lowey, for her opening remarks.

                    Opening Statement by Mrs. Lowey

    Mrs. Lowey. And thank you, my friend, Madam Chairwoman.
    Ms. Granger. You are welcome.
    Mrs. Lowey. Assistant Secretary Jacobson, Assistant 
Secretary Brownfield, Acting Assistant Administrator Hogan, I 
must say it is a pleasure to see you here today and express my 
view that we are indeed fortunate to have people of your 
thoughtfulness, commitment, and intelligence serving the United 
States of America. And I thank you.
    Last summer, a humanitarian crisis came to our doorstep, 
with nearly 70,000 unaccompanied minors fleeing their home as a 
result of the abject poverty, lack of economic opportunity, 
rampant critical networks, and weak governments in Central 
America.
    These conditions have allowed drug trafficking and other 
criminal enterprises to grow in size and strength aggressively, 
intimidating and overwhelming government institutions and 
threatening public security and the rule of law. In fact, 
Central American countries represented four of the five 
countries with the highest homicide rates in the world. Their 
economic growth lags behind that of the rest of Latin America, 
and 50 percent of the population lives in poverty, with 
underemployment hovering between 30 to 40 percent in El 
Salvador, Honduras, and Guatemala.
    Clearly, it is in our interest to develop an integrated 
strategy for engagement with the countries of Central America. 
More must be done to invest in civil society and to provide 
alternative livelihoods, education, and opportunities for 
youth.
    And while I support this effort, I have a number of 
questions about the policies being proposed. For example, this 
year's request for the region would scale up longstanding State 
and USAID programs in Central America. I can't help but ask: 
How will these programs be more effective than in the past? 
What makes them different? How many years of increased 
assistance will be necessary to successfully improve economic 
and security conditions? Given the history of organized 
corruption, do you all believe there is sufficient political 
will to undertake the necessary fiscal and policy reforms?
    The administration's engagement with the regions' leaders 
at the highest levels and the efforts of Presidents and Foreign 
Ministers of Guatemala, Honduras, and El Salvador to consult in 
Washington on their alliance for prosperity in the Northern 
Triangle reflect a strong desire for real change and ownership 
of these reforms, which is critical to success.
    At the same time, to what extent have civil society groups 
been included in these discussions? Who speaks for the 
marginalized, the vulnerable, and disadvantaged during these 
meetings? Are their human rights concerns being addressed? And 
who is addressing the needs of the children who have been 
returned to their home country and are in desperate need of 
rehabilitation services?
    I also want to raise police and judicial reforms, which are 
at the core of citizen security. While enforcement by police 
and the military is important, security forces must 
institutionalize mechanisms to ensure transparency and 
accountability as well as respect for the rights of citizens. 
What commitments are the three Presidents prepared to make in 
terms of enhancing civilian police, providing accountability 
for any human rights abuses by police and military forces, and 
ensuring access to and credibility of independent judiciaries?
    Lastly, I hope you will detail how the requests will 
improve our public diplomacy capabilities. Before the crisis 
reached its height last summer, were embassy and consulate 
officials aware of the aggressive and misleading marketing 
tactics being used by coyotes to encourage families to send 
their children on a dangerous journey north? What were we doing 
to counteract such campaigns? These just didn't appear out of 
the blue, and I would be particularly interested in your 
addressing that. I hope your efforts include a public diplomacy 
component that can prevail over the lies of druglords and 
criminals.
    And I look forward to your testimonies.
    Thank you.
    Ms. Granger. Thank you, Mrs. Lowey.
    I will now call on the witnesses to give their opening 
statements. I would encourage each of you to summarize your 
remarks so we leave enough time for questions and answers. Your 
full written statements will be placed in the record.
    We will begin with Assistant Secretary Jacobson.

                   Opening Statement by Ms. Jacobson

    Ms. Jacobson. Thank you very much, Madam Chairwoman, 
Ranking Member Lowey, and members of the committee. Thank you 
for the opportunity to testify today on the administration's $1 
billion whole-of-government request to support the U.S. 
strategy for engagement in Central America.
    Central America is a top priority for the United States 
because important national interests are at stake. When Central 
America suffers, the United States absorbs the impacts of 
increased migration and other transnational challenges. 
Conversely, a well-governed, secure, and economically 
prosperous Central America will enhance the security and 
prosperity of the United States.
    And I would like to submit my testimony for the record and 
not take much of your time before we get to your questions.
    While conditions in Central America remain challenging, 
this region could be one of transformative change. We sense it. 
Central American governments sense it. And we are all driven by 
an urgency to act quickly but wisely and get it right.
    Last summer's spike in migration was a clear signal that 
the serious and longstanding challenges in Central America 
remain and, in some instances, are worsening. But with renewed 
political will among the regions leaders, we are working with 
them to change this trend and address the underlying factors 
driving migration or be prepared for the tragedy to repeat 
itself ad infinitum with higher impact in costs on the United 
States.
    Over the past 5 years of implementing our Central America 
Regional Security Initiative, we have learned a great deal 
about what works and what doesn't work on security in Central 
America, and this new request builds on that knowledge.
    What we learned most of all was that, unless we focus on 
improving the ability of governments to deliver services 
efficiently with accountability and also improve economic 
opportunities, especially for young people, as integral parts 
of security, nothing we do to make things safer will be 
sustainable. This budget request represents a significant 
increase from previous years, but we know that the cost of 
investing now pales in comparison to addressing these 
challenges later.
    Today the governments of this region are demonstrating the 
political will necessary to take the difficult decisions that 
can lead to systemic change. The Presidents of El Salvador, 
Guatemala, and Honduras have a plan. They presented the 
Alliance for Prosperity in November.
    Since last summer, El Salvador has passed an investment 
stability law, giving investors assurances that tax and customs 
regulations will not change over the course of an investment. 
Guatemala has reached agreement on reparations for communities 
where human rights were violated by the construction of the 
Chixoy Dam. Honduras signed an agreement with Transparency 
International to make government procurement information 
available and invited the U.N. Office of the United Nations 
High Commissioner for Human Rights to the country.
    We recognize that requesting additional funds from Congress 
will not make a difference unless these governments do more to 
invest their own additional resources and advance reforms that 
lay the groundwork for success and enable our assistance to 
produce the outcomes we all intend.
    During months of intensive work with these Presidents, it 
is clear that the notion of shared responsibility is more than 
a bumper sticker. We believe that each of the countries has 
taken and is committed to actions that will promote better 
business environment for investors and small business, 
strengthen police and judicial systems, and increase government 
transparency.
    So we are faced with a question: Do we want to work 
together with our Central American partners to help them solve 
the problems or merely mitigate them? This request for $1 
billion is a bold step so that we can do more than mitigate.
    We know that we are a long way from achieving our core 
goals in Central America. There is no clearer indication of 
this than the willingness of tens of thousands of children to 
travel to the United States last summer amid enormous risks.
    But there is reason to be optimistic about Central 
America's future, and we believe now is the time for a new 
approach to Central America. We have a vision and a plan, and 
we want to work with you to support Central America and protect 
U.S. national security. And, as Vice President Biden says, 
there is no reason why Central America cannot be the next great 
success story in the Western Hemisphere.
    Thank you, and I look forward to your questions.
    Ms. Granger. Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Assistant Secretary Brownfield, you are now 
recognized.

               Opening Statement by Ambassador Brownfield

    Ambassador Brownfield. Thank you very much, Madam 
Chairwoman, Ranking Member Lowey, members of the subcommittee. 
Thank you for the opportunity to appear before you today. I am 
honored to appear with my old friends Roberta Jacobson and Beth 
Hogan.
    We meet today to discuss the President's strategy for 
Central America, but we filter that discussion through our 
experience last summer, when tens of thousands of Central 
American migrants, many of them children, arrived at our 
southwest border. We learned lessons. The most important was 
that the solution to the migration crisis is not at our 
border--it is in Central America--and the root causes that 
drive the migration north.
    As Assistant Secretary Jacobson just described, the 
President's strategy attacks those root causes with three 
prongs: prosperity, governance, and security. I work the 
security prong, and I look forward to working with Beth on the 
governance prong.
    We do not start this exercise from scratch. Since 2009, my 
bureau has provided support and assistance, generously funded 
by the United States Congress through CARSI, the Central 
America Regional Security Initiative.
    There are some who suggest that after 6 years there is 
little to show for the effort. I do not agree. Thanks to 
Operations Martillo and Anvil, drug smuggling by air through 
Honduras is down perhaps 50 percent since 2012. Maritime drug 
seizures, our best measure of drug flow, have fallen 40 percent 
in Costa Rica and 60 percent in Panama.
    Seventy-two maritime drug smugglers have come to the United 
States to face justice. The homicide rate in Honduras has 
dropped more than 20 percent from 2011. And joint border law 
enforcement task forces now work along the borders between 
Mexico, Guatemala, Honduras, and El Salvador, as well as Panama 
and Colombia.
    I do not apologize for CARSI, Madam Chairwoman. I am proud 
of it.
    But if we had been completely successful, we would not be 
here today. I have been in this business more than 36 long 
years, and I have learned perhaps two lessons. First, it takes 
years to create drug crime and security-driven crises, and it 
will take years to resolve them. Second, no strategy succeeds 
unless it addresses the fundamental problems and provides 
adequate resources to do the job.
    The President's strategy addresses the three core 
challenges for Central America today. The INL request for the 
2016 budget is $205 million, 25 percent more than the amount 
generously appropriated by Congress for this year.
    The subcommittee has a right to ask--in fact, the 
subcommittee has already asked--what more will you see for this 
25 percent uptick.
    First, much closer integration between INL and USAID 
programs in Central America. That is the point of the 
President's strategy. The Central America problem is not one-
dimensional. It is security, governance, and prosperity.
    Second, we plan to pilot a new programming approach that 
links USAID's community programming with INL's model police 
precincts. We call it the place-based approach. Jointly, we 
identify communities, age groups, security threats, root 
causes, and design specific programs to address them. Initial 
reports from Honduras on place-based programs are promising.
    Third, we will expand those CARSI programs with a 
successful track record--specialized and vetted units, joint 
task forces, police training and reform, border security, youth 
and gang education, drug demand and rehabilitation centers.
    Members of the subcommittee, we knew when we started CARSI 
together in 2009 that we were in this for the long haul. We 
knew that we would learn from programs that worked well and 
others that worked poorly. We knew that we would accomplish 
only as much as the regional governments' political will would 
support.
    We have delivered some results. Central America is a better 
place today. The United States is a safer place due to those 
efforts. We obviously have more work to do. I look forward to 
working closely with this subcommittee to get it done.
    Thank you, Madam Chairwoman, and I look forward to your 
comments and questions.
    Ms. Granger. Thank you.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Ms. Granger. Acting Assistant Administrator Hogan, you are 
now recognized.

                     Opening Statement by Ms. Hogan

    Ms. Hogan. Madam Chairwoman, Ranking Member Lowey, members 
of the subcommittee, thank you for the invitation to testify 
today, and thank you for the committee's continuing support for 
USAID's work in Central America.
    I am pleased to update you on our efforts to address the 
root causes of migration and the crisis that we saw stemming 
from problems in Central America last summer.
    As Administrator Lenhardt testified last week, USAID's 
mission is to partner to end extreme poverty and promote 
resilient, democratic societies. In Central America, USAID 
assistance has improved access to health and education, created 
new businesses, contributed to justice reforms, improved food 
security, and responded to natural disasters.
    However, in recent years, social development and economic 
growth have been stymied by a dramatic rise in crime and 
violence, particularly in the Northern Triangle. This 
insecurity is rooted in deep-seated issues of social and 
economic inequality, the failure of the region's governments 
and private sector to expand economic opportunity for vast 
segments of the population, and increases in gang violence and 
transnational crime.
    We must work together to address the underlying factors 
that are compelling migration. As Vice President Biden said, 
the cost of investing now in a secure and prosperous Central 
America is modest compared with the cost of letting violence 
and poverty fester.
    To that end, we have developed an interagency whole-of-
government strategy that advances three interrelated 
objectives: security, prosperity, and governance.
    The heart of USAID's security work is youth-focused crime 
and violence prevention. We have supported and tested a range 
of community-level prevention approaches in the highest crime 
communities in these countries. These include partnering with 
civil society, governments, and the private sector to create 
safe community spaces, expand after-school activities, provide 
job and life skills training for at-risk youth, build trust 
between police and residents, and launch community crime-
prevention committees.
    Last fall, the results of an independent impact evaluation 
confirmed that these community-level prevention programs are 
working. The study showed significantly fewer robberies, 
murders, and extortion reported in the neighborhoods where 
USAID is working compared to similar communities where we are 
not.
    With additional resources under the new strategy, we are 
prepared to help governments of the Northern Triangle scale up 
what is working, particularly in the communities from which 
youth are migrating.
    Advancing prosperity in the region requires a concerted 
effort by governments and the private sector to reduce 
persistent poverty and create an enabling economic environment 
that includes women, youth, and marginalized populations. USAID 
is working to drive economic activity throughout the Northern 
Triangle with programs that prepare youth to join the formal 
labor force and increase their incomes.
    Last year, I heard from youth involved in our workforce 
development programs that offer these out-of-school youth from 
poor and dangerous neighborhoods an alternative to gang 
involvement or illegal migration. The success of these programs 
is typical of the one I visited in Guatemala, where 75 percent 
of graduates obtain employment, return to school, or start a 
business within 1 year.
    The sustainability of these programs depends upon strong 
governance from the Northern Triangle countries. For these 
reasons, USAID will continue to promote government 
accountability, institutional checks and balances, judicial 
reforms, human rights protections, and increased civil society 
participation in the democratic process.
    In El Salvador, for example, we have had success helping 
the government improve tax administration and thereby increase 
its spending on its own security programs.
    Local ownership also requires partnering with the private 
sector to leverage resources and spur development. USAID has 16 
active public-private partnerships in Central America. In the 
last 5 years, these partnerships have leveraged nearly $160 
million in private sector resources to complement our own 
investments in development. As an example, partnerships with 
more than 40 small and large companies in Honduras are helping 
us connect small-scale farmers to valuable markets.
    The success of the Central America strategy requires 
unambiguous commitment, leadership, and ownership of the 
Northern Triangle governments. Fortunately, those countries are 
demonstrating a deepening commitment to advocate their own 
development goals. This political will, in combination with 
improved local capacity, leveraged resources, and new 
partnerships, will allow us to help Central American 
governments create a peaceful, prosperous, and integrated 
region and, in so doing, improve the security and prosperity of 
our own people.
    Thank you, and I look forward to your questions.
    Ms. Granger. Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Granger. Since last summer, there have been a number of 
strategies. You talked about two, the first being the Alliance 
for Prosperity, for which the three Central American countries 
came together under Honduras' leadership, putting together a 
plan. Then, of course, the Vice President put forward a plan, 
his own strategy. But neither one of those plans have goals 
that are tied to funds to implement them.
    Last year in our appropriations act, we required a strategy 
to target assistance to address the factors contributing to 
this problem, including goals, benchmarks, timelines, and a 
spend plan. That was due last week. So I would ask first, 
Secretary Jacobson, when we can expect that plan?
    Ms. Jacobson. Well, I think you are referring to the 
Central American migration strategy that we owe you all.
    Ms. Granger. Right.
    Ms. Jacobson. I do know that that has been held up a little 
bit by the ``653'' report that we all owe you, and I understand 
that that will be coming up very shortly. So we do know that we 
owe that for you.
    On the larger question of the commitments and the goals for 
these funds, what I would say is, if you look at what the Vice 
President talked about when he was in the region most recently 
and the document that came out of that, with very specific 
time-bound commitments, as well as some of the things the 
Presidents are already implementing, I think that gives us the 
very beginning of a roadmap. Then the leaders and the Foreign 
Ministers were here about a week ago to continue that work with 
the IDB, the Inter-American Development Bank.
    So we are trying to be as precise as we can as we move 
forward with this request to get very specific about the 
commitments that they are making and that we will use these 
funds to support going forward.
    Ms. Granger. Before we approve funding, we will have to 
have that strategy, which needs to be very specific as to if 
and how the Central American Presidents' plan fits into that.
    The other thing that is important to me in this is where we 
are right now with respect to the number of unaccompanied 
children, and what we went through last year. According to the 
Department of Homeland Security, over 68,000 unaccompanied 
children were apprehended in the United States last year, with 
three-quarters of that being from Central America, and most of 
the rest were from Mexico.
    We, the task force, visited Central America, and the first 
question I asked was, do you want your children back? It was a 
very straightforward question, and the answer would make a 
difference in what we would do as the United States. Their 
answer was: Absolutely, we want our children back. But last 
year the United States only returned 2,000 children--68,000 
apprehended, 2,000 returned.
    So now the administration is asking for one billion dollars 
to address the causes, but I would ask to the witnesses: Is it 
possible to get this under control without changes to our own 
laws and policies that allow those children to be quickly 
returned to their countries and their families?
    How do you take into account that although the children 
were coming from Central America, they were transitting through 
Mexico. We returned 2,000, but Mexico returned, I think, 18,000 
minors from Central America last year.
    So I would say, what are we doing right now, and how can 
you strengthen our border and also keep that commitment we made 
that we would return their children?
    Ms. Jacobson. Well, I will start with some of this, and I 
think my colleagues may have some answers too.
    I think there are things that we have to do on every level. 
Obviously, I think the President believes comprehensive 
immigration reform is part of this process, but I also think 
that, although we feel it is critically important to give the 
unaccompanied children who came last summer all of the 
protections they are due in this process--and that is one of 
the reasons that many have not been returned yet; they are 
going through that legal process--we did return a very large 
number of family units, including children and, obviously, many 
individual adults. And the family units we helped with the 
reintegration back into the countries that they came from.
    Also, the total number of those that were detained by 
Mexico was 127,000, most from Central America, up from 89,000 
the year before. So Mexico was crucial in this. And much of our 
work with Mexico is on their southern border. Assistant 
Secretary Brownfield can speak more about that.
    So I think we have to be doing both. But, ultimately, so as 
not to have this surge repeat itself, part of that is public 
diplomacy, part of it is making sure the word is out about what 
is and is not in our laws. But part of it, also, is to try and 
address some of the underlying causes of why they came. Because 
you are right, we have to deal with those who came before, but 
we also have to make sure it doesn't repeat itself.
    Mr. Brownfield. If I might offer just another minute on top 
of that, Madam Chairwoman.
    You raise absolutely valid points and questions. Some of 
them we obviously cannot answer. As you have correctly 
suggested, once a migrant has reached the United States of 
America, that person is then brought into the U.S. legal 
process. And adjusting that does require either changes to 
procedures or changes to law, and it is a broader dialogue than 
the three of us can offer guidance to.
    However, what we are talking about in this hearing would be 
investments that would prevent this sort of thing from 
happening in the future. That is what this strategy is designed 
to accomplish.
    You have correctly noted--and I wish to emphasize this to 
everyone in this room--the Government of Mexico performed 
exceptionally well during this crisis that we had last year on 
our border. Some might say they went beyond what they had ever 
done in the past, in terms of cooperating in this effort. I 
wish to acknowledge that, and I wish to state it publically and 
for the record.
    They have asked us----
    Ms. Granger. I was not criticizing Mexico in any way.
    Ms. Jacobson. No, no, no, no.
    Mr. Brownfield. No, you were not. And I just wanted to make 
sure--
    Ms. Granger. That was not my question to you.
    Mr. Brownfield [continuing]. They heard from me. Yes.
    Ms. Granger. That was not my question to you. My question 
was, should we have to change the laws? Because we sent back so 
few. Now these children will have been away from their families 
for a year and away from their countries, and I think that is 
something we need to address.
    I will address one more thing, because you were talking 
about root cause us and how we resolve this. When I came to 
Congress, one of the first things I worked on was Plan 
Colombia. And Colombia is a very different place today, 
amazingly different. It was very difficult to do, but you have 
businesses that are flourishing and great tourism. But, first, 
they made it safe.
    And as you are talking about employment and economic 
opportunities, companies are not going to move to a country 
that is one of the most violent and has the highest violence 
rate in the world.
    I come, we all come with our different backgrounds. Mine 
was Fort Worth, Texas. It has been a very difficult time for 
Fort Worth--very high unemployment because we lost a lot of 
defense contracts. So, as our economy went down, our crime went 
up. The first thing we did was make it safe again so those 
businesses would flourish.
    So, as we put these processes and these plans together, 
please don't give us a plan to fund for a billion dollars that 
says, first, we will offer opportunities to have business come. 
They are not going to do it unless it is safe.
    Mrs. Lowey.
    Mrs. Lowey. Now, following up, I agree that Central 
American nations need support to address the root causes of 
unrest, but it ultimately depends on the leaders of each 
country to carry out substantial reforms, to raise revenues, 
reduce corruption, strengthen institutions, and expand 
educational and economic opportunities for their citizens.
    Now, for those of us who have been working in this area a 
long time, we know how difficult it is. But we also, 
unfortunately, have seen very little progress in some of these 
countries, and most of us feel progress in these areas is 
essential. So let me throw out a couple of things. Maybe you 
can give us some hope for positive change.
    To what extent are Central American nations undertaking 
fiscal and policy reforms? In your view, are Central American 
political and business elites convinced that such reforms are 
necessary, so much so that they are willing to even pay taxes? 
I would love some examples.
    Conditions on assistance are always a double-edged sword. 
From your perspective, what are the benefits and drawbacks of 
Congress tying our assistance to internal reforms in Central 
America? Absent buy-in from the business and political elites, 
can the strong fiscal policies proposed in this plan succeed?
    And I will throw out a couple of more, and then you can all 
take your turn. We know what I am getting at.
    So, assuming buy-in from business and political elites 
exists, do you believe the reform plans will allow the 
countries of Central America to meet the demand for needed 
services as well as sustain improvements in government? And how 
will such policies translate into increased public trust?
    How do we institutionalize the political commitment and 
capacity so that any progress made today extends to future 
political leadership?
    You can take any part of that. And who wants to begin?
    Ms. Jacobson. I will start, I guess. Those are great.
    I think----
    Mrs. Lowey. Not that you haven't heard them before.
    Ms. Jacobson. No, but they are exactly the right questions. 
And I think they really do get at the issues of, why is this 
different? You know, why is this night different from all other 
nights at this time of year?
    We look at this particular moment in Central America, 
facing huge challenges, as different than before, frankly 
because of the three leaders in place right now. That is what 
is different. There is both a particular urgency to this 
crisis, in part demonstrated by last summer, but that was only 
the most recent, sort of, exemplar. But it also is a function 
of three leaders who, while ideologically very different, all 
have the political will to act.
    And so what you have seen, for example, in Honduras, a 
country where a year ago I would have said it is the country I 
am most worried about in that region, you have seen a 21 
percent increase in tax revenue because of fiscal reform and 
closing of the budget gap by over 3 or 4 percent of GDP. That 
is enormously important in 1 year--an IMF standby agreement 
after many years of not having one. That was really getting his 
hands around a huge problem. And it is only a beginning, but 
that demonstrated enormous political will.
    I think, frankly, your question about business and economic 
elites is a very fundamental one. And one of the comments made 
about Colombia, I think, is instrumental here. The chairwoman 
is absolutely right; security does come first for businesses. 
But what we saw in Colombia and President Uribe was an 
agreement with the business class and the economic elite that 
they would join the President in focusing on security, they 
would be part of that answer. Bill knows that better than 
anybody.
    We haven't seen that until recently in Central America. The 
business class has been slow to get on board and to back those 
efforts, and that is beginning to change. And the commitments 
that we are seeing to private sector dialogue, to commitment on 
investment reforms, and real conversation with both civil 
society for their input and the business sector also gives me 
great optimism that that is changing.
    I think that we have also seen changes in the model of 
policing that Bill will talk about from old mechanisms to ones 
that are much more community-based and responsive to the 
population, a focus on women in the community as, often, heads 
of households when men have left.
    So all of these things are an accretion of the experiences 
we have had in the past with Presidents who are willing to back 
those lessons learned based on data that I think give us a much 
better chance of success than before.
    Ms. Granger. Thank you.
    Ms. Hogan. If I may, I would like to add to that in terms 
of what is different. I think we are different in the way we 
are approaching these problems. We are approaching them in a 
much more integrated fashion, as Ambassador Brownfield just 
alluded to.
    Also, because these governments are stepping forward and 
committing themselves to very tough policy changes that they 
are going to take on and new regulations that they are going to 
make, we are going to tie our assistance to their ability to do 
just that. And so we are not going to have resources lead 
reforms; we are going to have resources follow reforms.
    If, in fact, we see countries stall or backtrack on the 
commitments which they have themselves committed to, we are 
going to come back to you and ask your concurrence to reprogram 
resources to those countries that are advancing and are keeping 
faith with the changes that they have agreed to make.
    In El Salvador, we have something called a Partnership for 
Growth, and, in that partnership, we have something called a 
scorecard. It is a very public document, and it lists very 
specifically what donors are going to do and what the 
Government of El Salvador is going to do and the private sector 
is going to do.
    And that is the kind of model that we want to replicate as 
we move forward in the implementation of this program so that 
it is very clear, not just to governments but to the citizens 
of those countries, that this is what their governments have 
committed to, and we will hold them accountable to achieving 
that. And if they don't, as I say, we will look at other ways 
of reprogramming those resources.
    Mrs. Lowey. Mr. Ambassador, do you want to add to it?
    Mr. Brownfield. I really have very little to add, other 
than to say, among the lessons that we learned in Colombia and 
Plan Colombia, one, as already stated, there has to be some 
degree of security which produces the confidence which then 
produces the willingness of the business community to engage 
and support.
    Second, it requires some courage on the part of a 
government, because what the government is doing is changing 
the way that society has functioned for years, decades, in some 
cases centuries. And it takes a particular sort of government 
or an experience of having spent enough time in chaos to be 
willing to make that sort of decision.
    Third, it takes time. And I know you have heard this from 
me before, but I will say it again, and I will put it in a very 
personal context. In 2007, I arrived in Colombia as the United 
States Ambassador. Plan Colombia, at that point, was closing in 
on 8 years of operation. The narrative, at that point, was 
still: There are no results. We have not succeeded. What have 
we gotten for our investment in Plan Colombia?
    Well, we saw that in the course of the next 1 or 2 years. 
It had nothing to do with me; it had to do with 7 or 8 years of 
investment. And while no one wants to hear that, I will 
continue to note that we are in this Central America process 
for the long haul, and we are in it because it is in our 
national interest to focus this effort and these resources 
there.
    Mrs. Lowey. Thank you, Madam Chair.
    Ms. Granger. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    Let me follow up on what Chairwoman Granger mentioned about 
Plan Colombia. I mean, I think everybody understands that it 
has been a huge success, potentially the greatest success story 
after the Marshall Plan. I mean, it has really been a huge 
success.
    And, Ambassador, take some credit for it, because you were 
there, and I know a lot of the work that you did.
    But, clearly, the foundation of Plan Colombia, as the 
Chairwoman stated, was security. Listen to President Uribe. He 
will tell you. It is security. It is security first, it is 
security second, it is security third.
    And my concern is that I don't see that emphasis on 
security. And I don't disagree with what you all have talked 
about, that there are other components. But unless people feel 
secure--and I don't care how much opportunity we give, whether 
it is in Honduras or Guatemala, those gangs are still going to 
go to little girls and take them. Those gangs are still going 
to go to folks' families and murder them if they don't join the 
gangs, et cetera.
    Ambassador, I agree with you. I think CARSI has done some 
really good things, and it is a long-term proposition. So my 
concern is I just don't see in this proposal, frankly, enough 
emphasis on that security component.
    So I would just ask you, how is this different from Plan 
Colombia and how is it similar to Plan Colombia, particularly 
in the security aspect?
    Ms. Jacobson. I am going to let Bill answer in a second. 
Two things I would say.
    One, Congressman, I would say that in Central America one 
of the things we have learned is, with seven countries in 
Central America, even with the most acute security problems 
being in the Northern Triangle, unless we work with all of them 
and ensure that they are working together, the criminal 
organizations exploit the national boundaries, which we and the 
governments have to abide by but they don't. So it is more 
complicated, and we have to work with all of them, unlike, 
obviously, in Colombia.
    Mr. Diaz-Balart. I agree.
    Ms. Jacobson. The second thing I would say is it is a 
fairly significant increase in the CARSI portion of this $1 
billion. It is $286 million on what is traditionally considered 
security.
    I would argue that, unless we do good governance, delivery 
of judicial systems and policing and courts and penitentiaries, 
all very much part of security, as well as communities that are 
safe and have places for kids to go, which is part of the 
governance and opportunity portions, that is all security. That 
was all done under CARSI. That has increased. So that is new 
and expanded in this program, as well.
    Mr. Brownfield. I would just add one additional point, 
Congressman.
    I mean, you are right. Of course you are right. There is 
going to be no economic growth and social justice if there is 
not security, if you do not have--as President Uribe, who we 
have mentioned several times, frequently would say, until I can 
get state presence, until I can get police officers and 
prosecutors or even mayors to be living in the towns that are 
under threat either from narcotics traffickers, criminals, or, 
in the case of Colombia, from guerillas, we are not going to be 
able to produce the outcomes that we are looking for.
    But as Alvaro Uribe would say, we start with security. We 
have to get to a certain level on security; then we have to 
feed in the social and economic developmental part. And he 
would acknowledge that you start heavy on security. At some 
point, you reach that tipping point, and then you are able to 
ratchet back how much is security and how much is economic and 
social development.
    I am not saying we are anywhere near that point in Central 
America today, but I do say you are correct, the same formula 
will apply.
    Mr. Diaz-Balart. And I don't disagree with you. And it is 
just that, when I look at this, I see, again, yes, there is 
obviously security, and I understand the security component has 
different aspects of it. But I just don't see enough emphasis 
on how to deal with these criminal enterprises. They are 
criminal enterprises. These are drug gangs, narco-terrorists, 
narcotrafficking, you know--and I just don't see enough of 
that. That is my concern.
    So, since I have very little time, have you all been in 
contact with SOUTHCOM--Remember, I have SOUTHCOM in my 
district. How much of this has been put together, the security 
aspect--how much input has SOUTHCOM had? Do you all meet with 
them regularly?
    And, then, is it their plan, is the security coming from 
them? Is it coming from you, Ambassador? Is it coming from you, 
the Department of State? How much of this is SOUTHCOM-driven?
    Ms. Jacobson. Well, certainly, Bill and I meet regularly 
with General Kelly. It is certainly a plan that we worked very 
extensively with the interagency. It was developed by the State 
Department but then got the input of the full interagency--
Department of Justice, Homeland Security, and the Department of 
Defense, including SOUTHCOM.
    And SOUTHCOM has a critical role in this, whether it is 
maritime interdiction, detection, and monitoring, and will be 
very active in it.
    Mr. Brownfield. I will be even simpler than that, 
Congressman. There is almost nothing that I am going to do in 
the region, from the INL perspective, the law enforcement and 
security perspective, that I don't coordinate in some way with 
SOUTHCOM. We are two fingers on the same hand, if you will. And 
there is nothing I will do that General Kelly is not in some 
way, shape, or form aware of.
    Mr. Diaz-Balart. And my time is up. Thank you, Madam 
Chairman. I just do want to emphasize that unless we do have 
serious security, to your point, then everything else is wasted 
money.
    Ms. Granger. Mr. Serrano.
    Mr. Serrano. Thank you, Madam Chairman.
    Secretary Jacobson, it is my feeling that, throughout the 
years, part of our dealings in Central America and anywhere 
south of the Texas border had at times something to do with our 
dealings with Cuba. It had an overflow or just a resentment on 
the part of some folks in those countries.
    Do you think that our present--and I know this hearing is 
about Central America, but it becomes one neighborhood. Do you 
think that our negotiations now with Cuba will have a positive, 
negative, or non-effect on Central America in terms of how we 
are seen and what we can ask of them to do?
    Ms. Jacobson. Congressman, I have said publically since the 
December 17 announcement that it was broadly welcomed by 
countries in the region, and that would include Central America 
and Mexico, that they supported the President's announcement 
and they view the policy decision as very welcome. So I think 
they support that and they view it positively.
    But in terms of our relationship with Central America and 
Mexico, those relations were strong before, and they will 
continue as such. But they do view that very positively.
    Mr. Serrano. And, again, I know, first of all, that we are 
not here to talk about Cuba, necessarily, and, number two, 
there are things you can't tell me even if you wanted to tell 
me. I shouldn't say that in public because Members of Congress 
are supposed to know everything, but there are things you can't 
tell me.
    I see more of a better relationship with all of Latin 
America, I believe, if we straighten out our situation with 
Cuba. So do you think that the latest sanctions we put on some 
on Venezuelan leaders, members of the government, because of 
their relationship with Cuba may hinder our negotiation with 
Cuba, without telling me all the things I really want to know 
about how those negotiations are going?
    Ms. Jacobson. Congressman, I think that the Venezuelan 
Government's reaction to those sanctions was predictable, in 
terms of their wanting that narrative to be about the United 
States and Venezuela, which--the problem isn't about our 
bilateral relationship. It is about problems within Venezuela.
    But I also think that, somewhat, we expected the countries 
in the hemisphere do not like sanctions, and so it was not 
necessarily a surprise that they did not support those 
sanctions. But those sanctions are not against the Venezuelan 
people; they are not against the Venezuelan economy. They are 
against seven individuals.
    I don't really think they are going to have an impact on 
the conversations we are having with Cuba, although Cuba has 
publically rejected that move, as well.
    Mr. Serrano. Right.
    Let me just touch on one last point there, because you 
touched on an important point. It seems that, in both cases 
that I brought up, you said that, on one hand, there was wide 
support from Central America and other places in Latin America 
for the December announcement, and you told me that they don't 
like sanctions against any of their countries.
    So, assuming we reach my dream of seeing full relations 
with Cuba, is Cuba in any position to play a role in making our 
relations with the rest of Latin America easier to deal with, 
or are those separate and apart from our issues with Cuba over 
the last 50-odd years?
    Sometimes I wonder what role would Cuba play as at least 
someone who has--we won't call it an ally; that may shock some 
people--but certainly someone that we are now no longer 
fighting publicly.
    Ms. Jacobson. You know, I think that the influence of Cuba, 
in terms of our own bilateral relationships, is not one that I 
would overstate. I think our relationships with most countries 
are direct, and they are productive in most cases. Where they 
are not very productive, whether it has been Venezuela recently 
or other countries, I am not really sure that Cuba will be a 
helpful country in those relationships.
    I think, at this point, after the 50-year experience that 
we have with Cuba, we take this one step at a time. And I am 
not sure that I can yet view this in a broader context of them 
being helpful beyond just reestablishment of diplomatic 
relations.
    We have seen--and the Colombian Government has been clear 
on their role in facilitating the peace process with the FARC. 
President Santos has said that he believes they have played a 
positive role there, and so we certainly take him at his word 
in that case. And we hope that that proves successful.
    Mr. Serrano. And one very quick, Madam Chairman, one quick 
question.
    This is something I should know but I don't know. Are our 
American territories in the Caribbean, Virgin Islands and 
Puerto Rico, do they fall under a total different, under the 
American flag, situation? Or do they also get included in some 
of the conversations we have with the rest of Latin America?
    Ms. Jacobson. The territories are not, obviously, directly 
part of the State Department's responsibilities----
    Mr. Serrano. Right.
    Ms. Jacobson [continuing]. As they are not independent. But 
we do some coordination work, certainly, with Puerto Rico.
    Mr. Serrano. All right.
    Thank you so much.
    Ms. Granger. Thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    When you get a little older and you start to look back at 
your life, you think about formative moments that penetrated 
your conscience. And one of those for me was the killing of the 
four nuns and laywomen in 1981, as you all recall. I met the 
parents of one of the laywomen missionaries--her name was 
Jean--at an event in Georgetown when I was a young student, and 
I wanted to say something to them, but I couldn't even get out 
the words.
    And so, when you look back as to where we were a few 
decades ago and where we have the potential to be, I think it 
does create some hope.
    Now, with that said, having been in El Salvador fairly 
recently, and having sat next to, in their Congress, physically 
sat in their Congress, next to a woman who is former--landed 
gentry, if you would put it that way, and a woman who was a 
former communist guerilla, and watching them interact, work 
toward solutions from different perspectives philosophically, 
again, is very encouraging.
    But you do get the sense that, because of the wounds in El 
Salvador, their ability to look this way, there is a hesitancy, 
although they look at places like Cuba and Venezuela and say, 
``No, thanks. Those models aren't the right fit either.'' So, 
again, another possibility for some hope.
    Guatemala has a longer stabilized relationship with us, 
and, to a degree, Honduras. But with the highest murder rates 
in the world in Honduras, with incapacity throughout that 
entire triangle, it becomes an important component, I agree 
completely, of our own immigration policy to try to work where 
the origins of the problem are.
    Now, I thought that the bigger request here was going to 
focus primarily on that security component, border security 
component, and mutual security efforts to stop the migration 
and to fulfill what our chairwoman quoted last year, the First 
Lady of Honduras' desires, when she said, ``We want our 
children back.''
    Now, I hear what you are saying in terms of some additional 
complexities in our own immigration law once children have 
arrived here. But I thought that the greater component of this, 
while not in any way diminishing your long-term perspective on 
poverty fighting, capacity enhancement--encouraging this 
current good trajectory of enhanced governance is all important 
and good--I thought the firm resolve was on that first piece 
because of the nature of the problem. One of you said it is the 
gateway now through which we are looking at all of the other 
issues, this surge-of-children problem.
    So can you address that? Because it seems to be packaged as 
a priority rather than an immediate priority, to try to stop 
this flow and protect these children.
    Ms. Jacobson. Well, I am going to ask Bill Brownfield if he 
can address that because I think he, along with Beth, have been 
the ones who have really responded very quickly to the problem 
of last summer and continued to address the issues. Just today, 
we saw the announcement of a new border task force on the 
Guatemalan-Honduran border. So many of the programs we are 
talking about go directly to these issues, including within the 
$1 billion.
    Can I ask you, Bill, to elaborate?
    Mr. Brownfield. Let me start, and then I will pass it to 
Beth.
    Congressman, I arrived at the U.S. Embassy in El Salvador 
in June-July 1981. One of the first cases that I took on--I was 
as junior an officer as you could be. I was a third secretary. 
There is nothing lower than a third secretary in an embassy--
was the investigation of the churchwomen murders as well as the 
murders of the two AFL-CIO labor advisers.
    I believe we actually got the people who did the act of 
murder against the four churchwomen. I do not believe we got 
everyone who was involved in the murders of the two labor 
leaders.
    I mention this to you because by 1984-1985, when we finally 
brought these six members of the National Guard to justice in 
El Salvador, it shook up the system, it shook up the 
institutions, it shook up the nation, because, for the first 
time ever, people who had traditionally been part of the never-
held-accountable club for what they did were being held 
accountable.
    I give you that long preamble because, to a certain extent, 
and as the Ranking Member has pointed out, that is what we are 
trying to do with our security programs in Central America writ 
large today. That is to say, we are trying to get into 
communities and groups of people, whether they are 
businesspeople or whether they are the political elites or 
other elites, and get them to contribute to the solution, which 
is necessary if we are going to first break through the 
security problem, which, in turn, will allow Beth and USAID to 
have the impact that we are all looking forward to in terms of 
the economic and social side of the house.
    Which allows me to conclude by saying what I think we have 
kind of been saying for the last 30 minutes: that it is 
security, and it is economic development. You can't have 
economic development without security, but, at the end of the 
day, you are also not going to get long-term security if you 
don't have economic development.
    Dr. Hogan, over to you.
    Ms. Hogan. Well, I will just quickly say that, as I 
mentioned in my opening remarks, the private sector is getting 
engaged. We have raised $350 million in public-private 
partnerships since 2013----
    Mr. Fortenberry. Okay. Let me interject right quick, 
because I know my time is up. Are we going to mitigate or stop 
the surge of children? A new surge has just started.
    Ms. Hogan. Our intention----
    Mr. Fortenberry. In the short term.
    Ms. Hogan. In the short term, we are mitigating. These 
programs will take time to have the full impact----
    Mr. Fortenberry. And I am not disparaging the fullness of 
the plan. Please understand. But we have an emergency situation 
here, and this is a critical moment.
    Ms. Hogan. Okay. Let me just say quickly that one of the 
things that we did in response to the surge is we invested in 
helping governments develop the reception centers to be able to 
take back----
    Mr. Fortenberry. Correct.
    Ms. Hogan [continuing]. These children and families. And I 
actually witnessed that----
    Mr. Fortenberry. Which, in the midst of this, I touted, by 
the way.
    Ms. Hogan. Oh.
    Mr. Fortenberry. And I think it would be very helpful, as 
you all are talking about this, to pull some of those threads 
out and highlight them, because it is the crisis at the 
moment----
    Ms. Hogan. Right.
    Mr. Fortenberry [continuing]. While we think long term, 
strategically, on the underlying parts of the crisis.
    Ms. Hogan. Will do.
    Mr. Fortenberry. Thank you.
    Ms. Granger. Ms. Lee.
    Ms. Lee. Thank you very much. Good afternoon.
    Let me go back to Cuba for a minute, and I wanted to ask 
our Secretary a couple of things with regard to the upcoming 
Summit of the Americas.
    Now, of course it is no secret that for many, many years I 
have believed that Americans should have the right to travel to 
Cuba, I mean, since the 1970s, you know. I just think that this 
now-50-plus-year policy is what exactly I thought it was then 
it was going to be, and it is a failed policy. So I am pleased 
to see the President with his historic announcement and moving 
toward some semblance of normal relations with an island 90 
miles away.
    With regard to the seventh Summit of the Americas in Panama 
City that is taking place next month, I would like to find 
out--and, Madam Secretary, I know you have led a team to 
Havana, what, once or twice now--twice--to conduct the 
negotiations in terms of renormalizing relations. I just need a 
sense of an update from you with regard to lifting the caps on 
Cuban and U.S. diplomatic staff and on things like housing for 
diplomats and travel, and just where are we in terms of those 
negotiations.
    And then, within the context of the summit, how do you see 
the new move toward normalizing relations impacting the Summit 
of the Americas?
    Ms. Jacobson. Thank you, Representative Lee.
    We aren't there yet. As you know, we are hoping to be able 
to open embassies and reestablish diplomatic relations. That is 
only the first step in a much longer normalization process. But 
in terms of the things that we need for an embassy to run 
normally, having sufficient diplomats there and the ability to 
travel around the country, et cetera, we have not yet achieved 
all of the things that we need. I am still, obviously, 
optimistic about making progress there.
    The summit is coming upon us. I don't know whether we will 
achieve all that we need to open embassies before the summit. 
We will keep working to that, but we are not going to impose an 
artificial deadline. This has to be done properly.
    It is, obviously, the first summit in which Cuba will be 
present, and I think that is an important factor. It is also a 
summit that will have a civil society forum that will meet with 
the leaders for the first time. We expect independent members 
of civil society to be there from all countries in the 
hemisphere. And it is the first time that there will be an 
opportunity for them to be heard by leaders and create a 
permanent forum.
    And, also, there will be conversations on civil society 
participation as one of the themes, as well as democracy and 
human rights. So we think those things are important for 
leaders from Cuba, Venezuela, and other countries in the region 
to hear, as well.
    Ms. Lee. Good. Thank you. And I know many Members of 
Congress will be attending the summit.
    Ms. Jacobson. I hope so.
    Ms. Lee. Yes. I have heard that several Members were, and 
some here on this committee would like to attend also.
    And let me ask Dr. Hogan a couple of questions about the 
Caribbean as a region.
    So often, the Caribbean has not been put in the proper 
place, in terms of our policy, in terms of our foreign 
assistance. And since you have responsibility for the West 
Indies and Caribbean, could you give us a sense of CARICOM, 
where we are in terms of our policy in relations and USAID 
toward CARICOM nations and the West Indies?
    Ms. Hogan. Certainly. I would be happy to.
    In fact, we have just launched a new energy initiative with 
the Eastern Caribbean countries to try to help them look at 
ways that they can have alternative energy introduced into the 
grid. Of course, no island nations are safe from the impact of 
climate change and the frequency of increased and more 
turbulent storms that they get on a regular basis, so we are 
working with them on disaster mitigation and preparation.
    We are also working with them under the Caribbean Basin 
Security Initiative because they, too, have seen a spike in 
crime and violence related to the drug trade. As it goes down 
in one place, it pops up higher in someplace else, and that has 
been the fact that we have seen in the Caribbean. And so we are 
working--similarly to the work that we do in CARSI, we are also 
doing that work in the Caribbean.
    In Jamaica, as well, we have just launched a $10 million 
energy initiative. We know that part of the problem for the 
Caribbean is that they have a very, very high cost for energy 
compared to the rest of the world. So anything that we can do 
to help them conserve energy, find alternative uses, 
alternative sources of energy, and bring down their energy 
costs will help them develop their own economies and their 
security.
    Ms. Lee. Could you get to this committee the dollar amount 
in USAID going to the region, to the Caribbean region, country 
by country and then a total amount?
    Ms. Hogan. Certainly.
    Ms. Lee. Because for many years now I have been a bit 
concerned about our level of USAID and what we are doing. I am 
glad to hear about the energy initiative. But I travel around 
the Caribbean, and I have seen the lack of U.S. presence. And I 
do know China is very active in the Caribbean, and I would like 
to just see what we are doing as compared to what China is 
doing.
    Thank you.
    Ms. Granger. Thank you.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    And welcome to the committee. It is a pleasure to have you 
join us.
    I want to just ask a couple of questions, one of which 
relates to the situation in Argentina that doesn't appear to be 
getting any better to those of us who are concerned about the 
ongoing AMIA investigation are becoming increasingly concerned 
about.
    Obviously, the murder, for lack of a better term, of 
Alberto Nisman puts quite a crimp in the opportunity to make 
sure that we can more specifically get to the bottom of the 
perpetrators. I know that the State Department had offered 
assistance to the Argentine judicial system. Although that 
appears to be in dispute, from the feedback that I have had 
from those who know quite a bit about the ongoing discussions.
    Can you give us an update on if and how the U.S. is aiding 
the Argentine Government in its investigation?
    Obviously, we can't interfere in their internal affairs, 
but the AMIA center attacks were horrific and transnational and 
represent a growing terrorist foothold that we obviously need 
to make sure that we are paying attention to.
    Ms. Jacobson. Thank you very much, Congresswoman.
    And to note that it is 20 years since the AMIA attack. And 
I first did my graduate research on the Jewish community in 
Argentina, did many of my interviews in the AMIA building 
before it was bombed, and so it is very important to us.
    We continue to call for the suspects and those involved in 
the AMIA bombing to be brought to justice. We think that is 
critically important.
    In the case of pursuit of those suspects, we have always 
said that needs to be pursued wherever that trail leads. We 
were skeptical, obviously, of the MOU that the Argentine 
Government signed with Iran. And nothing has come out of that 
over a year afterwards, maybe almost a year and a half or 2 
years. And in the case of Alberto Nisman, we have called for a 
very full and transparent investigation into his death, as 
well. We will continue to do so.
    In terms of an offer of law enforcement support or 
assistance, we almost always offer such support when there has 
been a high-profile crime in countries. It is up to that 
country's government as to whether they want to take us up on 
that offer. But, at this point, I don't know of any U.S. 
involvement or activity in that investigation. And so we will 
continue to be ready to do anything that may be requested of 
us, but that is being undertaken by Argentine authorities.
    But, obviously, the whole issue continues to concern us, 
with no judicial resolution on the matter or resolution for the 
victims and their families.
    Ms. Wasserman Schultz. Is there any hope, now that Alberto 
Nisman is deceased, given that he was found dead the day before 
he was to give testimony that would have shed some important 
light on the case, are there other avenues that we are able to 
pursue to get the same information or the information that he 
had? Or did that information die with him?
    Ms. Jacobson. Well, I think there have been a number of 
others both within the Argentine judicial system who have 
looked at his material, who are making comments about it, who 
are looking into the issues. There are certainly NGOs that have 
been active in taking up the issue. The Argentine organizations 
themselves, the DAIA and others, have been active.
    I think that the case is certainly getting a great deal of 
attention and scrutiny. And we are going to maintain our 
monitoring and our engagement, obviously, through the Embassy 
and our ambassador in Argentina.
    Ms. Wasserman Schultz. Do you feel as though you are 
getting true cooperation from the Argentine Government to get 
to the actual bottom of----
    Ms. Jacobson. Well, it is not a U.S. investigation.
    Ms. Wasserman Schultz. Right.
    Ms. Jacobson. So our ability to, sort of, as you say, get 
to the bottom of it is not----
    Ms. Wasserman Schultz. Rather, do you feel as though the 
Argentine Government is fully engaged in trying to actually get 
to the bottom of the origin of the attack?
    Ms. Jacobson. I have to say, that is difficult for me to 
evaluate from where I sit. I think we will continue to call for 
a full investigation. We will continue to consult with 
Argentine authorities and, most importantly, continue to 
consult with the entities in Argentina who I think are most 
involved, whether it is the DAIA, the Memoria Organization, 
which is the victims organization, and try and see how they 
feel about the way things are going. It is an extremely 
difficult time in Argentina right now, and so we will try and 
get the best information that we can from all sources.
    Ms. Wasserman Schultz. Thank you.
    I yield back.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First, Administrator Hogan, my question 
is about the issue of security. Last fall, the results of a 3-
year study from Vanderbilt University--are you are familiar 
with that study? It talked about the community-level prevention 
programs that are working in El Salvador, Guatemala, Honduras, 
and Panama.
    At the 3-year mark, there were significantly fewer reported 
robberies and murders and extortion in neighborhoods with a 
USAID presence, which is great, as compared to the control 
group of similar communities. Now, residents also reported 
feeling more secure walking alone at night. And they took 
measurably more collective action to address crime and the 
treatment than in control groups. And, again, these are really 
good signs.
    And, as we all know, a good security environment requires a 
lot of attention to detail, including a strong, independent 
judiciary, finding law enforcement that are incorruptible. And 
this Vanderbilt study, which is encouraging, as well, we know 
that crime also, though, moves to where there is opportunity 
and a new level.
    Now, my questions are basically: In areas without a USAID 
presence, how are we going to make sure that the security and 
law enforcement puzzle piece is in place before we spend the $1 
billion on development?
    Ms. Hogan. Thank you for your question.
    And you are right; we can't be everywhere. However, this 
proposal for a new strategy will allow us to at least scale up 
to a level where we think we can have national-level impact, 
provided that the government invests its own resources. And I 
am happy to say that in Honduras they have created a tax, a 
security tax, of which they have given us up to $2 million thus 
far to open additional community centers, which replicates the 
USAID model.
    So, going forward, we know what works, but to expand it to 
the level that is required, it is going to require increased 
investments from us, from governments, from private sector. And 
that is what we hope to achieve.
    Mr. Ruppersberger. Okay. Good.
    Also, one of the points is to build trust between law 
enforcement and community and to develop local community crime-
prevention activities. Can you go into a little detail about 
those programs? Are they in place now?
    Or is that for Secretary Brownfield?
    Mr. Brownfield. Congressman, why don't I take on that one, 
at least----
    Mr. Ruppersberger. Okay.
    Mr. Brownfield [continuing]. To start, and then let Beth 
pick up on that? Because these are the sorts of programs that 
we in INL have been supporting for the last 5 years, 
particularly in Honduras, Guatemala, and El Salvador.
    We have two that we attempt to link up at, kind of, the 
level of kids between about the ages of 12 and 18 with local 
law enforcement. One is called the GREAT Program, which is a 
gang-related program where we have trained local law 
enforcement who offer programs in the schools themselves of 3 
to 6 weeks in duration. And the kids, often for the first time 
in their lives, are actually dealing police officers but on a 
human basis and not on the basis of looking at someone who is 
the force of authority, if you will.
    The second one is the DARE program, the DARE program which, 
by the way, we have it in the United States, as well. That is a 
drug abuse reduction program. Same basic concept of using local 
law enforcement as well as healthcare professionals to bring, 
kind of, drug abuse reduction skill sets to the kids.
    My own view is we have hit about 200,000 in Honduras alone, 
to give you a sense of scale of what we are talking about. And 
they have at least the impact of allowing kids to have 
engagement with law enforcement and police in something other 
than a confrontational sort of situation.
    This is one of the things we would hope to be able to build 
on, as well as, as I was describing in my statement, our place-
based approach whereby Beth and USAID and we and INL combine 
her community programs with our model police precinct programs 
and focus them specifically on individual communities. That is 
what we are aiming for.
    Mr. Ruppersberger. Okay.
    Let me ask you about counternarcotics policies. Do our 
policies interact with related foreign policy goals of 
anticorruption, justice-sector reform, and improving the rule 
of law?
    Mr. Brownfield. In three words, yes, yes, and yes.
    This is to say, one, we cannot and will not, to the extent 
that we are aware of it, work with individuals or organizations 
that have been penetrated, that are corrupt, and that we are 
aware of.
    Second, we do work, for the most part, with vetted units, 
individuals pulled from the existing law enforcement structures 
that are reviewed in terms of their background and then 
polygraphed on a regular and systematic basis.
    Mr. Ruppersberger. Okay. Good.
    Mr. Brownfield. So, at the end of the day, the answer is 
yes.
    Mr. Ruppersberger. Do international regulatory and legal 
constraints limit the U.S. counternarcotics policy, 
potentially, for drug syndicates' foreign safe havens?
    Mr. Brownfield. It certainly complicates it, yes. You can 
imagine that there are some countries in the world, perhaps 
even some within this hemisphere, where it is more difficult to 
get cooperation from them on counternarcotics and law 
enforcement.
    Mr. Ruppersberger. Let me ask my final question. What 
options might be available to prevent such legal safe havens 
from existing?
    Mr. Brownfield. My suggestions would be, first, 
international agreement or cooperation through U.N. or other 
organizations; second, trying to address the issue bilaterally, 
which is to say going at the government of those individual 
countries that offer the safe haven and attempting to reach 
some sort of agreement or accommodation; third would be using 
the stick as well as the carrot, and that is applying something 
in the way of sanctions, whether individual or collective, 
against those governments, those nations, or those individuals 
that provide the safe haven.
    Mr. Ruppersberger. Okay. Thanks.
    I yield back.
    Ms. Granger. Thank you.
    We will have a second round, and I have a question.
    Ambassador Brownfield, last year, you were a witness at our 
hearing on transnational crime, and I asked a question about 
whether the State Department was using DNA forensic technology 
as part of your efforts to support law enforcement. At the 
time, the Department was looking into it. Since then, the 
Committee included $3 million for DNA forensic technology in 
Central America in the fiscal year 2015 Appropriations Act.
    Would you tell us about the type of work you plan to do 
with these funds to strengthen law enforcement capacity in 
Central America through the use of DNA forensic technology?
    Mr. Brownfield. Sure thing, Madam Chairwoman.
    I am pleased to report that there is an academic 
institution located in north Texas which, in fact, has some 
degree of skill and expertise on this issue. We have consulted 
with them several times in terms of understanding what is the 
nature of the science that is available for this purpose. We 
are now engaged in conversations to try to structure what a 
program would look like.
    It is complicated, Madam Chairwoman, because we from INL 
and the State Department can work the external, the foreign 
side of this, which is to say that side that is in Central 
America itself. We need domestic partners--probably CBP, but we 
are still working our way through this--who would work the U.S. 
side, those who are now in the U.S. adjudicatory system, if you 
will. I think we are going to get there.
    My vision, subject to correction by any member of this 
subcommittee, would be that we use the $3 million that is found 
in the fiscal year 2015 appropriations bill to do that part of 
the program that would be linking up potential parents of these 
children downstream in Central America and then find a way to 
use a domestic agency's authorities and resources to link it up 
with the DNA that could be captured from minors, from children 
here in the United States.
    That is where we are right now. We owe you greater detail 
as we work this through with a domestic partner.
    Ms. Granger. Thank you.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Actually, I wasn't going to bring the issue up of Cuba. 
Since a couple of my colleagues did and I have Secretary 
Jacobson here, let me bring it up.
    Narcotrafficking. There are a number of Cuban high-level 
officials who have been indicted by U.S. Federal grand juries 
for narcotrafficking.
    Rene Rodriguez Cruz, who was an official of the Cuban 
intelligence service and a former member of the Cuban Communist 
Party Central Committee, in your negotiations for 
normalization, is his return, his extradition to the United 
States, is that one of the conditions that you are asking for?
    Ms. Jacobson. We will be talking about law enforcement 
issues as part of a dialogue that will take place probably 
after the reestablishment of relations. We are beginning 
separate dialogues with the Cuban Government on a whole range 
of issues, one of which will be deepening the conversation on 
law enforcement, including matters----
    Mr. Diaz-Balart. Well----
    Ms. Jacobson [continuing]. Such as people who are wanted in 
the United States, fugitives and others.
    Mr. Diaz-Balart. Right. And there are about 80 fugitives. I 
mean, there is three or four that are actual, you know, high-
level----
    Ms. Jacobson. Right.
    Mr. Diaz-Balart [continuing]. Regime members who were 
indicted by U.S. Federal grand juris for narcotrafficking. 
There are also fugitives from U.S. law----
    Ms. Jacobson. Right. There are also Americans who have fled 
to Cuba, yes.
    Mr. Diaz-Balart [continuing]. Including in the top 10----
    Ms. Jacobson. Correct.
    Mr. Diaz-Balart [continuing]. Most wanted terrorist list, 
Joanne Chesimard and others.
    So my question is this. So you are going to normalize--
before you are going to demand that these fugitives from 
American law, be returned. Whether it is those who have escaped 
from the United States, which are close to 80, or those who 
have been indicted, who are high-level officials. You can 
understand how some of us are a little taken back when the 
Department of State has gone to the extreme of sending back 
three high-level convicted spies, one of them who had a life 
sentence for conspiracy to commit murder, the murder of three 
Americans, and then went to the extreme of actually 
transporting sperm from a convicted spy. I don't know if, by 
the way, Madam Chairwoman, if you are aware of this. Our U.S. 
Government went to the extreme of transporting sperm from a 
convicted spy, again, who was in prison there for conspiracy to 
commit murder, the murder of three Americans, so that he could 
impregnate his wife in Cuba.
    So we have gone to that extreme of releasing and sending to 
Cuba three high-level terrorists, and that was before 
normalization. That has already been done. And yet, for three 
high-level indicted members, senior officials of the Castro 
regime, that will not be talked about later, or about 80 
fugitives of American law who are there, one of them as far as 
we can tell is even living--or has been living, in the Castro 
compound, again, who is on the FBI's most wanted terrorist 
list.
    You are telling me that that will be brought up after you 
normalize, correct?
    Ms. Jacobson. No.
    I want to be really clear about this.
    Number one, normalization is a long-term process. What we 
are doing now is reestablishing diplomatic relations. Many of 
the things we are going to talk about later, including claims, 
judgments for terrorism, and fugitives and law enforcement 
cooperation will come later as part of normalization but after, 
potentially, the reestablishment of diplomatic relations. These 
are not subjects in which we are having conditions on the table 
right now for reestablishment of diplomatic relations. They 
will be part of normalization conversations.
    Second of all, I want to make clear that nobody transported 
anything for fertility. The State Department issued a visa. The 
rest of this is the Justice Department and the Bureau of 
Prisons.
    Mr. Diaz-Balart. Well, the administration did.
    Ms. Jacobson. But I want to just be clear about that.
    And, third, the three Cubans who returned to Cuba were in 
exchange for an extremely high-ranking U.S. intelligence asset 
who gave us the Wasp Network, Ana Belen Montes, and Kendall 
Myers and his wife--important intelligence knowledge that we 
needed to keep this country safe.
    Mr. Diaz-Balart. Without getting into debate now, Madam 
Secretary, you do know that those were conditions established 
by the regime before. So, in other words, the Cuban regime 
established conditions before they would talk about 
normalization, including the return of those spies.
    And, by the way, the families of the victims were told that 
this would not happen, and so they were lied to.
    But the regime's conditions, preestablished conditions, 
were met by the administration. But the administration, again, 
has not conditioned anything, whether it was the return of the 
three indicted for narcoterrorism or the close to 80 fugitives 
from U.S. law.
    That is something that will be discussed later, which, 
again, leads a lot of us to believe that these negotiations 
are, you know, frankly--it is what Senator Marco Rubio said. 
That is what happens when you send your speechwriter to 
negotiate with intelligence officers.
    I yield back, Madam Chairwoman.
    Ms. Granger. Mr. Serrano.
    Mr. Serrano. Thank you.
    Mr. Diaz-Balart knows the respect I have for him and his 
whole family, but I can't pass up the opportunity to just 
remind ourselves that those negotiations and those discussions 
will also have two sides to it.
    I am sure Cubans will want the return, if that is the 
proper word, of people who have for years been known to be 
living in this country who took part in acts of violence 
against Cuba in the early days and in the 1970s in hotels, 
people, for instance, in Puerto Rico who were preparing 
travels, excursions to Cuba and other places throughout the 
country. That may be part of the negotiations, too. So it is 
not going to be a one-sided thing.
    And you are right, Madam Secretary, that first we 
establish--and the thing that--I hate to say this to a 
diplomat, but the thing you neglected to say is you can't 
negotiate if you don't have relations. You first have to 
establish the relations, and then you can negotiate on both 
sides. And that is going to happen. And I think the Cubans will 
also have claims against us.
    I keep almost half-jokingly mentioning an issue that nobody 
has paid attention to. I am not the brightest guy on the block, 
you know. I mean, there are other people who should have 
thought of this. But, you know, for 50-something years, we have 
been playing Cuban music--and you think, ``Music?''--Cuban 
music in this country, and not a single cent of royalty has 
been sent to anybody who lives in Cuba who have written those 
songs or whose relatives are still living there.
    So this is a long process. You are right. There are 
buildings in Cuba that belong to us, this country, are now in 
the Cuban hands. There are also things that were taken from 
Cuba, like those royalties.
    I will give you a last one that--I have no clue if this is 
true, but I have been told it is true. When the Cuban 
revolution took place, there were a couple of hundred, if not a 
couple of thousand, Cubans working on Guantanamo Base. 
Therefore, they were Federal employees. Those folks, because we 
don't send money to Cuba, when they retired from their jobs, or 
their relatives, never got a penny of a Federal pension because 
we didn't do that.
    So all I am saying is I am backing up your claim that first 
you establish relations, then you do--but I just wanted to 
clear up that this is going to be a two-sided conversation 
because there are claims on both sides.
    Ms. Jacobson. I am ashamed that you had to remind me of the 
value of diplomacy and its definition. It is true that it is 
critical--and this is the point of the President's policy--to 
be able to talk about some of the very things that, I agree 
with Mr. Diaz-Balart, we must try and talk about and get action 
on.
    Mr. Serrano. Right.
    And one last--I can't believe I am going to ask a non-Cuba 
question, but very briefly. The budget for USAID asks for a 
large increase. And so the question here is, are the countries 
that will receive this increase ready to receive this increase, 
ready to put it to work, and ready not to have people who 
believe in austerity telling us we wasted more money somewhere?
    Ms. Hogan. Thank you for the question. I am happy to 
respond.
    In fact, we are designing programs now in anticipation of 
increased resources both in fiscal year 2015 as well as the 
large increase in fiscal year 2016 that we are requesting so 
that we will be ready to work with governments and the private 
sector to absorb those resources.
    You know, this kind of an increase in Latin America and in 
Central America specifically isn't unprecedented. We had a huge 
increase in resources post-peace-process in Guatemala. We had a 
huge increase in resources in the region post-Hurricane Mitch. 
This is another huge increase in resources, but it is shared 
amongst three countries, and it is to build out what has been 
predominantly a security approach to two other lines of action.
    So, taken together, we think that we will be able to very 
ably invest those resources. So much is needed. And we are very 
excited about the opportunities that this request will enable 
both the governments and our own agency to help drive 
development results in a new way.
    Mr. Serrano. My last comment of the day--first of all, 
thank you for the work you do for our country and the service 
to our country. I know it is not easy, but you do it and you do 
it well.
    But, without mentioning names, on one of the subcommittees 
I was a member of, Madam Chair, as a former Secretary of State 
was leaving, we asked that person, ``What do you see in the 
future of Latin America? What big change should we be paying 
attention to?'' What that person said was very unique, said 
that they are going to start electing more and more people that 
look like themselves.
    And that is where you see, in a country like Bolivia, a 
President elected who is part of the majority, the vast 
majority. And we have to learn to go into those countries and 
immediately say, you elected that person, let's see if we can 
work with you before we call you a Socialist or a Communist or 
a friend of Castro or something. And I think we have made the 
mistake to label people too early without realizing why these 
changes have taken place.
    We said, have elections. They had elections. When we don't 
like the result of the election, then we get upset. We can't do 
that anymore.
    Thank you.
    Ms. Granger. I thank the witnesses for appearing before the 
subcommittee today.
    Members may submit any additional questions for the record.
    The Subcommittee on State, Foreign Operations, and Related 
Programs stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 15, 2015.

             UNITED NATIONS AND INTERNATIONAL ORGANIZATIONS

                                WITNESS

SAMANTHA POWER, UNITED STATES AMBASSADOR TO THE UNITED NATIONS

                Opening Statement by Chairwoman Granger

    Ms. Granger. The Subcommittee on State, Foreign Operations, 
and Related Programs will come to order.
    Ambassador Power, thank you for being here to testify. We 
have many important policy and budget issues to discuss with 
you today. I am sure you are ready for that.
    First, I would like to address the recent announcement of a 
framework agreement for Iran's nuclear program. With each 
passing day, conflicting reports emerge about the parameters of 
the deal. I have serious concerns about promises that may have 
been made to lift sanctions on Iran, and I hope you can address 
this issue today.
    The International Atomic Energy Agency has a critical role 
to play in implementing any agreement. Yet, we all know Iran's 
record of cooperating with the IAEA is not good. I hope you can 
help the committee understand why we should have confidence 
that Iran will live up to its commitments this time and allow 
IAEA the access required.
    I am also deeply disappointed by the hostile actions taken 
by the Palestinian Authority to join international bodies over 
the last year. Their steps at the International Criminal Court 
have put U.S. assistance to the Palestinians in jeopardy.
    I am also very concerned about recent statements from 
administration officials that suggest the United States is 
reevaluating its approach to the peace process and reports that 
the U.S. may support a U.N. Security Council resolution laying 
out conditions and establishing deadlines. The administration 
must send a clear message to the Palestinians that the only 
path to statehood is through a negotiated assessment with 
Israel.
    Concerns also remain about the U.N. Human Rights Council. I 
fear that the Council's upcoming report on last year's 
hostilities in Gaza will unfairly criticize Israel's right to 
defend itself. There are Members of Congress who question why 
we should support the Council at all, and I welcome your 
comments on this issue.
    Regarding budget issues, the request includes a significant 
increase for accounts that fund the United Nations and other 
international organizations, approximately 25 percent higher 
than last year. Like many increases in the President's request, 
this one is difficult for me to justify.
    The United States is by far the largest contributor to the 
U.N., and more work needs to be done to ensure that the U.N. 
has its budget under control. For example, U.N. peacekeeping 
costs have skyrocketed. The administration should work with the 
U.N. to phase out peacekeeping missions when possible and lower 
the rate the United States pays for them.
    Madam Ambassador, you have committed to reform the U.N. 
and, as you know, our appropriations bill contains strong 
transparency and accountability requirements. Some progress has 
been made, but many international organizations continue to 
fall short. After all of these years, there is simply no excuse 
for this. I look forward to your thoughts on all of these 
important issues.
    In closing, I want to thank you and the American delegation 
in New York and around the world for the work you do to advance 
U.S. interests.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. And now I will turn to Ranking Member Lowey 
for her opening remarks.

                    Opening Statement by Mrs. Lowey

    Mrs. Lowey. Thank you, Madam Chair.
    Ambassador Power, I join Chairwoman Granger in welcoming 
you today.
    Throughout my time in Congress, I have consistently 
supported robust U.S. engagement at the United Nations. The 
U.N. is instrumental in advancing our national security 
interests around the world and in helping confront terrorism, 
nuclear proliferation, infectious disease, extreme poverty, and 
environmental degradation.
    U.N. peacekeepers protect innocent civilians in some of the 
most war-torn, ravaged parts of the world, trying to bring 
peace and stability for a fraction of what it would cost the 
U.S. Armed Forces to undertake the same mission. Organizations 
like UNICEF, the World Food Program, U.N. Women, U.N. 
Population Fund help reduce poverty, protect children, feed the 
hungry, promote women's political and economic empowerment, and 
improve health standards for millions around the world.
    While the benefits are not always obvious to the casual 
observer, the U.N. delivers real results for every American tax 
dollar we contribute. The United States cannot be the world's 
policeman. As I have said before, no one nation can or should 
address today's global challenges alone. That is why we must 
continue to work together with the world community using every 
tool at our disposal. Unilateral action should be the last 
option, not the first.
    Those who view the U.N. negatively or advocate for reducing 
its resources undermine the U.N.'s effectiveness and limit our 
ability to influence international decisions. Simply put, we 
cannot expect the U.N. to perform if we starve it of the 
resources it requires or if we regard our treaty obligations as 
optional.
    However, like any organization, the U.N. is not perfect. I 
am particularly concerned about its actions with regard to the 
Israeli-Palestinian conflict and comments by the Obama 
administration suggesting a reevaluation of our longstanding 
policy of defending Israel at the U.N.
    Indeed, it was your predecessor, Ambassador Rice, who said, 
when vetoing a resolution on settlement activity, ``It is the 
Israelis' and the Palestinians' conflict, and even the best-
intentioned outsiders cannot resolve it for them.''
    Supporting or remaining agnostic on a U.N. Resolution would 
violate the letter and spirit of the Oslo Accord signed in 
1993, which endorsed the seminal construct of Land for Peace 
through direct negotiations, however prolonged, intense, or 
seemingly intractable they may be. Such a stance at the U.N. 
would also reward Palestinian intransigence and ignore history.
    Madam Ambassador, I hope you will unequivocally assure the 
members of this subcommittee that the administration will do 
everything in its power to stand firmly with our ally Israel in 
opposing counterproductive and reckless U.N. proposals.
    Turning to Iran, in addition to ensuring the strictest 
inspections and monitoring of any facility, one of the most 
critical components of any deal will be the timing of any 
proposed sanction relief and our ability to immediately 
reimpose sanctions should Iran violate any part of the 
agreement.
    Given Iran's history of deception, I would like to hear 
from you that the core of U.N. sanctions will remain in place 
until Iran has taken major nuclear-related steps that 
demonstrate their sincerity. I would also like you to detail 
the mechanisms with which the U.N. could snap back U.N. 
sanctions at any point during the deal and beyond.
    Lastly, I hope you will also update the subcommittee on the 
U.N.'s conflict resolution efforts, such as ending the 
devastating warfare in South Sudan, countering violent 
extremism across the continent, which is all the more critical, 
given the barbaric massacre of Garissa University students in 
Kenya earlier this month.
    With unprecedented levels of human suffering and 
humanitarian needs around the world, I thank you for your 
leadership, your commitment, and passion, and for all you do to 
represent American values abroad. I look forward to your 
testimony.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger. Ambassador Power, please proceed with your 
opening remarks. I would encourage you to summarize your 
remarks so we will have enough time for questions and answers. 
Your full written statement will be placed in the record. We 
expect votes around 3:20.

                 Opening Statement by Ambassador Power

    Ambassador Power. Thank you, Madam Chairman, Ranking Member 
Lowey, and distinguished members of the subcommittee. Thank you 
so much for the invitation to testify today. And thank you for 
the rigor that you all bring in ensuring that America's 
contributions to the United Nations are used to maximum effect 
in advancing our interests and our values in the world.
    As this committee knows and as both of your opening 
statements testify to, we are living in a time of daunting and 
seemingly perpetual global crises.
    In the year since I last testified before this committee, a 
deadly epidemic exploded in West Africa, threatening tens or 
even hundreds of thousands of lives; a monstrous terrorist 
group seized large parts of Syria and Iraq, broadcasting 
beheadings and mass executions on YouTube; and Russia trained, 
armed, and sent soldiers to fight alongside separatists in 
eastern Ukraine, among too many crises to count.
    These are the kinds of threats for which the United Nations 
was created. Yet, they have exposed profound weaknesses and 
vulnerabilities in the international system.
    We have seen a global health system led by the WHO that, 
despite multiple warnings from credible sources, including our 
CDC, was slow to respond to the Ebola epidemic's growing 
momentum. We have seen Russia and China through their cynical 
veto of an ICC referral resolution at the U.N. Security Council 
block a step toward holding accountable a regime that has 
tortured, starved, gassed, and barrel-bombed its own people.
    Representing our Nation at the U.N., I have to confront 
these vulnerabilities every day. But the central point I want 
to make to this committee is that, even taking into account 
these weaknesses, America needs the United Nations to address 
today's global challenges.
    The United States has the most powerful set of tools in 
history to advance our interests, and we will always lead on 
the world stage. But we are more effective when we ensure that 
others shoulder their fair share and when we marshal 
multilateral support to meet our objectives.
    Let me quickly outline four ways we are doing that at the 
U.N. First, we are rallying multilateral coalitions to address 
transnational threats.
    Consider Iran. In addition to working with Congress to put 
in place unprecedented U.S. sanctions on the Iranian 
Government, in 2010, the Obama administration galvanized the 
U.N. Security Council to authorize one of the toughest 
sanctions regimes in the history of the organization. This 
combination of unilateral and multilateral pressure was crucial 
to bringing Iran to the negotiating table and ultimately to 
helping reach a framework that effectively cuts off every 
pathway for the regime to develop a nuclear weapon.
    It is not only on Iran where we have used the U.N. to 
catalyze action on issues where the international community has 
proven unable or unwilling to respond.
    Last September, as people were dying outside of hospitals 
in West Africa that had no beds left to treat the exploding 
number of Ebola patients, we chaired the first ever emergency 
meeting of the U.N. Security Council on a global health issue, 
pressing countries to deploy doctors and nurses, build clinics 
and testing labs, and fill other gaps that ultimately helped 
bend the outbreak's exponentially rising curve.
    Of course, America did not just rally others to step up. We 
led by example, deploying more than 3,500 U.S. civilian and 
military personnel to Liberia, where we helped bring the number 
of new infections down to zero last month.
    Second, we are reforming U.N. Peacekeeping to meet the 
challenges of 21st century conflicts. There are more than 
100,000 uniformed police and soldiers deployed in the U.N.'s 16 
peacekeeping missions, a higher number than at any time in 
history. They have more complex responsibilities than ever 
before. And the United States has an abiding strategic interest 
in resolving the conflicts where peacekeepers serve, which can 
quickly cause regional instability and attract extremist 
groups, as we have seen in Mali.
    Yet, while we have seen peacekeepers serve with bravery and 
professionalism in some of the world's most dangerous 
conflicts, as in the Force Intervention Brigade's success in 
neutralizing some of the rebel groups in the Democratic 
Republic of Congo, we have also seen chronic problems too 
often, including the failure to protect civilians.
    We are working relentlessly to address these shortfalls. To 
give just one example, we are persuading more advanced 
militaries to step up and contribute soldiers and police to 
U.N. Peacekeeping. That was the aim of a summit that Vice 
President Biden convened at the U.N. last September, where 
countries like Columbia, Sweden, and Indonesia announced new 
troop commitments, and it is the message I took directly to 
European leaders last month when I made the case in Brussels 
that peacekeeping is a critical way for European militaries to 
do their fair share in protecting our common security 
interests. This coming September President Obama will convene 
another summit of world leaders to build on this momentum and 
help catalyze a new wave of commitments.
    Third, we are fighting to end bias and discrimination 
within the U.N., an issue both of you have raised. Last year, 
in keeping with a commitment I made in my confirmation hearing, 
I told this committee, ``The United States will stand with 
Israel. We will defend it, and we will challenge every instance 
of unfair treatment throughout the United Nations.''
    We have lived up to that commitment, from mounting a full-
court diplomatic press to help secure Israel's permanent 
membership into two U.N. groups from which it had long and 
unjustly been excluded, to consistently and firmly opposing 
one-sided actions in international bodies. And we will continue 
to live up to that commitment.
    In December, when a deeply unbalanced draft resolution on 
the Israeli-Palestinian conflict was hastily put before the 
Security Council, the United States successfully rallied a 
coalition to join us in voting against it, ensuring that the 
resolution failed to achieve the nine votes of Security Council 
members required for adoption.
    Fourth, we are working to ensure that the U.N, lives up to 
its obligation to promote human rights and affirm human 
dignity, as we did by pressing for the Security Council to hold 
its first-ever meeting on the human rights situation in North 
Korea. We used that session to shine a light on the regime's 
widespread abuses and give a face to its victims, like the man 
who was reportedly chained to the back of a car and dragged for 
some 30 miles in loops around his village simply for trying to 
escape to China.
    In closing, let me stress we take very seriously our duty 
to ensure taxpayer dollars are spent wisely. So when we request 
full support for the accounts that fund the U.N. and affiliated 
organizations, it is with confidence that we are doing 
everything within our power to make the U.N. more fiscally 
responsible, more accountable, and more nimble.
    Since the 2008-2009 fiscal year, we have actually reduced 
the cost per peacekeeper by 18 percent, and we are constantly 
looking for ways to right-size missions in response to 
conditions on the ground, as we will do this year through 
drawdowns in Cote d'Ivoire, Haiti, and Liberia, among other 
missions.
    When we mobilize the U.N. and its member states to tackle 
global threats, we are doing more than just advancing our 
interests. We are enabling protection on U.N. bases for more 
than 112,000 displaced people in South Sudan who fled after 
security forces went house to house killing people based on 
their ethnicity.
    We are rallying the U.N. General Assembly to uphold the 
universal values that America holds dear, as when we convened 
and the U.N. General Assembly convened its first-ever meeting 
on anti-Semitism in January, where more than 50 countries 
condemned anti-Semitism's alarming rise and pledged to take 
steps to stop it.
    And we are not only helping prevent a generation of 
children in West Africa from being wiped out by a deadly 
epidemic, but also making it safe for them to return to their 
classrooms, as happened just yesterday in Sierra Leone, where 
schools reopened for the first time in over 9 months.
    These are the stakes. This is the reason we will continue 
to work tirelessly to make the U.N. more efficient and more 
effective, and this is why we are so grateful for this 
committee's support as well as for its efforts to hold the U.N. 
to the standards that America's security and the great crises 
of our time demand.
    Thank you. And I look forward to your questions.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Granger. I will have the first question.
    Madam Ambassador, one area of the reported nuclear deal 
with Iran that is troubling to me is the removal of all U.N. 
resolutions regarding Iran's nuclear program. The Department of 
State's fact sheet on the parameters of the agreement states 
all past U.N. Security Council resolutions on Iran nuclear 
issues will be lifted simultaneous with the completion by Iran 
of nuclear-related actions addressing all key concerns. The 
lifting of all U.N. Security Council resolutions related to 
Iran's nuclear program strikes me as quite a concession.
    I have questions such as: What is the rationale for the 
immediate removal of such resolution? Can you clarify the 
timing of the removal of sanctions? Exactly what obligations 
must Iran meet under the agreement? Does the promise to remove 
U.N. resolutions include the U.N. Security Council resolution 
that covers the sale and/or transfer of conventional arms and 
ballistic missile technology? If so, how can we credibly assure 
our allies in the region that their deep concerns about Iran's 
nuclear program, as well as Iran's aggression in the region, 
have not been dismissed?
    Ambassador Power. Thank you, Madam Chairwoman.
    There is a lot there. So let me try to take a number of 
those issues in turn.
    First, let me stress a point I made in my opening 
statement, which is how central the U.N. Security Council has 
been to reinforcing what this body and the Executive have done 
in putting pressure on Iran that brought them to the 
negotiating table.
    I do want to distinguish that the sanctions definitely are 
responsible for the kind of economic pressure that Iran faces 
that has caused them to make a very large number of concessions 
that many would not have expected. However, those sanctions did 
not succeed, as you know, in dismantling Iran's nuclear 
program.
    Indeed, before the Joint Plan of Action, the estimates on 
Iran's break-out time were 2 to 3 months. And we are looking at 
19,000 centrifuges and so forth that will have to be now dialed 
back as part of this agreement.
    So, again, the multilateral effects are very real and they 
are why we are in a position, we think, to peacefully and 
verifiably ensure that Iran's nuclear program is for peaceful 
purposes only.
    With regard to your question, I think the most important 
point to stress is that Iran has to take a whole series of 
nuclear-related actions, actions at Iraq, action at Fordow, 
action at Natanz, actions, again, to greatly reduce the number 
of centrifuges down from 19,000 to some 6,000, the kilograms of 
enriched uranium, the quality of that uranium.
    All of those steps have to be taken before anything is done 
in New York and before any additional sanctions relief is 
provided. And those steps will need to amount to us having 
confidence that Iran's break-out time has gone from the 2 to 3 
months, where we are now, to more than a year. And that is, 
again, with those steps that have been outlined in the 
parameters document would bring about.
    So that is going to take some time. The estimates range 
from 6 months to 1 year. But, again, there will not be relief 
on the nuclear-related sanctions until those steps have been 
taken.
    Second, I think, if I may just underscore, that this 
relationship is--excuse me--this framework is not a framework 
predicated on trust. That is why, again, we have to await the 
completion of those steps before you would see Security Council 
resolutions.
    What we would do in New York, if this went forward, is, 
yes, lift the prior resolutions. But we would, of course, need 
to put in place a mechanism for ensuring that many of the 
sanctions remained.
    The conventional arms and the ballistic missile sanctions 
we believe should remain for some time. There will need, of 
course, to be the enshrinement in a Security Council mechanism 
of the nuclear-related commitments that Iran is taking on. And 
we are going to need to create some kind of procurement channel 
such that any acquisitions or purchases that Iran is 
contemplating making that might be dual use would have to get 
approved through this procurement channel.
    So by no means is it the case that, willy-nilly, we look 
and see that a deal is signed and then the Security Council 
sanctions that have been so critical to bringing us to this 
place simply melt away. Quite the contrary. We are looking at a 
phased approach and, again, one that we think leaves us in a 
much stronger position to ensure Iran's--the peaceful nature of 
Iran's nuclear weapons program.
    And if I left out any part of your question, please----
    Ms. Granger. I will come back to it.
    Mrs. Lowey.
    Mrs. Lowey. Thank you again.
    And thank you for your service.
    Since 1948, the United States has been a steadfast defender 
of the State of Israel at the United Nations. I am troubled by 
recent reports and press statements by the administration that 
the United States would ``reevaluate our approach,'' which 
could signal a shift in position at the United Nations. I 
believe it is in our national security interest that the United 
States unequivocally continues to stand by our democratic 
partner, Israel.
    Is it still the position of the administration to veto one-
sided anti-Israel resolutions at the U.N.?
    Ambassador Power. Thank you, Congresswoman.
    I have worked tirelessly, Ambassador Rice has worked 
tirelessly, our predecessors in this job have worked 
tirelessly, to defend Israel's legitimacy and its security at 
the United Nations, and we will absolutely continue to do that.
    When there was a discussion about reevaluation, I want to 
be very, very clear that there was no contemplation and will 
never be a contemplation of reevaluating our deep security and 
deep partnership and friendship, relationship, with the State 
of Israel. As you know well, the military, the security, and 
the intelligence ties are as deep as ever.
    We have just in the same period that there have been some 
comments made in the public have achieved things working with 
the State of Israel in the United Nations that many would not 
have thought possible, such as something I mentioned in my 
opening statement, which is the first-ever General Assembly 
session dedicated to combating anti-Semitism, which occurred in 
January.
    So, too, of course, we just last fall opposed 18 U.N. 
General Assembly-biased and one-sided resolutions against 
Israel. And, indeed, in December, as you know, not only did I 
vote no on a hastily produced, one-sided resolution, but, also, 
I and Secretary Kerry and the President were able to mobilize a 
coalition to join us. So we will, again, continue to work 
extremely closely with Israel in New York.
    And, you know, as you know well, we have a record of 
standing when it matters for Israel. I think the one thing that 
is important to point out is there have been occasions, such as 
last summer during the Gaza crisis, where we worked with the 
State of Israel itself and our Israeli colleagues in New York 
on a Security Council resolution, and that never came to pass. 
It never actually came to a vote because we were not able to 
secure sufficient support for it across the Council.
    But, again, we will look to see what will advance Israel's 
security and what will advance peace in the region and stand, 
again, consistently for Israel's legitimacy and security.
    Mrs. Lowey. I appreciate your comments.
    So the language that was repeated in several print reports, 
``reevaluating our approach,'' what did that mean?
    Ambassador Power. Well, again, to distinguish a couple 
aspects of this, we and our predecessors and, I think, all of 
you have long supported a two-state solution achieved through a 
negotiation process.
    Because of some of the comments that were made in the 
election period, it wasn't clear--and I will note, also, some 
of the actions of the Palestinians as well, of course, which 
were alluded to you in your opening comments--it isn't clear 
what the prospects for those negotiations are.
    So our objective, as an administration, again, which I 
assume is a shared objective, is: What can we do to defuse 
tensions? What would it take to get those negotiations back on 
track?
    And so those are the kinds of questions President Obama is 
asking. And as the new Israeli Government comes together, we 
will be in close contact with our Israeli friends to think 
through again what would lead us to the destination that we all 
agree is in the interest of both the Israeli people and the 
Palestinian people, which is the achieving of a two-state 
solution through a negotiated process.
    Mrs. Lowey. I appreciate those comments.
    Certainly, as long as I have been in Congress, I have been 
hopeful that there would be a two-state solution through a 
negotiation process. That is why it was so disturbing when the 
administration made that statement, that they were reevaluating 
their position at the United Nations. I am hoping, as I hear 
you, you are walking back that position and that position is 
not the position of the administration.
    Ambassador Power. What I am saying is that we are looking 
at how we can support what we have long supported, which is 
efforts to secure a two-state solution. And in order for a two-
state solution to come into existence, the parties will have to 
reach agreement with one another. Absolutely.
    Mrs. Lowey. I wanted to make that absolutely clear. Because 
the history is clear, if you go back to Oslo and Taba and all 
the very serious negotiations. And in many of them, it was the 
Palestinians that walked back and walked away, as you know, 
whether it was President Clinton or President Bush.
    I do hope that in our lifetime we can see a two-state 
solution that is negotiated with both parties and we can see 
peace in that region of the world. So I thank you very much for 
your comments.
    Ambassador Power. Thank you, Congresswoman.
    Ms. Granger. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much.
    Ambassador Power, good to see you. In this administration, 
you tend to be, sometimes the lonely voice in speaking up for 
human rights around the world, and I commend you for that.
    I have a couple of specifics. Last week in the Summit of 
the Americas in Panama, a group of Cuban pro-democracy 
activists, as well as a number of American citizens, were 
attacked by, among others, the head of the Cuban Intelligence 
in Venezuela, Colonel Alexis Frutos Weeden.
    By the way, after the attacks, the U.S. citizens were the 
ones detained. I have a picture here, Madam Chairwoman, of this 
colonel attacking an American citizen. By the way, there are 
multiple videos that show that it was not a fight. It was an 
actual attack, it has been shown already and expressed by the 
press.
    So this is the head of Cuban Intelligence in Venezuela 
attacking a U.S. citizen. This picture is of two individuals. 
The one with the two black eyes is an American named Gus Monge. 
The other woman is a woman from the Damas de Blanco, the Ladies 
in White, named Leticia Ramos. They were among the attacked.
    And, again, here we have a picture of the Americans and the 
Cubans who were accompanying them who were the ones who were 
detained for being attacked.
    Here is my specific question. Now, that we know that it was 
members of the Cuban regime who attacked these folks, 
unprovoked, and now that we know that there are multiple videos 
showing that, what specifically is the United States going to 
do to hold the Cuban regime accountable for this egregious 
attack on American citizens--violent attack on American 
citizens and Cuban activists in Panama?
    Ambassador Power. Thank you, Congressman. And thank you for 
being so outspoken on human rights in Cuba and well beyond.
    Let me just say that, while I know that there are 
differences of opinion up here on some of the moves that the 
Obama administration has made with regard to Cuba--it is 
probably an understatement--we do sincerely believe that the 
engagement we now have with this regime is going to give us 
more leverage over time. That said, the human rights conditions 
in Cuba remain deeply disturbing.
    Mr. Diaz-Balart. Madam Ambassador, my time is so limited. 
Specifically, we had Americans attacked, violently attacked. I 
showed you that. We know who attacked them. We have videos that 
show that they were attacked.
    What specifically is the United States going to do to hold 
accountable those in the Cuban regime who attacked U.S. 
citizens?
    Speaking of leverage, now, supposedly, we have more 
leverage. All right. What specifically are we going to do? What 
are we doing to hold those folks who attacked Americans? I 
don't remember, I am sure it happens, but it is rare when 
Americans are attacked by folks from another embassy where we 
have videos. What are we going to do to hold them accountable? 
What are we doing?
    Ambassador Power. Well, first of all, I would welcome the 
facts that you have, which I don't have the details that you 
have. I did myself issue a statement, as, I believe, did the 
State Department, on the attack when it occurred.
    Mr. Diaz-Balart. And we can usually count on you doing 
that, and I am grateful for that.
    Ambassador Power. But I think, again, we now have channels 
in which these issues get raised. We are in a process of 
normalization. Right? We are not going from zero to 60 
overnight. We are in constant dialogue with you. We are in 
constant dialog with Cuban civil society.
    So, again, as this process moves forward, it is our job to 
show those individuals who exercise their peaceful rights that 
we have their backs, that we will defend them, and that we will 
raise incidents like this, again, through every channel that we 
now have with the Cuban authorities.
    I will have to take back the question on this specific 
incident----
    Mr. Diaz-Balart. Please, Ambassador.
    Ambassador Power [continuing]. On basis of the limited 
details that you----
    Mr. Diaz-Balart. Please, Ambassador, very briefly in the 30 
seconds that I have.
    In July, a ship sending elicit arms to North Korea was 
captured, was intercepted in Panama. You have been very vocal 
on that.
    What are the consequences for the Castro regime for sending 
elicit arms in violation of the U.N. Sanctions to North Korea?
    So far, the consequences have been a meeting with the 
President of an hour, even though the President didn't meet 
with the Prime Minister of Israel when he was here, but he 
spent an hour with the dictator of Cuba and his family. So far, 
the consequences of the North Korean shipment or of all these 
other atrocities has been recognition, normalization.
    What specifically are we going to do to make sure that the 
Castro regime is being held accountable for shipping elicit 
arms to North Korea?
    Ambassador Power. Well, as you know, that incident occurred 
before the normalization process was announced in December. So, 
again, I think it does highlight that the--in the prior--with 
the prior administration's policy--this administration's prior 
policy in place, we still were----
    Mr. Diaz-Balart. Except the negotiations have already taken 
place, Madam Ambassador.
    Ambassador Power [continuing]. Incidents along the lines 
that you are describing.
    In New York, what we have done is condemned Cuba for its 
involvement in that incident. We have secured something that 
sounds very bureaucratic and technical, but in my world is 
important, which is an implementation notice out of the actual 
Sanctions Committee which documents Cuba's role in this, which 
is something they and the other parties involved strongly 
objected to. Our challenge, as you know, is the nature of the 
Security Council and the permanent memberships and those who 
stand in the way of more significant action.
    But, again, these are precisely the kinds of incidents that 
we will not change our response to. We will continue to work 
through the Sanctions Committee. We will continue to speak out. 
We will not pull our punches on violations of international 
law.
    Mr. Diaz-Balart. Ambassador, thank you.
    Thank you, Madam Chairwoman.
    Ms. Granger. Ms. Lee.
    Ms. Lee. Thanks very much.
    Good to see you, Madam Ambassador.
    Ambassador Power. Good to see you.
    Ms. Lee. Let me just follow up with regard to the 
discussion you were having with our ranking member and just 
agree with her that I believe that the two-state solution is 
the only option that is going to achieve peace and security in 
the region and, also, for the United States.
    I also know--well, let me just say I have legislation, 
actually, that I have introduced for several years now calling 
for Congress to go on record supporting a two-state solution 
and the peace process.
    Having said that, I want to make sure we are clear that it 
is important that both sides, Mr. Netanyahu and Mr. Abbas, 
agree that a two-state solution is the ultimate outcome and 
achievable and what they are seeking, also.
    And I know during the last few months, we have had some 
dialogue back and forth with regard to whether or not Mr. 
Netanyahu wanted a two-state solution and this process to move 
forward. So I hope that this chain of events that has taken 
place since then, that we are back to now agreeing that the 
Palestinians and the Israelis deserve a two-state solution and 
that we are going to encourage that to continue.
    And I think that the U.N. is going to be very important in 
your role in that. But I do know we have a little bit of 
history on what took place as it relates to a concern about 
whether or not the two-state solution was still a viable option 
in both parties' policy as well as throughout the region.
    Now, let me just thank you for a minute with regard to 
working with us to secure the contribution for the permanent 
memorial at the United Nations in honor of the victims of 
slavery and the transatlantic slave trade, which this committee 
supported. It is really important that the United States and 
the United Nations represented us at the unveiling on March 25.
    So I have to thank you, Ambassador, for that and, also, 
Ambassador Michele Sison, for ensuring U.S. participation. The 
African American community is deeply appreciative of the 
involvement of our country in that transatlantic slave trade 
memorial.
    Boko Haram. You know, this is--1 year now marks the 
kidnapping of over 200 Nigerian girls. Now, having said that, 
there are over 800,000 girls that have been abducted from their 
homes in Nigeria totally. It is very important that the U.N. 
continue its involvement and the United States.
    We supported the U.N. Security Council's resolution calling 
for adding them to the sanctions list. Congressman Honda and 
Pittenger and myself, we sent you a letter and we asked that 
they be included. And you did. And I guess these recent events 
now have shown us that we have got to do more.
    So I am wondering what the United Nations is doing and what 
we could do to support the international community to address 
the kidnapping of these young girls and Boko Haram's horrific 
actions in Nigeria, but now also their connection to ISIS and 
what you see as the next steps.
    Ambassador Power. Thank you, Congresswoman Lee. And thank 
you for your leadership on the slavery memorial, which is 
important not only, as you know, in commemorating the horrors 
of the past, but also because of the very real occurrence of 
slavery in the present, including, probably, the fate of the 
girls and how they are living, those that are still in the 
presence of Boko Haram or being coerced by Boko Haram.
    On Boko Haram, in brief, bilaterally, as you know, we right 
from the beginning offered up intelligence and other 
assistance--basically, any assistance the Nigerian Government 
wanted in order to respond to Boko Haram's capture not only of 
those girls, but, also, Boko Haram's rampage through the 
northern part of Nigeria.
    We have also been very supportive of the regional--the so-
called multinational task force that has come into existence 
now with Chad, Cameroon, Niger, and Nigeria, trying to actually 
contest Boko Haram militarily. We recognize that it is not a 
military solution alone, of course, because the governance 
issues and the economic deprivation in northern Nigeria is 
going to need to be addressed over time.
    It is similar--you mentioned ISIL. They have, of course, 
proclaimed allegiance to ISIL. Similar to our anti-ISIL 
efforts, you need all the different lines of efforts on 
messaging, on cutting off financing. And, again, there needs to 
be a military component.
    Because of the election in Nigeria, we see ourselves now at 
a crossroads where this effort can be ramped up significantly. 
The President-elect Buhari has committed himself. He made this 
a campaign issue.
    And we are hopeful that, with Nigeria determined to tackle, 
again, the underlying issues in the north, but most 
specifically to find out where the girls are, not just the 200, 
but what could be many more than that, and not just girls, but, 
of course, boys who were pulled out of classrooms and shot in 
the head just for wanting to learn--Boko Haram meaning 
education is forbidden--but with Nigeria at the core willing to 
help resource this with our support bilaterally and for the 
force itself and with our, again, continued messaging that it 
needs to be military, but, also, a whole set of other steps to 
be taken, that we can move into a new phase.
    Just recently, in the tail end of the election season in 
Nigeria, Nigeria began to step up its involvement in the north 
and Boko Haram is on its heels far more than it has been. But 
until they are eliminated entirely, no boy, girl, or citizen in 
that part of Nigeria or now into Chad and Cameroon and Niger is 
safe.
    Ms. Lee. Thank you very much.
    Ms. Granger. Thank you.
    Mr. Rooney.
    Mr. Rooney. Thank you, Madam Chair.
    Thank you, Ambassador. And I want to say personally I 
appreciate your work in the past with issues dealing with 
Northern Ireland. As somebody who worked for Seamus Mallon back 
in the old days for the SDLP, it is much appreciated.
    I want to follow up with something that Congressman Diaz-
Balart brought up. One of the big issues that I think is 
important for any Cuba normalization process--and I wanted to 
get your take on whether or not you think it is part of it--are 
the constituents that came from Cuba that have property claims 
felt like, when they left, they would be returning in short 
order and weren't able to because of the Castro regime seizing 
their property.
    Part of the normalization process, in my mind, I think is 
property claims--land, homes, businesses. Is this going to be 
part of any negotiation for normalization for Cuban exiles in 
Florida who are still alive and believe that, once the Castro 
regime would fall, that they would be able to reclaim that 
property?
    Ambassador Power. Thank you, Congressman.
    Let me say that we are now at the very early stage of the 
normalization process. And so the dialogues that we have begun 
are dialogues on whether or not we can establish diplomatic 
relations, dialogues incumbent--necessary in order to establish 
diplomatic relations to reopen embassies, perhaps.
    And we have started substantive dialogues in talking about 
issues like trafficking in persons, which we were just 
discussing, communications, telecommunications, information 
exchanges, et cetera. But we absolutely believe that these 
channels need to be used to push issues that are of concern, of 
course, to American citizens, to people living in this country.
    That includes human rights, which we spoke briefly about. 
It includes property claims and property--efforts at property 
restitution. There are issues of U.S. fugitives who are present 
in Cuba that we can't ever forget about and need to work 
through a law enforcement dialogue.
    So, again, we are at an early stage, but nobody is losing 
sight, again, of the needs and the demands of American 
citizens.
    Mr. Rooney. I know one of the arguments is like, ``Well, we 
do certain business with China and other countries that are 
communist''; but I think that what is lost in the whole 
dialogue is that we have constituents in our State, in our 
districts, that come to us and ask us and beg us to address 
this issue. And, you know, Mario obviously is much closer to 
this than I am. But it is so much more real than just doing 
business with countries like China, and trying to compare those 
two things is just wrong.
    One of my other questions I had is kind of a political 
question, but I am just curious. How is your job affected by 
the policy positions that the President takes, whether it is 
with regard to Iran, Russia, what have you, and the other 
people that you deal with, knowing that whoever the next 
President is going to be, whether it is Hillary Clinton or 
somebody on the Republican side, might do things differently? 
Do you get a sense that people sort of hedge their bets or do 
you just have to go with what you have right now and that is 
the reality that you live in? Do you do any kind of future 
planning?
    Ambassador Power. Well, I think, like my predecessors who 
would have been in similar situations, living through the 
beginning now of the presidential election cycle, we have to do 
just what is in the interest of the American people.
    And the U.N., in particular, if we are to reform, let's 
say, peacekeeping and deal with sexual assault by peacekeepers 
or deal with peacekeepers who duck and cover instead of 
protecting civilians, we have to make investments now that may 
not even see their full return, you know, until 2 or 3 years 
hence.
    But I think there is a certain continuity, again, in the 
commitment that Americans have to defending Israel's legitimacy 
and security within the U.N. I think we have something 
resembling a bipartisan coalition that recognizes that we are 
in a stronger position when we have paid our dues and when we 
are leading from a position of strength. And so that is 
something the Obama administration has been able to--working 
very closely with this committee, has been able to ensure.
    And there is such a great commitment on the part of the 
American people, including constituents, off in places you 
wouldn't always expect, to atrocity prevention, to trying to 
counter monstrous entities like Boko Haram or Daesh.
    So, again, things happen far more slowly than I would like 
at the U.N., in part because we have got to herd the cats of 
193 countries or, in the case of the Security Council, 15 
countries. And so we need to just keep plugging along on the 
reform agenda, on the strengthening peacekeeping agenda, and on 
the--again, defending Israel's legitimacy and security.
    And I hope that, whatever happens in November 2016 or in 
January 2017, that we have left a stronger U.N., that our 
interests are better advanced within the organization, and then 
we hand off the baton to somebody who is running quickly and 
will carry that cause forward.
    Ms. Granger. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you.
    Ambassador, thanks for being here today.
    I am going to change to threats worldwide, global threats. 
And I think one of the most severe threats that we deal with, 
other than the issue of weapons of mass destruction and issues 
such as terrorism, is cyber and what is happening in the world, 
whether it is attacks like China, as an example, stealing 
billions of dollars--another country, Russia--from United 
States and other countries, including a lot of our allies, but, 
also, the destructive attacks, which was really Sony, the first 
time we had a destructive attack in the United States.
    I am wondering, from a United Nations point of view, 
dealing with all these countries, where is the status of the 
cyber issue? Have we taken a position on how to deal with this 
problem as far as cyber is concerned? And if, in fact, we are 
able to prove or the United Nations--and I don't know what 
mechanism that would be--that we can show that certain 
countries like a North Korea or someone would make those 
attacks, would the United Nations be in a position to introduce 
sanctions in order to punish or use as a deterrent?
    Ambassador Power. Thank you so much for the question.
    Let me start by agreeing wholeheartedly with the premise 
that cyber threats are one of the most serious national 
security threats that the United States faces and it is 
something that we are seeing now take effect around the world. 
Even the Vatican's Web site, apparently, was hacked just over 
the last couple days.
    Mr. Ruppersberger. It is going to keep happening all over 
the world.
    Ambassador Power. It is going to keep happening.
    So I think what you saw, of course, in response to the 
horrific North Korean attack on Sony is that we moved out with 
a very strong executive order, so a unilateral action within 
our own capability.
    I went door to door in New York to my Security Council 
counterparts and made it very clear that this was not something 
that one could consider sort of off to the side as something--
that it was something that actually had the kind of economic 
and even physical effects of a more conventional attack, I 
mean, insofar as Sony being shut down. Of course, there was 
also the coercive part of that.
    I raised this issue in the Security Council in the session 
I mentioned that we convened on the human rights situation in 
North Korea because, usually, the human rights atrocities that 
a regime is committing is also a canary in the coal mine in 
terms of other threats of this nature.
    So we are looking, I think, at what the next step is to 
ensure that other countries, again, see this as being a threat 
of comparable gravity at times, again, to the more traditional 
attacks that the U.N. is used to dealing with.
    We are not there yet. I mean, it is not the case that we 
could move swiftly in the Security Council, particularly given 
the presence of the permanent members who might resist this, 
again, to get people to see this like other kinds of attacks. 
But we are moving out with information-sharing, with technical 
advice as to how countries and companies around the world can 
strengthen their defenses against these kinds of attacks.
    And now that we have just put in place the cyber executive 
order, which goes well beyond the attacks carried out by North 
Korea, I think that is something that we will seek to multi-
lateralize both within the U.N. framework and then, of course, 
through regional cooperation agreements.
    Mr. Ruppersberger. From your role as Ambassador to the 
United Nations, give an example of China. China has been 
stealing billions of dollars from our country and other 
countries throughout the world.
    The good news for the United States--because a lot of that 
information was classified--a company called Mandiant was able 
to show the connection between the Chinese Government and their 
military and a lot of these attacks. And Mandiant's customers 
were The New York Times, Washington Post, major companies.
    And we had the information, but, yet, it is important that 
we also continue to have a relationship with China because of 
who they are, how powerful they are, the fact that we owe them 
a lot of money, but we still--you know, need to deal with them. 
And I think the best way to deal with China is through commerce 
and that that hopefully will pull us together.
    From your role and knowing, as an example, the evidence 
that we have with respect to China and your role in the United 
Nations, how would you handle the Chinese situation, as an 
example?
    Ambassador Power. The Chinese situation----
    Mr. Ruppersberger. Attacking us, we had the evidence that 
they attack us. What we need to do is to get China to grow up 
and get other countries to help us with a global type of system 
to handle these cyber attacks, because they are literally 
stealing from countries all over the world trade secrets, that 
type of thing. It has been estimated that in the United States, 
there are over a billion dollars stolen every year.
    How do you see that in the framework of your job as the 
Ambassador to deal with this at a global level? Because it is 
the only way in the end. We can have our laws and try to do 
that in the United States, but it is not going to stop if we 
don't deal with the global issue and have sanctions or some 
type of deterrent to have these other countries deal with it as 
well.
    Ambassador Power. Yes. So let me start by saying that, 
again, I think the bilateral tool that we have now put in place 
through this executive order--the cyber executive order can be 
really impactful because, when there are significant harms 
carried out by either companies or government institutions or 
private hackers who have government affiliations, this is a 
tool that we can use in order to hold accountable, punish 
people who do that, and deter and, indeed, incapacitate, deny 
their access to resources that they might use in order to sort 
of strengthen their arsenal in these aggressive actions.
    The challenge, which I alluded a little to implicitly 
before, in terms of U.N. Security Council action is that China 
is a permanent member and a veto holder. So our ability to move 
beyond the bilateral through the Security Council turns on 
China's willingness to support such an effort.
    Mr. Ruppersberger. My time is up. But I would suggest that 
we really focus on this as a high priority, especially within 
the Security Council, on these countries that are cyber-
attacking other countries throughout the world.
    Ambassador Power. I agree with that.
    And if I may just add one point, just because we may not be 
able to move an enforcement action through the Council does not 
mean we can't use the bully pulpit of the council or use that 
forum in order to raise the alarm either about one country's 
actions or about the threat as a whole.
    Mr. Ruppersberger. Thank you.
    Ms. Granger. Thank you.
    Mr. Dent.
    Mr. Dent. Thank you, Madam Chairwoman.
    Good afternoon, Ambassador Power.
    I would like to return this discussion to the Iranian 
nuclear negotiations for a moment. Secretary Kerry and others 
in the administration have said that enhanced sanctions at this 
point, if they were to be imposed by Congress, would not be 
realistic because our negotiating partners really are champing 
at the bit to do business with the Iranians. Yet, we are told 
that sanctions will snap back in the event that there are some 
kind of major violations of this agreement.
    Now, it seems to me like that is wildly unrealistic. How 
could we expect sanctions to snap back at a time when we know--
it seems that the Russians right now are lifting their 
sanctions by selling these anti-aircraft missile systems to the 
Iranians, which would basically prevent the United States or 
other nations from enforcing a nuclear agreement if the 
Iranians were to have violated it.
    So the question is: Do you think it is realistic that 
sanctions would snap back in the event of a serious violation, 
given the Russians and the U.N.? I mean, I can't imagine they 
would support us on this.
    Ambassador Power. It is an excellent question. It gives me 
an occasion to respond to one of Congresswoman Granger's 
questions or issues she raised in her opening statement. So let 
me try to take a clean shot at this.
    First, let me distinguish the two kinds of sanctions that 
we are talking about here and that have brought Iran to the 
negotiating table. The first are the very significant bilateral 
sanctions that we have brought to bear, including Congress's 
licensing and the Executive's use of secondary sanctions 
against those countries doing business with Iran.
    Those are extremely important. And they were reinforced and 
amplified by one of the toughest multilateral sanctions regimes 
in history, which was achieved over the course of several 
resolutions up in New York.
    So it is, I think, implicit in your question. But just so 
everybody is on the same page, of course, we will retain as the 
United States the U.S. sanctions architecture as we see the 
extent to which this deal is implemented, as we see inspectors 
seeking access to sensitive sites and whether or not they are 
able to secure that access. In other words, we retain a huge 
amount of power and snap-back capability ourselves well beyond 
the U.N. Security Council.
    Mr. Dent. You think those snap-back sanctions will be 
effective without our international partners?
    Ambassador Power. Well, particularly because we have the 
ability to put in place secondary sanctions and because so much 
of the world's business occurs in U.S. dollars and because so 
many companies want access to U.S. markets, I do.
    But I think your question on the second layer, which is the 
U.N. Security Council, is still very important. And I want to 
assure you that we are not going--we are going to secure an 
arrangement to allow for snap-back in New York that does not 
require Russian or Chinese support.
    So we are not looking at a situation where, in order to 
snap back, we would have to do a separate new resolution along 
the lines of what we did in 2010 because we recognize that 
today's Russia, frankly, is a different Russia than that in 
2010 and we want to retain this authority and this capability, 
again, within our own power.
    Mr. Dent. So you are saying to me that snap-back sanctions 
on our part would be effective--given Ayatollah Khamenei recent 
comments about the framework, which are completely 
contradictory to what we are saying publicly, why would not 
enhanced sanctions, if we were to impose them now 
congressionally--why would they not have an impact, but snap-
back sanctions would?
    That is where I am having a big disconnect. If we passed 
enhanced sanctions by Congress, we were told, ``This is 
unrealistic. It won't work. Our partners won't support us. We 
will be isolated. We will be on our own,'' yet, at the same 
time, if the Russians and the Chinese won't participate in the 
snap-back sanctions, our sanctions--our enhanced sanctions will 
somehow be effective--I don't understand. I feel like I am 
hearing two different----
    Ambassador Power. There is a very clear answer to that.
    Right now Iran is in compliance with the JPOA. The IAEA 
has--people have expressed, including earlier, a lot of 
skepticism about the IAEA's ability to verify. It has been 
granted the access it needed to verify. In the one instance, it 
raised an issue with Iran of concern. Iran addressed that 
issue.
    So you are looking at a JPOA that has been respected and, 
thus, the idea of imposing sanctions at this point would seem 
very much at odds with the recent--recent only--but the recent 
track record to distinguish that then from the scenario that we 
were talking about earlier, which is a snap-back scenario, 
which is when Iran is in violation of any future comprehensive 
agreement.
    And that violation would be clear by virtue of the fact 
that either IAEA gets the access it needs, reports that Iran is 
carrying out the nuclear-related steps that it has pledged to--
these are very different scenarios.
    Mr. Dent. I see my time has expired. I just want to 
conclude with is, it just seems to me that our Russian partners 
seem to be sitting on the other side of the table right now, 
given what I just learned about what they are selling to the 
Iranians now, and I just don't have a whole lot of confidence 
that the U.N. is going to be an effective partner with us at 
this point in the event that there is a violation, given that 
the Russians seem to be allied and partnered with Russia not 
just on this issue, but many other issues. They are trying to 
undermine our power and influence everywhere in the world, 
including in the Middle East.
    Ms. Granger. Thank you.
    Mr. Serrano.
    Mr. Serrano. Thank you so much.
    And thank you, Ambassador, for being here with us and for 
the work you do in your service to our country.
    I am sorry that my colleague from Florida left, my other 
colleague from Florida, because I wanted to make a statement 
before I ask a question. And that is that, in negotiating with 
Cuba, it is going to have to be a game of give-and-take 
because, yes, we have claims on the Cuban Government.
    There are Cuban Americans who feel they have lost property. 
Whether they abandoned that property or not is a question that 
has to be settled. There are American corporations that lost 
property in Cuba rightfully--not rightfully--but they did 
actually lose the property, and that has to be settled.
    But then I always bring up something that makes people 
sitting in your chair at different hearings kind of scratch 
their head because, in all honesty, most people hadn't thought 
about it, and I hadn't thought about it for years. And that is 
that one of the most popular types of music in this country is 
salsa music. And salsa music, anybody who is into music knows 
that it is a New York creation of many Cuban rhythms.
    And for years what we have been dancing to and listening to 
in salsa was compositions and arrangements that belong to 
Cubans in Cuba who may no longer be alive, but whose relatives 
are alive, and not a penny was ever paid in royalties to them.
    And I have spoken to some people in the business who tell 
me we could be talking about hundreds of millions of dollars, 
if not more. And when you see a movie and you see Latin music 
in the background, chances are it was something written in Cuba 
by someone who didn't leave Cuba, who stayed in Cuba, and never 
got a penny. So those discussions are both-sided.
    Then you have the issue, yes, there are people living in 
Cuba that this government would want over here for allegedly or 
actual crimes that were committed here. But the Cubans have a 
list of people who are hanging around the 50 States and the 
territories who they claim have sabotaged and done other things 
in Cuba.
    So my whole point is that it is not a one-sided issue. 
These negotiations will continue to be very delicate because we 
have claims on them, but they have claims on us, too. And some 
artists are going to come into a lot of money, except there are 
no records of how much we owe them.
    But I just wanted to do--ask you one question because my 
time will run out, and that is: In light of the President's 
plan to remove Cuba from the state-sponsored terrorism list, 
which I strongly support, how can the U.N. be of help to the 
United States in normalizing diplomatic relations with Cuba? In 
other words, taking Cuba off the terrorist list, is that a plus 
for our getting more support from the U.N. to help us with this 
whole issue?
    Ambassador Power. Thank you, Congressman. And thank you for 
raising the other issue, which I confess I had not reflected on 
before, despite being a big fan of salsa music.
    With regard to the U.N., what I can say is, up until the 
President's decisions from December, Cuba has been a very--even 
to call it a polarizing issue would be probably an 
understatement.
    There is an annual resolution in the General Assembly in 
opposition to the U.S. embargo against Cuba that usually 
passes, basically, with the support of a majority of countries 
within the U.N., but also with only a couple no votes, usually 
us and Palau and maybe, I think, on occasion, Israel.
    We have been very isolated within the international system, 
which I raise, and--again, given my earlier exchange over Cuba, 
because I think the steps that we have taken have actually made 
it easier, I feel, for me to be heard on Cuban human rights 
issues than I was before.
    Because every time I would raise Cuban human rights--and, 
again, I--Congressman Diaz-Balart, maybe this is just something 
I could also direct at you--in the past, when I would raise my 
human rights concerns--there have been 600 short-term arbitrary 
detentions of Cubans in the month of March alone. But when I 
would raise that in the past, all I would hear about is the 
embargo.
    And now I feel I have a clean shot at making the case 
because the diversion that--and, frankly, this is all that 
people were doing, was using it as a diversion, but we were 
very isolated. And now we are no longer isolated, and I think 
we are in a stronger position to raise our human rights and 
democracy concerns about Cuba.
    That is one example. And we do that whether it is with 
regard to individual prisoners. We tried for a long time to get 
an independent investigation into the death of Oswaldo Paya, 
and I tried that also within the U.N. Cuba--again, this may 
change--but has had a lot of support from some of the usual 
suspects, but also from some you wouldn't expect.
    And so we want to--again, we are very, very sincere that 
any process of normalization or--in the event that the state-
sponsored terrorism designation goes ahead and is rescinded, 
that is not--does not mean Cuba gets a pass on the human rights 
issues of concern.
    Indeed, I think that we will be more successful in foraging 
coalitions and putting more pressure not just from the United 
States, but also from some of our European friends and others, 
if we can get, you know, our own issues sort of put to one side 
and focus on what really matters, which is the fate of the 
Cuban people themselves.
    Mr. Serrano. Well, I thank you. I thank you for your work 
on all this. Thank you.
    Ms. Granger. Mr. Stewart.
    Mr. Stewart. Thank you, Madam Chair.
    At the risk of repeating myself with some of my peers up 
here on the stand, I want to tell you a little bit about my 
background as I make my observation and then a question.
    Now, I had the real privilege of serving as a pilot 
representative when I served in the Air Force to the START II 
and START III implementation with the Russians, and I learned 
even as a young captain that this lesson--and I am certain that 
this is true--and that is, if someone wants to cheat on a 
treaty such as this, they can find a way to do that. There is 
no question in my mind that that is true. I could give you 
many, many examples of why I believe that.
    But the reason that those strategic negotiations worked 
with the Russians and the United States is that there was a 
modicum of trust between them. We had a generation of having 
negotiated over previous treaties in which they were carried 
out and verified, and we believed that we could work with them 
because we both wanted the same thing.
    I don't believe that is true at all with our negotiations 
with Iran. And I appreciate your efforts to move forward on a 
very important issue, but I think that you and I or the 
administration and I view their willingness to comply with the 
treaty in a very different way.
    If I could make one other observation and then I will ask 
my question. There has been much talk about the snap-back 
sanctions, and I think you and I would agree that it took 
extraordinary effort on your part--and I know that you were an 
important part of that--an extraordinary effort on the 
administration in order to put the present sanctions in its 
place. And I would say that they are fragile, and I think it 
has surprised many of us that they have held as well as they 
have.
    But imagine, if you would, 2 years from now when multiple 
countries, thousands of companies with millions and perhaps 
billions of dollars of investment on the line, and every 
industry--oil and finance and shipping and aviation--I don't 
think you are going to see snap-back sanctions. I think it is 
going to be an ooze-back at best. It is going to be slippery 
and slimy and full of holes.
    And we have already admitted that we will lose China and 
Russia, and I think we are likely to lose France as well. And 
once that happens, I don't know how you stop the dam from 
breaking. Because when other countries see these primary 
partners violating any snap-back provisions, I don't know how 
we would dissuade them.
    Having made those comments--and I am not asking you to 
reply because you already have, and we appreciate your response 
to this point--my question primarily is this, and that is with 
the IAEA. And many of us are frustrated--and I am sure you are 
as well--with their inability--and this isn't a criticism of 
them. It is a criticism of their Iranian partners--their 
inability to get very specific answers to a long list of 
questions regarding primarily Iran's military installations and 
the role that those have played in the development of their 
previous weapons and atomic weapons--or nuclear weapons 
programs.
    Do you share that frustration? And, if you do, why do you 
think that they are going to be any better as they try to 
implement and carry out this agreement?
    Ambassador Power. Thank you, sir.
    And I am going to--I am unable to resist the temptation of 
responding just to your opening comments because they are, of 
course, very legitimate concerns. And when it comes to the lack 
of trust for Iran, we share it.
    This agreement framework and any ultimate agreement is 
predicated on a lack of trust rather than trust. That is why we 
are phasing sanctions. That is why we are talking so much about 
snap-back. And I will come to your ooze-back point in just a 
second. But----
    Mr. Stewart. Can we agree to call it ooze-back from now on?
    Ambassador Power. I think the Uzbeks would have a problem 
with that.
    But the--I think what is really, really important is the 
extent of the verification and the transparency regime, the 
agreement to implement and then ratify the additional protocol, 
the modified code, which requires them to declare anything not 
after it is already up and running and built, but, you know, 
when the idea has struck, and the extent of the presence, which 
we haven't seen.
    The JPOA is only over a finite period of time. I concede 
that point. But the IAEA has reported compliance. And, as I 
mentioned earlier, in the instance when it had a concern, it 
raised that with the Iranians and they complied.
    Now, you may say, well, that is just because Iran is on its 
best behavior because it wants to get the big deal in order to 
get----
    Mr. Stewart. And if I could comment on that----
    Ambassador Power. Yes please.
    Mr. Stewart [continuing]. Madam Ambassador, you say Iran is 
on their best behavior and, yet, look what they are doing from 
Yemen to Syria, to----
    Ambassador Power. No. No. No. But stick to the nuclear 
issue. I can--I can speak to the other issue. I deal with the 
other issues every day on Yemen, on Syria, on Iraq, et cetera.
    Mr. Stewart. I know your point. But it is worth making the 
point as well. This is as good as it is going to get with them.
    Ambassador Power. This is--I am speaking very narrowly 
about the nuclear issue.
    Mr. Stewart. I understand.
    Ambassador Power. I don't think there has been any 
improvement in Iran's behavior on the host of other issues that 
you mention and that I--again, that we all work on in 
cooperation with one another most days.
    The--but the fact that every part of the nuclear supply 
chain is going to be monitored by the IAEA, the fact that we 
will have in the declared sites, the ones we all know about, 
state-of-the-art technology, electronic seals, daily access, et 
cetera.
    But coming back to the nuclear supply chain--because that 
is the issue where the covert concerns get raised--they would, 
as you know, have to have an entire covert nuclear supply 
chain, so not just uranium mines that nobody has ever heard of, 
uranium mills nobody has ever heard of, storage facilities 
nobody has ever heard of--that takes a lot of work and a whole 
lot of subterfuge, and we retain the ability that we have 
demonstrated--we and our Israeli friends and others have--to 
also have our own independent ways of judging what is going on 
on the ground.
    So we will also see quickly whether or not the IAEA is 
getting the access that it seeks, and we will have a means of 
resolving any standoff in that regard that will go in favor of 
the IAEA. And so we will come to a point at which they are 
either in violation or they are not.
    On PMD, just to say that that is one of the issues along 
with the changes that need to be made at Iraq and Fordow and 
Natanz, those questions will need to be answered in the first 
phase before any relief is forthcoming----
    Mr. Stewart. And my time is well expired.
    Ambassador Power [continuing]. Further--any further relief 
is forthcoming.
    Mr. Stewart. Thank you.
    And if I could just conclude, reemphasizing what I think 
both of us have explored here, that if they want to cheat, they 
can find a way to cheat. Despite all of the details you have 
enumerated here, they still could find a way to cheat. And the 
IAEA is very frustrated because they haven't answered their 
questions, provided information. I am deeply concerned that 
that will be this case 2 years from now as well.
    Ambassador Power. But they could--the same argument 
applies, as you know, right now with all of the sanctions in 
place, the same argument about whether they are able to cheat.
    The difference is we will have more inspectors on the 
ground and more of an ability to catch them. Right now they are 
at a 2- to 3-month breakout time. The difference is they will 
be at a 1-year breakout time, which is in the U.S. interest.
    Mr. Stewart. I am happy to buy you a beer and continue.
    Ambassador Power. Okay.
    Ms. Granger. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Ambassador, welcome. Good to see you.
    Ambassador Power. Thank you.
    Ms. Wasserman Schultz. I am going to mix things up a little 
and ask you something not related to Cuba, Iran, or Israel, 
because I have a sense, even though I just arrived, that that 
was pretty well covered before I got here. Just a hunch.
    I want to ask you a couple of questions that are near and 
dear to, I know, both me, Congresswoman Lee, Congresswoman 
Lowey, and Ms. Granger, and that is the way that women are 
treated and the potential for exploitation and what we are 
doing about it in U.N. Peacekeeping missions and in U.N.-funded 
operations.
    But I also want to ask you about the notion of training 
women peacekeepers. I know we know that the challenge in having 
more women peacekeepers at the U.N. is that there are not a lot 
of women in military and police roles. So, as a result, there 
is a very small pipeline.
    I recently learned about a special training program that is 
for female military officers. It was a first-of-its-kind 
initiative. U.N. Women in India, in partnership with the Center 
for United Nations Peacekeeping, developed and conducted a 
special technical course for female military officers. It was 
in New Delhi and, apparently, there were officers from 24 
troop-contributing countries that participated in the course. 
And it essentially is going to sort of build our bench.
    I think, obviously, it is important to have in very 
specific circumstances a woman on the front lines of the U.N.'s 
peacekeeping efforts versus men, not that men can't do a very 
effective job. But, obviously, with cultural sensitivities and 
gender sensitivities, having more women for a variety of 
reasons is really important.
    So I wanted to ask you about that program, ask you if you 
knew enough about that model to suggest that maybe we could 
expand it and use it for training going forward, but, generally 
what else can we do to train more women and to put more women 
in peacekeeping roles at the U.N.?
    And I will ask you the other question at the same time, and 
that is just the ongoing efforts to deter sexual exploitation 
in U.S. Peacekeeping operations. I mean, obviously, there are--
U.N. Peacekeepers are operating in countries where there are a 
lot of challenges, but we have sexual abuse in U.N. 
Peacekeeping missions similar to what has gone on in our own 
military. I would like to know what steps are being taken to 
address that issue because, obviously, anything we can do to 
reduce and use our leverage financially to effect change there 
is important.
    Ambassador Power. Okay. Thank you so much, Congresswoman, 
for the change of pace and for the excellent questions. These 
are issues very close to my heart, and they should be easier to 
fix than they are.
    In terms of the program that you reference, we are very 
excited about this. We are constantly talking about it publicly 
as a way of encouraging more countries to institutionalize 
programs like this.
    We actually just recently passed another Security Council 
resolution that is the re-up to so-called Resolution 1325, 
which is the Women, Peace and Security resolution, which sort 
of set the framework for this now I guess 20 years ago.
    And in that we very explicitly called on countries to 
increase the recruitment of female soldiers and female police 
within their own militaries and then called on the U.N., also, 
to make more of a point when it engages a TCC, a troop-
contributing country, or a PCC, a police-contributing country, 
to actually make--send a demand signal that this is what they 
want.
    As you know, the numbers are strikingly small, but we 
have--I have certainly seen in the field in places like Darfur 
the effects it has when women police officers are the ones to 
go and engage young women who have been raped en route to, you 
know, getting firewood, and it is just a wholly different 
dynamic.
    And the sense of shame and the--you know, trying to tell 
that story to a male foreign--you know, not even from your own 
country or your own community, but someone who doesn't speak 
your language and who is a guy, it is sort of really, really 
challenging and just, compounds the pain that these people are 
experiencing.
    So we, the United States, I think, since 2005 have trained 
about just over 5,000 women peacekeepers through our GPOI 
program, but we also, through our national action plan on 
Women, Peace and Security, on the implementation of 1325, have 
made a commitment to try to increase that.
    I think the more we talk about it, the more we emphasize 
it. It is a big priority for the Secretary General. But the way 
the U.N. works, of course, is the Secretary General is at the 
mercy of what, again, each of the member states puts forward.
    I think our embassies can put also--and our DATs, our 
defense attaches, can be engaging in, again, encouraging that 
kind of recruitment. But as a general rule, the U.N. tends to 
amplify what the dynamics are, as you suggested, within the 
composite member states of the U.N.
    So the world we need to change is the world inside member 
states, and that is why, again, having enormous resolutions and 
the political push is important, but we need to do it at the 
ground level.
    In terms of sexual exploitation and abuse, I think the U.N. 
has improved its vetting for troops and police who are going 
out into the field. Individuals who have been alleged to carry 
out these acts are generally sent home while an investigation 
takes place.
    There, though, does need to be far more follow-up in the 
host country. Because what happens is they go home and then, 
again, the U.N.'s relationship with it--I mean, there may not 
even be a U.N. Presence in a particular country--tends to 
become atrophied.
    So we also need to work through our embassies to also keep 
the pressure on those countries that say, ``Yes. We are going 
to do an investigation,'' but then, you know, enthusiasm for 
that can melt away, you know, once the individual is back in 
the host country.
    So it is--again, we are nowhere near where we need to be, 
but we are in a much--there is much more of a top-down 
commitment from the U.N. bureaucracy, much more of an awareness 
among TCCs and PCCs that this is a priority. And, again, we 
need to see results in the field.
    Ms. Wasserman Schultz. Madam Chair, just 10 seconds more of 
indulgement, so that I could ask you know, we obviously have 
members travel around the world and we have meetings with a lot 
of your host countries.
    And, to the degree that--we are able to raise issues from 
our perspective so that they are not only hearing them from 
you----
    Ambassador Power. That so would be----
    Ms. Wasserman Schultz [continuing]. If you could find a way 
to let members know as we are approaching recesses where we 
know CODELs are going out, know many of us would be happy to do 
that.
    Ambassador Power. Great. Thank you so much, Congresswoman.
    Ms. Wasserman Schultz. Thank you.
    Ms. Granger. Thank you.
    We are going to have another round of questions, but we are 
going to have to be shorter in our questions and shorter in our 
answers or I won't get around to everyone.
    Ambassador Power. Will do.
    Ms. Granger. I am going to ask first about the Palestinian 
Authority briefly.
    As it is obvious that they are turning their attention away 
from direct negotiation, instead going to the U.N. and the ICC, 
how do their actions at the U.N. and the ICC affect U.S. 
financial assistance to the Palestinian Authority? I see 
another $440 million request for the Authority in the fiscal 
year 2016 budget request.
    I also ask you in that same vein if you expect the 
Palestinians to file formal charges against Israel and the ICC. 
What are you doing to try to discourage this? And if it is true 
that the ICC has already begun preliminary investigation into 
Israel's activities, how is the U.S. opposing the ICC's 
involvement?
    Ambassador Power. Thank you, Congresswoman. I will try to 
be very succinct. There were a number of questions there.
    First, as you know, we did not believe that the 
Palestinians were eligible to become a party to the ICC. We 
have made clear privately, publicly, many, many times over that 
we oppose their decision to go to the ICC, that it would be 
counterproductive, further poison the atmosphere that we were 
trying to, as we were discussing earlier, improve and--and 
hopeful that the parties can improve so that the aspirations of 
the Palestinian people, you know, can be advanced, which is not 
something that this ICC track is going to secure for them. A 
two-state solution will secure that for them.
    So on the funding question, we are reviewing our 
assistance. As you know, the Government of Israel has just made 
a decision to release some revenue, in part, because at its 
core, you know, much of the assistance, whether it is the 
assistance that goes through Israel or assistance that comes 
from this body, is assistance that we use in order to deepen 
the security partnership to counter violent extremism.
    The last thing we want is, you know, for the Palestinian 
territories to be radicalized, for youth to not have a place to 
go, for people not to be paid. And we know who exploits those 
kinds of environments. So I think we are in close touch, and it 
is a, you know, day-to-day discussion about how we go forward 
on the assistance question.
    Finally, on the ICC's own relationship to this issue, the 
prosecutor has announced that she is undertaking a preliminary 
examination. So it is prior to the investigation stage. There 
are a lot of questions that she will need to sort through.
    Again, we believe that one of those questions should still 
center on the eligibility question, given that a two-state 
solution has not been secured between the two parties. And 
while we are not a party to the ICC, you know, we, again, 
engage both the Palestinians to deter them from taking any 
further action, and, of course, we engage the court, both 
ourselves and through state parties to the ICC, to try to make 
very clear what the consequences of moving forward would be for 
what, again, we should all be for, which is peace and security 
in the region between the two parties.
    Ms. Granger. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much.
    First of all, I thank you, Madam Chair, for asking the 
question about the ICC and wonder where the chair is going. I 
won't pursue that point, but I would be interested. If you have 
any additional information, keep us updated.
    And I do want to say to Mr. Stewart at the end, I 
appreciate his pursuing the question with regard to the 
military sites.
    In fact, I just recently asked Secretary Kerry that exact 
question because, after dozens of briefings that I have been a 
part of, there seems to be no progress in Parchin or the other 
military sites, and he assured me that there could not be, and 
there would not be, a deal unless there was absolute inspection 
by IAEA of the military sites.
    So I must say I have been asking this question for months, 
and I was pleased to hear from the Secretary that this is an 
absolute given if there is going to be a deal. Otherwise, their 
view is that no deal is better than a bad deal.
    So I thank you for bringing that issue up.
    I would like to ask another question that we haven't 
touched on. We have the whole world to deal with. What about 
Russia? What are they really up to? I thought their recent 
statement about selling anti-missile equipment to Iran was an 
interesting one. I have asked for a long time what does Russia 
really want. On the one hand, they are part of our alliance to 
try to get a deal with Iran. On the other hand, they continue 
to stir up problems not only in Ukraine, but in Syria and Yemen 
and Iraq.
    So I know that you and the Secretary have looked for 
various incentives that will bring Russia into step with the 
world community. Could we be on the verge of a new cold war? 
Can you enlighten us as to your views as to Russia's intention 
in the world? And we know they continue to support the Assad 
regime.
    To what extent is this driven by Russia's battle with 
terrorism in the Caucasus? Is Russia still profiting from arms 
sales to the Assad regime? I would be interested to know your 
view of Russia's role in their region and in the world and in 
our future relationships.
    Ambassador Power. Thank you, Congresswoman. It is a 
question that, given Russia's role as a permanent member of the 
Security Council, I grapple with every day and see different 
manifestations of every day.
    First, it is really, really important, particularly today 
and this week, to point out that Russia's aggression in Ukraine 
has not ceased. There was a significant drop in violence, but 
now that situation has escalated.
    And it has escalated in large part because the separatists 
backed by Russia did not withdraw their heavy weapons as they 
were supposed to under the Minsk Agreement from the front lines 
because Russia maintained a regular army presence within 
eastern Ukraine, including command and control and training. 
The convoys that are not inspected by the international 
community, the OSC or the ICRC, keep coming in. I think we are 
expecting the 24th such convoy that just moves across the 
border blatantly.
    So, again, this is an area of significant concern, and it 
causes us again and again--at the time that we would very much 
like to see the Minsk Agreement be implemented and move out of 
this period of confrontation and diplomatic and economic 
isolation of Russia, we now have to be thinking again about 
what are the consequences going to be of further aggression in 
Ukraine.
    So you have that as the most egregious example of Russia's 
defiance of international norms. Alongside that you mention the 
support for Assad, support even as we work together to 
dismantle Assad's declared chemical weapons program.
    You know, this is a regime that drops thousands of barrel 
bombs on civilian neighborhoods, uses chlorine against children 
and adults, for that matter, and, yet, the Russian support for 
that government continues. And it is, again, a huge problem and 
it has really paralyzed the U.N. Security Council, where I sit 
every day, which is responsible for maintaining international 
peace and security and cannot meet that responsibility because 
of Russian obstructionism.
    So you have all of that and the internal situation in terms 
of the human rights crisis that civil society and others are 
facing, anybody who speaks out being vulnerable, independent 
media being cracked down upon, of course, the recent 
assassination of a leading opposition figure, and just a really 
difficult situation for anybody who wants to express their 
views or assemble peacefully, et cetera, inside the country. 
And we, again, always make our views known on this, speak out, 
and make those concerns, again, known publicly and privately. 
So you have all of that on the one hand.
    But then, again, back to Congressman Stewart's--the 
exchange I had with him, on the other hand, you have the fact 
that they did stand with us through the P5+1 negotiations. They 
were a--and remain on, again, the declared chemical weapons 
program a critical part of dismantling that program and getting 
rid of, you know, more than 1,000 metric tons of sarin and 
other, you know, toxic chemicals that Assad probably would have 
used as a routine weapon of war if they were still within the 
country.
    On ISIL, on the stopping--trying to stop the flow of 
foreign terrorist fighters, we have very, very useful technical 
discussions, and I think that is an area where cooperation 
needs to continue. Of course, Russia's definition of a 
terrorist and our definition of a terrorist, you know, tend to 
be different. But on ISIL and on Al Qaeda, you know, again, 
that is something that we need to work on together.
    So we are entering into a period where we will cooperate on 
areas that are in our national security interests, and, 
presumably, that is the logic of their cooperation as well. And 
we will take measures as we need to when they defy 
international norms and commit aggression in their neighborhood 
or beyond.
    Mrs. Lowey. Thank you.
    Ms. Granger. Thank you.
    I will say before we go on that, in the past 5 weeks, I 
have been to Ukraine twice with bipartisan, very high-ranking 
delegations from Congress, and we sent a letter to the 
President. The President of the Ukraine made a very impassioned 
plea for weapons for them to defend themselves. They are very, 
very concerned about what is going on there.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    By the way, before I say anything else, I do need to thank 
Ms. Chartrand--I always get your name--Jennifer, your name 
wrong.
    But during this crisis when the Americans were being 
attacked in Panama City, I contacted her, we contacted her. 
They put us in contact with the DCM in our Embassy in Panama, 
and they were exceedingly responsive. And I think it is 
important to note that. And so I am very grateful for that. So 
thank you.
    Ambassador, you mentioned a number of issues with Russia, 
you know, Assad--I think that the concept that he was a 
reformer--that has been thrown out the window. You mentioned 
again the support for Assad, the Russian support for Assad. You 
know, we have got the weapons to Iran. There is a million 
things that we could mention. And I will forget many and you 
will forget many.
    Obviously, the invasion of the Ukraine, their continuing 
aggression in the Ukraine, and they still have troops in 
Georgia. And so--and I will tell you the previous 
administration at first thought that Putin was a person that--
you know, he looked into his eyes and read his soul and, 
eventually, he--President Bush realized and called him a very 
cold human being.
    Have we reset the reset? And I am not saying this as a 
gotcha thing. Is there an understanding that--and I think, from 
your words, I mean, you clearly understand that. But is there 
an understanding that the--you know, treating and disregarding, 
which is what a reset--disregarding past abuses? And, remember, 
the reset was done right after the invasion of Georgia.
    Is there a different attitude now as to how we deal with 
the Russians as opposed to kind of like, ``Well, don't worry 
about it. We are okay. We are buddies''? Is there a different 
understanding now of the true nature of a regime that I believe 
is a dictatorial human rights-abusing regime?
    Ambassador Power. Well, I think Russia has taken actions 
that have resulted in not only the attempted lopping off of 
part of a neighbor, but the attempted neutering and 
evisceration of the Democratic progress that Russia had also 
made internally, you know, including throwing out USAID, which 
was a critical source of support for--and a lifeline for some 
of the lawyers groups and independent journalists and 
anticorruption crusaders within Russia.
    So the relationship, of course, is now one that takes on 
these issues. I mean, back in 2009, if you had been told that, 
by virtue of U.S. and European sanctions, the ruble would have 
depreciated the extent to which it has, economic growth would 
have shriveled--I mean, Russia was going in a very different 
direction.
    But I want to stress this isn't--I mean, sanctions, just as 
with Iran, are not an end in themselves. We are not interested 
in sanctions that are hurting the Russian economy for the sake 
of sanctions. We are interested in Putin ending his aggression 
in Ukraine.
    Our dialogue with the Russians on Syria is rooted in an 
argument that has not proven persuasive up to this point, but 
which is that, actually, we both have an interest in seeing the 
end of the Assad regime because the Assad regime has made 
possible the growth of ISIS across Syria. And, indeed, it was a 
safe haven, of course, for those ISIS soldiers that then went 
into Iraq and took over Mosul and inflicted such suffering on 
so many.
    So we still believe that our shared interest in combating 
terrorism, in ensuring that chemical weapons are not used and 
they don't become a routine weapon of war anywhere--and that 
includes chlorine--should allow us still, notwithstanding a 
very significant deterioration in the way that we engage with 
them by virtue of sanctions and by virtue of their aggression 
in Ukraine--we still believe that there have to be areas of 
tactical cooperation that we maintain, and the discussion 
earlier of sanctions evasion is just one example.
    It is in our interest for Russia to be a country within the 
U.N. system that observes the international sanctions that 
Russia is a part of putting in place. We need--even if we want 
to put in place something that is of great interest to 
Congresswoman Lee and that others have mentioned, sanctions on 
the protagonists in South Sudan who are pulling ethnic Nuer or 
Dinka out of the house and just killing them because they are 
of the wrong ethnicity, we have to go through Russia in the 
Sanctions Committee of the United Nations Security Council.
    So we don't have the option of just turning our back and 
writing off this country, but we are very clear-eyed about the 
differences and the very disturbing trends.
    Mr. Diaz-Balart. Chairwoman, I want to thank you.
    Ms. Granger. Ms. Lee.
    Ms. Lee. Thank you very much.
    Sudan. I co-chair the bipartisan caucus on Sudan and South 
Sudan, and we have worked for many, many, many years on a 
bipartisan basis addressing the humanitarian crisis in South 
Sudan, which is now deteriorating. According to USAID, more 
than 1.5 million people have been displaced, 2.5 million people 
are facing food insecurity in South Sudan since the outbreak of 
violence in December in 2013.
    Now, with the recent collapse in the peace talks, I believe 
it is very, very critical--and the caucus also believes this--
that the U.S. Government increase pressure on the parties to 
reach a negotiated settlement and to work to bring U.N. 
sanctions into force.
    So, Madam Ambassador, can you tell us what the dynamics are 
at the United Nations. You mentioned Russia as it relates to 
sanctions, but we have asked for the establishment of an arms 
embargo. You know, we can't seem to get that done.
    Also, the current U.N. peacekeeping troop levels in South 
Sudan--want to know, are they being maintained at the current 
level? What do we need to know from this committee's vantage 
point that we need to do to make sure those peacekeeping forces 
are funded?
    And then, finally, with regard to U.N. peacekeeping mission 
in Haiti, I believe the troop reduction will take place very 
soon and will pull down to what they were prior to the 
devastating earthquake in 2010. So what is the timeline of this 
reduction? And how will this affect the security in Haiti?
    Ambassador Power. Thank you.
    And let me, if I could, just take this occasion--since we 
haven't had too much time to talk about our budget request, 
take advantage of the opening that you have given me to make a 
fervent appeal that the President's budget requests be 
fulfilled, in part, because of, well, frankly, the whole host 
of issues we have discussed up to this point, but because I 
think what you see with the Haiti drawdown is that we are--and 
with the drawdown in Liberia that is now recommencing, now that 
the Ebola crisis has abated, at least in Liberia. Nobody can be 
overconfident about that, given its presence elsewhere in the 
neighbors. But you can count on us. We are looking at every 
mission and seeing where we can recalibrate, right-size.
    In the case of Haiti, just to pick up where you ended, 
Haiti is entering into a process where elections are occurring, 
but they have also massively increased the capability of the 
Haitian National Police.
    I was down there in January and was told by the U.N. Police 
Commissioner that it takes 10 international police to do the 
work of one fully trained Haitian police, which is not normally 
necessarily the ratio one would expect. But that is a testament 
to how far they have come, I think, with the U.N.'s help.
    I cannot stress how alert we are to the expanding size of 
the demands that we are making on this committee and on the 
Congress and the--and the appeal to American taxpayers that I 
feel I continually have to make, but it is for these causes 
that are critical to our national security.
    And so, if we can draw down in Haiti, right-size--because 
we don't want to in any way squander the gains that have been 
made--if we can consolidate in Liberia and in Cote d'Ivoire--we 
have to increase in South Sudan. It is actually a modest 
infusion, considering the scale of the threat. We have to 
fortify the mission in Mali because terrorists are now taking 
on peacekeepers, and even today we had another incident where 
there was a suicide attack at a U.N. Base. It is a horrific 
situation.
    But when you go through the list of the peacekeeping 
missions that we are asking you to help us fund, there is just 
not one mission that you would take of and say, ``Eh''--you 
know, even Cyprus, which is the mission that everybody sort of 
cites, is funded largely not by us, but actually by the parties 
themselves. And, indeed, of course, given the number of crises 
in the world, the last thing you would want to do is 
destabilize something when there is a peace process that we 
want to ensure reaches results over the long period that that 
crisis has existed.
    But my point is just join us in this--if you could, in this 
process of looking at these missions. We have cut the per-
peacekeeper cost by 18 percent. It can go down more. We are 
pushing every day on that. We are shrinking the size of 
missions because we know that there is a certain fluidity where 
other missions need to be increased. We know there is not an 
infinite pie here.
    But we are carrying over into this year a significant 
deficit from last year, hopefully, less of one than we thought 
we were going to be carrying. And, thus, while our appeal looks 
bigger this year, the actual requirements are just--are a 
little bit lower even than they were in 2015 for 2016, at least 
the requirements that we expect.
    On South Sudan, just very briefly, as my time is up, we 
have put in place through this recent Security Council 
resolution--now you might call it a pressure architecture. So 
we have a sanctions regime and now we will need to go forward 
in collaboration with our IGAD friends, who are trying to 
broker this peace process with designations on those who are 
spoiling and who are responsible for the breakdown in talks. We 
have to be strategic about that and think about how to ramp up 
perhaps or what the right sequencing is.
    And the resolution also references an arms embargo, and we 
are very drawn, as are you, to the idea that, of course, 
stemming the flow of arms to this region may be another factor 
that could change the calculus.
    But the biggest issue in South Sudan is that the very 
leaders that this Congress and our administration and our 
predecessors supported have not put the interests of their 
people above their own parochial desire for power or for self-
preservation. And that is the roadblock that we have to lift, 
and pressure has got to be part of that.
    Ms. Lee. Thank you very much.
    Ms. Granger. Thank you, Ambassador Power. Thank you again 
for your time today and for your service to the country.
    This concludes today's hearing. Members may submit any 
additional questions for the record. The subcommittee on State, 
Foreign Operations, and Related Programs stands adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                           W I T N E S S E S

                              ----------                              
                                                                   Page
Brownfield, Ambassador W. R......................................   563
Browning, Ambassador Steve.......................................     1
Dijkerman, Dirk..................................................     1
Hogan, Elizabeth.................................................   563
Jacobson, R. S...................................................   563
Kerry, Hon. John.................................................   111
Konyndyk, J. M...................................................     1
Lenhardt, A. E...................................................   390
Lew, Hon. Jack...................................................   489
Power, Samantha..................................................   627

                                  [all]
</pre></body></html>
